<html>
<title> - TERROR ATTACKS: ARE WE PREPARED?</title>
<body><pre>[Senate Hearing 108-797]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-797

                    TERROR ATTACKS: ARE WE PREPARED?

=======================================================================

                                HEARING

                               before the

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING PREPARATIONS FOR POSSIBLE FUTURE TERRORIST ATTACKS, FOCUSING 
  ON A CONCEPT OF OPERATIONS PLAN, TAILORED TO EACH NATIONAL SPECIAL 
  SECURITY EVENT, WHICH ESTABLISHES A FRAMEWORK FOR MANAGING FEDERAL 
PUBLIC HEALTH AND MEDICAL ASSETS AND COORDINATING WITH STATE AND LOCAL 
                      GOVERNMENTS IN AN EMERGENCY

                               __________

                             JULY 22, 2004

                               __________

 Printed for the use of the Committee on Health, Education, Labor and 
                                Pensions



                    U.S. GOVERNMENT PRINTING OFFICE
95-103                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


           COMMITTEE ON HEALTH, EDUCATION, LABOR AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman
BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY GRAHAM, South Carolina       JOHN EDWARDS, North Carolina
JOHN WARNER, Virginia                HILLARY RODHAM CLINTON, New York
                   Sharon Soderstrom, Staff Director
      J. Michael Myers, Minority Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS
                        Thursday, July 22, 2004

                                                                   Page

Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire, 
  opening statement..............................................     1
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, opening statement...............................     2
Thompson, Hon. Tommy, Secretary, Department of Health and Human 
  Services; accompanied by Julie Geberding, M.D., Director, 
  Centers for Disease Control and Prevention and Anthony S. 
  Fauci, M.D., Director, National Institute of Allergy and 
  Infectious Diseases............................................     4
    Prepared statement...........................................     7
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................    18
Dodd, Hon. Christopher J., a U.S. Senator from the State of 
  Connecticut, opening statement.................................    21
Tolbert, Eric, Director, Response Division, Federal Emergency 
  Management Agency (FEMA), Department of Homeland Security......    25
    Prepared statement...........................................    27
Mitchell, Andy, Deputy Director, Office for State and Local 
  Government Coordination and Preparedness, Department of 
  Homeland Security..............................................    29
    Prepared statement...........................................    31
Sellitto, Mike, Deputy Fire Chief, Washington, DC................    38
    Prepared statement...........................................    40
Thibault, George E., M.D., Vice President, Clinical Affairs, 
  Partners Healthcare............................................    98
    Prepared statement...........................................   100
Waltman, Susan, Senior Vice President and General Counsel, 
  Greater New York Hospital Association..........................   102
    Prepared statement...........................................   105
Martinez, Ricardo, M.D., Super Bowl Senior Medical Advisor, 
  National Football League, Chairman and Chief Executive Officer, 
  Medical Sports Group...........................................   116
    Prepared statement...........................................   117

                          ADDITIONAL MATERIAL

Articles, publications, letters, etc.:
    Questions to Secretary Tommy Thompson from:..................
        Senator Gregg............................................   124
        Senator Kennedy..........................................   125
        Senator Murray...........................................   125
        Senator Clinton..........................................   126
Question of Senator Clinton for Andy Mitchell....................   127

 
                    TERROR ATTACKS: ARE WE PREPARED?

                              ----------                              


                        THURSDAY, JULY 22, 2004

                                       U.S. Senate,
        Committee on Health, Education, Labor, and Pensions
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
Room 430, Dirksen Senate Office Building, Hon. Judd Gregg 
(chairman of the committee) presiding.
    Present: Senators Gregg, Kennedy, Dodd, and Alexander.

                   Opening Statement of Senator Gregg

    The Chairman. If we can get everybody's attention, 
Secretary Thompson is on his way. He is in a car on his way. I 
thought in order to expedite the hearing since we have got some 
very interesting witnesses we want to hear from, and 
unfortunately we have a variety of votes coming up which may 
totally disorient the events here--here is Secretary Thompson. 
Great.
    Nice to have you, Mr. Secretary, and it is nice you are 
joined by Dr. Gerberding and Dr. Fauci, obviously.
    The purpose of this hearing is to review the status of our 
preparation and our capacity to deal with a significant 
biological event. One would presume it would be terrorist 
driven. There has obviously been a tremendous amount of 
attention to this issue by this committee, but more importantly 
by the government generally. Since 9-11, we have put over $14 
billion in the issue of defending this country against a 
biological attack, and we would like to review where we stand 
with the members of those government agencies which have the 
priority responsibility in this area.
    The issue, I believe, breaks down into a number of 
functions. The first is our ability to detect prior to an event 
biological agents coming into the country and potentially being 
dispersed and where we stand in our capacity for such 
detection. The second goes to the issue of our capacity to deal 
with a biological event, specifically what our status is 
relative to the production and development of antibodies and 
vaccines, a major issue, our stockpile capability and what we 
have in the pipeline to deal with things like anthrax, 
botulism, smallpox, plague, and the top six areas that we have 
identified.
    The third area that this breaks down into is our capacity 
to contain an event and to handle the surge of need in the area 
of health care which would occur from an event. If it is, for 
example, a smallpox outbreak, the capacity to contain the 
actual outbreak, if it is an anthrax attack, the capacity to 
deal with the issue of health care and caring for people who 
have come in contact with the agent, and specifically whether 
or not we have gone through and participated in enough 
preparation in those areas which would be most likely subject 
to such attack; and, finally, the coordination issue, which is 
a constant issue of concern between the State and Federal 
agencies which are responsible.
    I think the 9-11 report which has just come out, which I 
have only had a chance to review, as I suspect most people 
have, in a superficial way, but one of the very apparent 
conclusions of that is that preparation is absolutely key in 
our capacity to deal with these types of events, and our job, I 
think, as a Congress is to review where we stand in that 
preparation process. That is what this hearing is about, and we 
look forward to hearing from our witnesses. We have got an 
exceptional group of folks here to talk to us, and I will yield 
to Senator Kennedy for his thoughts.

                  Opening Statement of Senator Kennedy

    Senator Kennedy. Well, thank you very much, Mr. Chairman, 
and thank you for having this hearing. I think it is enormously 
important and it is timely as well. If we look at just 
yesterday when we were at the White House and the President 
signed the BioShield legislation which will bring together both 
the private sector and the public sector in order to try and 
develop the kinds of vaccines and treatments to protect against 
some of these pathogens that may be used in a terrorist attack, 
this is progress. That is certainly enormously important.
    Senator Gregg has identified that obviously we want there 
to be an emphasis on preventing an attack so that we are going 
to have accurate intelligence so such an attack and assault on 
the United States will not take place. We wanted to have the 
development of these vaccines and other materials so that if we 
are going to be attacked, they are going to be available and 
accessible to the public. That is enormously important, and it 
is very important to take steps developing vaccines, and there 
is significant progress on it.
    We also want to be able to detect, but also, as the 
Chairman pointed out, contain an attack. That is where our 
health delivery systems play such an important role, and I know 
we are going to hear about what has been happening up in, for 
example, my own home city of Boston where Partners Health Care 
spent $6 million on terrorism preparedness, but received only 
$233,000 from the HHS hospital grant program; Boston Medical 
Center, spent $2.7 million, but received only $39,000; Dana-
Farber spent $439,000, received only $15,000; Caritas Carney is 
reimbursed only about 3 percent of what it spent.
    Now, money is not all of the answer to this, but what we 
are finding out with these hospitals, and this is pretty 
characteristic around the country, that these are funds that 
are being taken away from patient care, and we have not got the 
unlimited kinds of resources. The major hospitals even in 
smaller towns have not got those kinds of resources. Prior to 
9-11, Senator Frist and I had strongly supported having 
additional kinds of help and assistance for the hospitals that 
will have a major role in containment of an attack. Smaller 
community hospitals, or other kinds of health delivery systems 
also have an important role.
    We will hear later on, Mr. Chairman, some of the challenges 
that are out there in our community, and we want to make sure 
that we are giving the kind of support to the Administration in 
terms of the funding levels so that they can do their job. If 
they are not going to get the funding levels that are going to 
be necessary to do the job, we can not expect that they are 
going to give the kind of support to the communities and health 
facilities to be able to do the job in areas of the 
bioterrorism threat.
    This hearing is very important. I think you have got an 
outstanding group of witnesses. We look forward to the 
testimony. I know the Secretary yesterday spoke at a 
conference, enormously well attended, about the importance of 
information technology and how we can deal with a lot of 
different issues not only in bioterrorism, but just on health 
care generally. This is an area that I know you are interested 
in. I know he is very interested. We are all interested, and we 
will have a chance to deal with that at another time, but I 
hope we can look forward to the comments and the testimony of 
our distinguished panels.
    Thank you.
    The Chairman. Thank you, Senator. You made a point which I 
want to emphasize, because just to preamble this, I hope our 
witnesses will address these issues. We are concerned about the 
flow of dollars out, the fact that no 2004 dollars have gone 
out, the fact that 62 percent of the 2003 dollars have not gone 
out, and that we still have even 2002 money that has not gone 
out. We are also concerned about the fact that the hospitals, 
it appears to be a formula which is essentially spreading money 
thinly across a lot of hospitals rather than focusing the money 
on the hospitals which would be the most likely targets for 
having to handle surge capacity.
    I am also concerned about the fact that even the most 
minimal standards, which are essentially reporting standards 
which HRSA has set up--of those minimal standards, which are 
three, few States have met all three. Issues like that, issues 
such as the fact that we are hearing rumor that the smallpox 
vaccine which we are purchasing may not be able to get through 
FDA approval and that the anthrax vaccines have complications.
    Those are some of the specifics. Obviously, Mr. Secretary, 
you are going to talk about the general issues, but we hope you 
will get down to specifics also. It is a pleasure to have you 
here, Mr. Secretary. You have got an extraordinary group of 
people helping you and you have made great strides. There is a 
long way to go; I am sure you will admit to that, but I want to 
congratulate especially CDC and NIH, who are represented, of 
course, by Dr. Gerberding and Dr. Fauci for really the 
exceptional leadership they have given us in the health care 
field generally and your leadership as head of HHS, which I 
think has been extraordinary.
    Mr. Secretary.

  STATEMENT OF HON. TOMMY THOMPSON, SECRETARY, DEPARTMENT OF 
HEALTH AND HUMAN SERVICES; ACCOMPANIED BY JULIE L. GERBERDING, 
M.D., DIRECTOR, CENTERS FOR DISEASE CONTROL AND PREVENTION; AND 
ANTHONY S. FAUCI, M.D., DIRECTOR, NATIONAL INSTITUTE OF ALLERGY 
             AND INFECTIOUS DISEASES, BETHESDA, MD

    Secretary Thompson. Good morning, Mr. Chairman, and thank 
you for your compliments, and thank you, Senator Kennedy and 
Senator Gregg, for your leadership in so many areas on public 
health, and I appreciate that and congratulate you and thank 
you very much.
    Thank you for inviting me to discuss an issue of the 
highest importance, protecting our country from the threats of 
bioterrorism. As you all know, our highest priority is to 
safeguard the American people. This is a responsibility that 
President Bush takes seriously and I know that it is a 
responsibility that each of you take very seriously as well.
    I am very proud to talk about my department's important 
role in defending America, because we have accomplished a great 
deal over the past few years. The contrast between what we were 
doing a few years ago and what we are doing today is absolutely 
striking. The Department will spend 12 times as much this year 
on bioterrorism preparedness as we did 3 years ago. Thanks to 
your support, funding has gone from $305 million in 2001 to 
$3.9 billion in 2004, and we have requested $4.1 billion for 
next year.
    On bioterrorism-related research alone, we have gone from 
spending $53 million in 2001 to $1.6 billion in 2004. That is 
more than 30 times as much for bioterrorism research. The 
Department has almost 10 times as many staff members working on 
bioterrorism readiness as we did in 2001. We have gone from 212 
to 1,700 this year. We have dramatically improved our capacity 
to respond to the threat of smallpox. In 2001, when I came in 
as Secretary, we had less than 15 million doses of smallpox 
vaccine available and no dilulence. The vaccine was undiluted, 
and we had no capacity to distribute it. Today, we have more 
than enough doses to vaccinate every man, woman, and child in 
America if necessary.
    Research is also underway towards a new improved smallpox 
vaccine, and Dr. Fauci is here to testify about that if you so 
desire. Research is also underway towards an improved anthrax 
vaccine, and we expect it to be available beginning in the 
middle of 2005. We right now in our stockpiles, Mr. Chairman 
and Senator Kennedy, we have enough doses to last 60 days for 
13 million people, and we are estimating within the next 12 
months to have that up to 20 to 22 million people.
    Senator Kennedy. Can I say just on this point, Mr. 
Chairman--I want to, since you are talking about availability 
of resources, just give the assurance to the people of Boston, 
and New York as well, as they are concerned about the security 
issues, about the anticipation of what has been done to protect 
those communities. I did not want to interrupt your testimony, 
but at some time maybe at the end, there would be great 
interest in both of those communities if you might just give a 
comment about what steps you have taken also in terms of the 
preventive aspects.
    Excuse me.
    Secretary Thompson. Thank you very much, Senator.
    In building on these successes yesterday morning, the 
President signed in your presence, Senators, Project BioShield 
into law, a proposal that was drafted by our Department and was 
lobbied by our Department, and it is a new initiative that 
creates a more secure source of funding to purchase the new 
vaccines and treatments. $5.6 billion has already been 
appropriated for BioShield over the next 10 years, and in 
particular, I like to take this opportunity to thank Senator 
Gregg and Senator Kennedy for their tremendous efforts to pass 
this vital initiative. It would not have happened without your 
leadership in our country, and my department is in your debt 
for that.
    In order to protect the safety and security of America's 
food supply, and you all know that this is a big concern of 
mine, we have increased the food import examination more than 
six-fold from 12,000 in 2001 to over 78,000 in 2003, and our 
goal is to hit 96,000 this year. We went from only a few States 
in having coordinated public health and hospital plans in 2001 
to having every single State complete joint planning this year.
    Our public health infrastructure is better than ever. From 
county health departments to CDC in Atlanta to the 24-hour 
command centers next to my office in the Department of Health 
and Human Services as well as the command center at CDC, and 
thanks to the improved infrastructure, we are better able to 
identify and track outbreaks quickly and are better equipped to 
connect our resources to State laboratories and health offices. 
We now are connected. When I started, we were only connected to 
77 laboratories. We now have 121 laboratories connected to CDC 
and to the information room in the Department as well as we 
have expanded a number of communities. We have 90 percent of 
all health departments now connected to the health alert 
network throughout the country.
    Still, we know that hospitals, State health departments, 
and other front-line agencies cannot possibly be fully prepared 
for any disaster. We have established strategic national 
stockpiles of pharmaceuticals and medical supplies as part of a 
nationwide preparedness training and education program for 
State and local health care providers, first responders, and 
governments. These push packages and stockpiles include large 
quantities of antibiotics, chemical antidotes, life support 
medications, and other medical and surgical items. We call 
these push packages, and they are stationed in strategically 
located warehouses ready for immediate deployment.
    We went down, some of my staff went down, and investigated 
how fast they could load, how fast they could be prepared to 
respond, and it was amazing how quickly they were able to do 
it. These supplies can be delivered to anywhere in the United 
States or in the United States territories within 12 hours. I 
believe we could do it much faster, but our goal, of course, is 
always 12 hours.
    Because of all of these dramatic steps, I am happy to 
report that we are better prepared to prevent and to respond to 
any public health emergency. That does not mean that we can 
prevent everything, but we can respond very quickly. We have 
identified several specific areas where we can do even more to 
protect America.
    First, we are anticipating future threats. We know that 
terrorists want to do everything they can to harm America, and 
they can be creative in their use of new or different 
biological agents. We are working to stay a step ahead of those 
who would harm us, using biotechnology, medical research, and 
other methods to evaluate new toxins and agents that can 
require new detection methods, preventive measures, and 
treatments.
    Second, we are working to develop safe, effective medical 
countermeasures against biological weapons agents, and we are 
taking into consideration the possibility of new or 
genetically-engineered agencies.
    Third, we will continue to lead the effort to prepare for 
mass casualty care. Our public health system has to be prepared 
to deal with widespread illness and casualties in the event of 
a biological attack or a naturally occurring outbreak of 
disease. We are working to create a national surge capacity so 
that hospitals and Federal, State, local, and private agencies 
will able to provide rapidly expandable mass casualty care. The 
Department is also taking a number of specific steps to prepare 
for upcoming profile events, which Senator Kennedy just 
mentioned, including the Democratic and the Republican National 
conventions.
    For each of these events, the Department has developed a 
detailed plan, Senator Kennedy, that establishes a framework 
for managing Federal public health and medical assets that may 
be required in an emergency. We have made every effort to plan 
and be prepared for a broad range of contingencies. We have 
invested staff, resources, and energy to coordinate with our 
Federal, State, and local partners, and with the event planners 
to ensure to the extent feasible a rapid and effective response 
to any public health emergency that may occur. We also are 
making available push packages for each one of the conventions 
in the immediate area. All of us hope that these two political 
conventions will be safe, but even if they are not, we are very 
prepared to respond.
    As during any high profile event, including the recent 
State funeral for President Reagan, we took charge of making 
sure that medical doctors and medical personnel were available 
for any kind of attack if it were to happen, as well as the G-8 
Summit on Sea Island. The Department's command center, which 
operates on a 24-7 basis serves as the primary vehicle for 
communicating and coordinating with not only HHS personnel in 
the field, but also relevant staff from the Department of 
Homeland Security, other Federal agencies, and key State and 
local event officials.
    I know some of you have seen the command center. I was 
going to show it to you, but I know both Senator Kennedy and 
you, Senator Gregg, were over there. We have invited your 
staffs to come over. Several of the staff have been over, and 
we are extending an invitation to the rest of the staff to come 
over. It is, we think, an epicenter of what a command center 
should be like, and we have had the Department of Defense, 
Department of Homeland Security, NSC, and the Vice President 
come down and view it. All of them were quite impressed of our 
capabilities to observe, to watch, and to respond. I invite all 
of you to come tour it as well. I know you will be impressed 
with those capabilities.
    So, let me reiterate, the stakes here cannot be any higher. 
We are committed. We are resolved. We will continue to do our 
part in helping to prepare and protect the country. I have with 
me Dr. Gerberding from CDC and Dr. Fauci from NIH and Stuart 
Simonson, who is the Assistant Secretary of bio preparedness in 
the Department to help answer any questions, specific 
questions, that you may want to refer to those individuals.
    Thank you for giving me this opportunity. Thank you very 
much for having the hearing, and I will be more than happy to 
answer any questions you might have.
    [The prepared statement of Secretary Thompson follows:]

           Prepared Statement of Secretary Tommy G. Thompson

    Good morning, Mr. Chairman and Members of the Committee. I am Tommy 
Thompson, Secretary of Health and Human Services. I welcome this 
opportunity to share with you information on some of the preparations 
that our Department has made for high profile events such as the 
upcoming Democratic and Republican National Conventions. As you 
undoubtedly know from the extensive media coverage over the last 
several weeks, the security that will be in place for these two 
National Special Security Events will be without precedent. The number 
of Federal, State and local agencies as well as the sheer number of 
personnel involved in the planning and implementation of security 
measures for each of these events is unparalleled. While the Department 
of Homeland Security, acting through the Secret Service, is the lead 
agency for overseeing and coordinating all efforts related to the 
security of those who will be attending or working at the conventions, 
there are myriad other agencies that are tasked with specific areas of 
responsibility.
    I am here today to share with you some of the plans that our 
Department has made and will be implementing prior to and during the 
course of these two high visibility events. For security reasons, I am 
not in a position to provide any specific details about these plans. 
However, I am able to speak about them in general terms to give you an 
idea of the extent and magnitude of our efforts.
    For each National Special Security Event or NSSE, HHS develops a 
detailed concept of operations (CONOPS) plan, tailored to the event and 
the venue, which establishes a framework for managing Federal public 
health and medical assets and coordinating with State and local 
governments in an emergency. This CONOPS plan, developed through 
extensive collaboration with Federal, State and local public health, 
medical and emergency management officials in the host city, describes 
the array of actions that HHS is either taking or prepared to take to 
support the Secret Service. It outlines not only the visible 
activities, but also the behind-the-scenes efforts that are critical to 
preparing for and responding to a public health emergency that takes 
place in the midst of a national high-profile event. The Special Events 
CONOPS plan is in turn supported by the HHS CONOPS Plan that spells out 
the responsibilities not only of my immediate office, but also those of 
every relevant agency within HHS.
    One of the key agencies in our planning for NSSEs is the Centers 
for Disease Control and Prevention. CDC's principal responsibility is 
to work with State and local public health officials to prepare for and 
respond to a potential bioterrorist attack. Over the past several 
months, CDC staff has been working with health officials in both Boston 
and New York City to expand or otherwise enhance the local syndromic 
surveillance systems to ensure close monitoring of uncommon symptoms as 
well as unusual patterns of common symptoms reported by hospital 
emergency departments and other outpatient clinics. Should a suspect 
case be detected, clinical samples will be collected and promptly 
transferred to a laboratory within the Laboratory Response Network 
(LRN) for identification and characterization. In the case of Boston 
and New York City, both local public health labs are members of the 
LRN, thus reducing the time consumed in transporting the samples to an 
appropriate lab. In fact, these two laboratories are fully equipped and 
staffed to diagnose the presence of organisms most likely to be used as 
a biological weapon.
    To ensure that the requisite expertise is readily available, CDC's 
Bioterrorism Rapid Response and Advanced Technology (BRRAT) lab will 
provide onsite technical laboratory support and consultation. 
Additional laboratory equipment from CDC as well as LRN biothreat agent 
assays will be deployed along with the BRRAT Laboratory Director and 
other CDC staff who will assist in the onsite management of laboratory 
testing, data analysis, and any ensuing investigations. A CDC on-call 
response team will be on a ``bags-packed'' status, ready to mobilize if 
the need arises. Furthermore, a broad range of subject matter experts 
are on full, stand-by alert prior to and during the entire duration of 
the high profile event.
    In Massachusetts, the State health department has collaborated with 
both the CDC and the Boston Emergency Medical Service in creating the 
Enhanced Surveillance Report form to capture information on patient 
visits to first-aid stations at the Democratic National Convention. In 
addition to manual collection methods, the State and city are currently 
researching information technology solutions to automate the daily 
collection of these completed forms. The State is also working closely 
with appropriate representatives of the Boston EMS and the Boston 
Public Health Commission Office of Environmental Health on a variety of 
emergency preparedness activities. Recently they have completed an 
updated provider registry identifying clinicians with radiological 
expertise and are now proceeding to identify clinicians knowledgeable 
about chemical agents.
    In New York City, the public health department is implementing 
electronic clinical laboratory reporting at city hospital laboratories. 
For disease reports that appear to require urgent notification, this 
system has a feature to alert relevant health department staff on a 24/
7 basis. Another system has been established to actively track outbreak 
response and ensure timely and complete investigations of all suspect 
outbreaks, whether detected by traditional or syndromic surveillance. 
The goal of this system is to implement investigations of urgent case 
and outbreak reports within 24 hours of receipt of such reports. As 
part of its effort to develop surge capacity for mass casualties, New 
York City has recruited approximately 2,500 volunteers for its Medical 
Reserve Corps and a protocol has been developed for rapid credentialing 
of these volunteers if the need should arise.
    Through funds provided by the Health Resources and Services 
Administration, hospitals in both Boston and New York City have been 
able to secure personal protective equipment for medical and ancillary 
staff and train them in the use of such equipment. Efforts have been 
made to increase the isolation capacity of hospitals in the event of an 
intentional release of a biological agent that results in a deadly 
communicable disease. Hospitals in both of these cities have also 
expanded their capacity to decontaminate large numbers of victims 
should there be either a chemical, biological or radiological attack. 
Adequate amounts of pharmaceuticals are now in place at various 
hospitals in Boston and NYC to treat hospital staff and their family 
members during the first 72 hours following an attack prior to the 
arrival of Federal stockpiles. Furthermore, equipment has been 
installed in hospital emergency departments to ensure rapid 
communications among hospitals, other first responder agencies and 
local Emergency Operations Centers.
    Food safety and security will be the primary responsibility of the 
Food and Drug Administration during the upcoming political conventions. 
FDA has been working with State and local public health officials to 
prepare for and respond to a potential terrorist incident involving 
foods. In Boston, FDA will be providing coverage at the Fleet Center 
around the clock and will be monitoring retail food establishments, 
hotels and high-risk food producers/manufacturers. The FDA's Northeast 
Regional Laboratory (NRL), located in Jamaica, New York, is equipped to 
perform the full range of chemical and microbiological analyses on 
products regulated by FDA and will serve as a back up to the State and 
local public health labs. The NRL, certified as a Biosafety Level 3 
laboratory, has the capability to rule out a broad range of biological 
agents, refer them to appropriate facilities, confirm the presence of a 
variety of select agents and toxins as well as screen for various 
poisons. FDA's Emergency Operations Center located in Rockville, 
Maryland will be operational during the entire course of both the 
Democratic and the Republican National Conventions.
    In addition to these preparations, HHS will also be working closely 
with the Department of Homeland Security to monitor BioWatch air 
samplers in 31 cities, including Boston and New York City. The filters 
in these environmental samplers are collected daily and tested for air-
borne pathogens by laboratories in the LRN that are supported by CDC.
    One of the most important components of our preparations for NSSEs 
is the Strategic National Stockpile (SNS) Program. The SNS Program has 
pre-positioned Push Packs--large caches of pharmaceuticals, vaccines, 
medical equipment and supplies--in strategic locations across the 
country. From these locations, an SNS Push Pack can be transported to 
any affected area in less than 12 hours. If the incident requires 
additional pharmaceuticals and/or medical supplies, follow-on vendor 
managed inventory (VMI) supplies can be shipped to arrive within 24 to 
36 hours. If the agent used in the attack has been identified, VMI 
contents can be tailored to provide the appropriate pharmaceuticals, 
supplies and other products. The Stockpile contains sufficient 
quantities of antibiotics at this time to provide a 60-day prophylaxis 
course to over 12 million individuals exposed to anthrax. By the end of 
this fiscal year we will have acquired enough antibiotics to treat over 
20 million people. These antibiotics also constitute appropriate 
prophylaxis or treatment for plague and tularemia. We have now acquired 
a sufficient volume of smallpox vaccine to immunize every man, woman 
and child in the United States. We also have adequate amounts of 
vaccinia immunoglobulin (VIG) to treat certain adverse reactions to the 
smallpox vaccine as well as quantities of antitoxins for treatment of 
botulism. Members of the SNS Program staff will, of course, be deployed 
to all NSSEs to coordinate issues in the field related to Stockpile 
assets.
    For high-visibility events such as the political conventions, the 
SNS will also provide Special Events Packages that are configured with 
nerve agent antidotes and cyanide kits that will be forward deployed to 
appropriate locations in Boston and New York City. While a bioterrorist 
attack may not claim victims for days or even weeks, a chemical attack, 
particularly one involving nerve agents, can cause immediate nervous 
system failure. Consequently, response time is critical. Thus, in 
addition to the Special Events Packages, CHEMPACKs will also be 
available. The CHEMPACK Project, a voluntary program launched in 
September 2002, has been designed to provide State and local 
governments with pre-positioned repositories of nerve agent antidotes 
that would greatly enhance the ability of first responders to react 
quickly to treat victims of a large-scale nerve agent attack. By 
January of 2006, we hope to have forward deployed 2,300 of these 
CHEMPACKs across the country.
    To ensure that the contents of the Stockpile match the medical 
needs of the Nation in the event of a terrorist incident involving mass 
casualties, HHS has underway an ambitious program to develop medical 
countermeasures--the diagnostics, drugs, vaccines, antitoxins and other 
pharmaceuticals--that are essential to our preparedness. For instance, 
we have embarked on a project to develop a safer smallpox vaccine that 
can be used with immunocompromised individuals. While we are working to 
acquire quantities of the currently licensed anthrax vaccine for 
delivery to the Stockpile under an agreement between the Department of 
Defense and the Department of Homeland Security, HHS will also be 
acquiring, under the Project BioShield program, a significant amount of 
the next-generation anthrax vaccine.
    In addition to all these preparedness efforts, I will also be 
sending the Secretary's Emergency Response Team (SERT) to Boston and 
New York City. The SERT Team was created soon after the events of 
September 11, 2001 so that HHS can rapidly deploy a group of specially 
trained professionals to any locale in the country to assess the 
consequences of a disaster, whether naturally occurring or terrorist-
triggered, and coordinate public health and medical services between 
the local or State incident management authorities and our department. 
Representatives of various agencies within HHS serve on the SERT Team, 
depending on the types and array of technical expertise required. For 
example, the Food and Drug Administration (FDA) is able to provide food 
safety inspectors, and CDC can provide epidemiologists to investigate 
an infectious disease outbreak caused by the intentional release of a 
deadly pathogen.
    During any high profile event, including the recent State funeral 
for President Reagan and the G-8 Summit on Sea Island, the HHS 
Secretary's Command Center, which operates on a 24/7 basis, serves as 
the primary vehicle for communicating and coordinating with not only 
HHS personnel in the field but also relevant staff from the Department 
of Homeland Security, other Federal agencies, and key State, local and 
event officials. HHS CONOPS plans for the political conventions 
identify specific coordination responsibilities with personnel from 
FEMA, the State's emergency management agency, the city's emergency 
management agency, the city health department, the State public health 
laboratory, the FBI, EPA and DOD, just to mention a few. During an 
NSSE, the Command Center's staff is augmented by additional personnel 
as well as incident management staff. Furthermore, ten members of the 
Public Health Service Commissioned Corps Readiness Force will also be 
on stand-by.
    The activities that I have described represent some, but certainly 
not all, of the efforts that HHS has made to prepare for the high 
profile events that will take place in Boston and New York City in the 
next several weeks. We have made every effort to plan and be prepared 
for a broad range of contingencies. We have invested staff, resources 
and energy to coordinate with our Federal, State and local partners and 
with the event planners to ensure, to the extent feasible, a rapid and 
effective response to any public health emergency that may occur. We 
will also take into consideration the needs of unique groups in our 
emergency planning efforts, including the needs of people with 
disabilities, people who are elderly, and children. All of us hope 
fervently that these two political conventions will be uneventful but, 
if they are not, we are prepared to respond.

    The Chairman. Thank you, Mr. Secretary, and I appreciate 
that quick summary of the progress which has been made, which 
is dramatic. There is no question about that, and do not take 
my questions to be criticism. They are just to try to get at 
issues which I do not know that we have yet resolved. Ever 
since 9-11, we have been playing catch-up, and we know we have 
got a long way to go.
    Secretary Thompson. That is true.
    The Chairman. I think we just have to be up front about the 
fact that there are some areas we have not gone as far as we 
need to go in. What I want to talk about is some of those areas 
that I am concerned about primarily.
    I guess I would start with this question, and I would like 
to ask it to all three of you in your different areas of 
responsibility. I would like you to list the three areas where 
you think we have not gone far enough yet, where we do not 
really have our house in order yet, where we really need to do 
more, and what should we do. I will start with you, Mr. 
Secretary, and then go to Dr. Gerberding and Dr. Fauci.
    Secretary Thompson. Number one that immediately comes to 
mind is food inspections, food technology. That has been a 
concern of mine ever since I started. We were investing very 
little resources in it when I came in as Secretary. We are 
doing a lot better job, but we still have got a long ways to 
go.
    The second one we are working on, but it is one that I am 
still very concerned about, is surge capacity for hospitals. 
This is one in which we have serious problems yet. I would not 
classify them as problems. We have got a long ways to go to 
make sure that we have surge capacity in any particular area. 
We have plans in place. We are working on them, but I am not 
satisfied.
    The third one, of course, is making sure that we have 
countermeasures available for things like the hemorrhagic fever 
viruses and tularemia, the plague, and botulinum toxins that 
are necessary, and we are working on them. Dr. Fauci is doing a 
great job, but research takes a long time, and these are three 
areas that I think immediately come to mind that we have a lot 
of work to do on.
    The Chairman. Dr. Gerberding, you do not have to limit it 
to three if there is more.
    Dr. Gerberding. Thank you. The first thing I would say is 
we are still very concerned about countermeasures and the 
adequacy of the ability to mitigate the adverse consequences of 
exposure should one occur. We have made great strides in the 
development of countermeasures for the stockpile, but a long 
way to go before we have adequate protection against all of the 
agents that we would be concerned about.
    A second major issue is connectivity, and by that, I am 
really speaking of the whole network of communication and 
information that would allow us to rapidly detect an emerging 
health threat, not just domestically, but increasingly we have 
concerns about the global connectivity. You know we are working 
on that with the support of the committee and the Congress, but 
we have a long way to go to assure that we can handle a threat 
such as an infectious disease agent that emerges somewhere else 
in the world and has been imported, and part of that 
connectivity includes concerns about our quarantine stations. 
We currently have only eight quarantine stations at major 
points of entry in the United States. We have a plan to scale 
up to 25. The President's 2005 budget request includes support 
for that, but we have a great deal to do to assure that we can 
recognize and contain threats at our borders when they come in.
    The last concern that is probably the biggest one that I 
face overall is the concern about complacency and the lack of 
attention and focus that more and more people are experiencing 
in this regard. We need to maintain vigilance. We need to take 
these threats seriously, and we need to continue to focus on a 
comprehensive preparedness plan, and as time goes by without 
experiencing a threat, there is a tendency for people to lose 
interest or focus their attentions elsewhere. Complacency is 
the overarching issue that we are trying to address through all 
of these efforts at CDC.
    The Chairman. Dr. Fauci.
    Dr. Fauci. Thank you, Mr. Chairman.
    In the arena of research and development of 
countermeasures, as you mentioned, I believe we have come a 
long way, but without a doubt in this particular area, we still 
have a long way to go. My concern is something that I believe 
BioShield is going to help us with, is the inherent slowness of 
the process of research and getting that research to translate 
into definable countermeasures, and the provisions in 
BioShield, I believe, are going to help us particularly with 
the expediting of the research itself, with the rapid hiring of 
individuals that can be involved in issues that we are not 
generally involved in, like product development. That has not 
moved as quickly as I would like, but I believe it is going to 
start catching up.
    The second is the delicate balance between trying to do the 
very best science at the same time as we provide and clearly 
pay attention to issues like safety issues in clinical trials, 
because if you try and rush research, there is always a danger 
that we are going to get into a situation where there may be 
human safety issues. If you do not push it, on the other hand, 
it will go at a pace that I think is not the pace that I think 
we need for the emergency nature of the situation.
    The other is human capital. We are doing a good job in 
getting individuals interested, the best scientists. We still 
need to keep the pressure up without depleting scientists who 
are involved in other important arenas of public health, and 
this, again, is what we call the delicate balance.
    Finally, an issue that we discussed before this committee, 
but it is still an issue, and that is that spectrum from basic 
research and concept development to the actual advanced 
development and production of a product that is, indeed, a 
usable countermeasure and trying to push the process with 
research at the same time as we provide the incentives for 
industry to get involved with us in making the product, and 
there is a range in that which has been unaccounted for in 
previous situations where the research endeavor has to get 
pushed to the point where the industry feels comfortable enough 
to take over and make the product. Again, this is something 
that BioShield hopefully is addressing by providing the 
appropriate incentives, but this is still an issue that we are 
not doing as well as I believe we can, but hopefully it will 
improve.
    The Chairman. Thank you, Doctor.
    I think we will take 10 minutes. You can take as much time 
as you want, obviously. Since there are only the two of us 
here, I think we can just take as much time as we want.
    Okay. Following up on that concern, let us start with the 
surge issue. We are hearing from our hospitals two concerns--
and I have the same concerns that Senator Kennedy, I suspect, 
has because our health care systems are very much integrated in 
New England. The first is that the dollars are going out in 
such a formula way that it is essentially sprinkling the money 
across hospitals at such a low level that hospitals which are 
most likely to need the surge, some of Senator Kennedy's 
hospitals being the primary ones, get so little dollars that 
they cannot cover the costs--he just cited some--and that the 
average amount that has been going out or the most amount, 
maybe, is approximately $80,000 per hospital, something like 
that, some ridiculously small amount of money. It is being 
spread pretty thin rather than going out on threat-based 
formula where you essentially give the hospitals which are 
clearly going to be the ones that pick up the biggest amount of 
the surge the most amount of money so that they can handle it.
    Second, we are hearing that the way that the surge dollars 
are being proposed provides no credit for beds which are 
already there which would immediately be cleared out by taking 
patients out who were elective or who were in a position where 
you could move them out quickly, but instead, we are basically 
creating new beds, trying to create new beds, warehoused with 
backup facilities which will inevitably create huge overhead 
costs which may not ever be executed or used, and as a result, 
misallocation of resources within the hospitals for surge.
    And third--and there are three things--third, the lack of 
integration between States and regions where you have regions 
that are community hospitals--right here in the Washington 
area, for example, there appears to be, and the GAO says, there 
is no integration between the hospital structures in Virginia 
and Maryland and the District. I know in New Hampshire, the New 
Hampshire hospitals are concerned, what happens if there is an 
evacuation in Boston. They cannot get into the Boston plans. 
The Boston plans cannot get into the New Hampshire plans. The 
fact is that we have a territorial problem here, which is 
basically jurisdictional by States and the District of 
Columbia.
    I would like you to address those three concerns relative 
to surge and whatever other concerns you have relative to 
surge.
    Secretary Thompson. Thank you, Mr. Chairman. Let me start 
out by telling you that all of the things that you have 
indicated are things that we are working on and trying to reach 
some type of agreement. First of all, let me tell you that all 
the hospitals would just like to have the money sent to them. 
There is no question about that, and we are trying to develop a 
plan that is more regionally centered.
    The Chairman. Is your plan based on some hospitals having a 
higher likelihood to carry the threat than others?
    Secretary Thompson. We are trying to work with the local 
hospitals to find out which ones have the capabilities as well 
as the expertise to do that, and we have an overall plan to do 
that, but we are also trying to work with--we do not have the 
power to dictate, and so we are trying to coordinate it. The 
money, as you probably know, a good portion of the money, two-
thirds of the money goes to CDC for States and one-third of the 
money, $525 million approximately for fiscal years 2003 and 
2004 for all the hospitals across America, and that has been 
appropriated to HRSA.
    The second thing is we have decided to reallocate this year 
$55 million which is going to go into what we call city 
readiness initiative, and this is for fiscal year 2004, and we 
are working on that right now. The Appropriations Committee has 
given us authority to do so. The first $27 million of that is 
going to be going into cities in order to be able to do a 
better job of deploying the medicines and the drugs that will 
be coming in as well as deploying the personnel. $12 million 
would be going to the Postal Department for backups. In fact, 
if we have a huge catastrophe in a particular community, we 
have reached agreement with the postal authorities that they 
will deliver the medicines to every particular house. If there 
was a catastrophe in Boston, so to speak, and there was such a 
huge number of casualties that could not get into the hospital, 
such as anthrax and the spores were out there, we would want to 
be able to get an antibiotic into the particular homes. We 
would use the Postal Department. We set that up and we are 
taking $12 million to do that.
    Then we put $12 million in CDC for a new program called 
BioSense. We have bio detectors. We are now starting BioSense 
which is going to give CDC a better opportunity to see what 
medicines are being purchased, what kind of people and what 
kind of diseases are going to the emergency hospital, and this 
is BioSense, and this is also going to be helpful. We have 
reallocated $55 million of that.
    All of these type of things are towards trying to create an 
opportunity for surge capacity. We have also got an 
interdepartmental program set up which is headed up by a new 
general that we have just hired that is working with the 
Department of Defense, Department of Veterans Affairs, and so 
on to make a complete inventory of all the bed spaces that are 
available in the Department of Defense so that we can move and 
be able to use. We have also got a program set up to take a 
look at convention centers as well as National Guard armories 
to move in if we have to have immediate surge capacity that 
could not be placed into a hospital.
    The Chairman. The first part of your answer is where I want 
to focus, and that is do we have--does each State have a State 
plan.
    Secretary Thompson. Right.
    The Chairman. That State plan theoretically identifies the 
hospitals which will be having to carry the burden. Do we have 
the capacity as the Federal Government to come and review those 
State plans----
    Secretary Thompson. Yes
    The Chairman [continuing]. And say, ``We are sorry, you are 
spending too much money on the hospital in Laconia, NH and not 
enough on the hospital in Nashua, NH'', which is where it is 
more likely to have the issues and so that you can override and 
reorient depending on what you determine, what CDC determines, 
is the threat, No. 1? No. 2, do you have the capacity to direct 
the different States to function together as a region, 
specifically here in the Washington, DC area and New York City 
area where you have multi-jurisdiction events going on?
    Secretary Thompson. We do if there was an emergency.
    The Chairman. But you do not have it in the planning 
stages?
    Secretary Thompson. We have it in the planning stages. We 
are working with the States and local officials, and we are 
doing it on a national basis as well. We are trying to develop 
it, but do we have the authority to tell the States after we 
give them the money that the money should have gone to Hospital 
A instead of Hospital B? We can suggest it, but we do not have 
the authority to tell them.
    The Chairman. Shouldn't you have that authority? Shouldn't 
you have the authority to be able to review in a threat-based 
way based on the public health issues, the State plans and the 
regional plans to determine whether or not they reflect what is 
the best case scenario?
    Secretary Thompson. I think we should, Senator Gregg, but 
what we are trying to do is, we are trying to work locally with 
the State health departments, the municipality health 
departments, the first responders, and the hospital 
associations to be able to do that. We are trying to look at 
what the expertise in the hospitals are and be able to cover as 
many contingencies as possible, but I do think we should have 
the authority to be able to direct exactly where that money 
should go.
    The Chairman. I think you should. I think the buck should 
stop somewhere. It should stop at your office or Tom Ridge's 
office, and there should be a final decision made as to which 
hospital needs higher capacity capability than the next 
hospital, and if the States made a bad decision, you should do 
it.
    Secretary Thompson. Lacking that, Senator, we have been 
working very closely with the hospitals and with the local 
health departments and the State health departments to develop 
a good State plan, and we are working with them with our input. 
We have experts out meeting with them. We have called them into 
the office. We are working with them, but the direct exact 
amount of money is a little problematic.
    Senator Kennedy. I think the point that has been made by 
the Chairman, a number of points, are enormously important. 
There are provisions in legislation, but they have never been 
funded, that permit the department to make direct grants to 
communities and hospitals and also to regional groups, but this 
part has never been funded. It has never been funded. I think 
that is something that is certainly worthy of giving some 
thought, particularly as the Chairman has pointed out, in light 
of what I think is really the most significant aspect of the 
GAO study, and that is the surge capacity. No State met the 
third benchmark of the plan. The first two benchmarks are 
relatively easy, but no State reported meeting the benchmark 
plan for the hospitals in the State to respond to an epidemic 
involving at least 500 patients.
    That is a very serious challenge. I think, as the Secretary 
has pointed out, the States have, in many respects, been 
dilatory in terms of giving bioterrorism preparedness that 
sense of urgency and getting those resources out. We can at 
least try and see--and I think, in listening to the exchange, I 
would be glad to work with the chairman and see what can be 
done as he is a member of the Appropriations Committee, to see 
what can be done in the future on these community hospitals and 
giving greater focus and attention where there is the greatest 
need. We should also encourage regionalization, which I think 
is enormously important.
    I do not know whether you want to make a brief comment on 
what you are doing to deal with the whole surge capacity, just 
generally. I mean, this is a challenge. It is a problem. We 
have not got States that are able to deal with 500 additional 
patients or whatever we are going to be facing. We obviously do 
not want to exaggerate any kind of threat, but, I mean, it 
might certainly reach more than 500 that may be directly 
impacted. I do not know what you are doing to try and deal with 
that particular observation from the GAO report.
    Secretary Thompson. Senator, we are trying to do a lot of 
things, as I tried to reply to Senator Gregg.
    Senator Kennedy. Yes. This was a very good one that you are 
talking about. Of course, what you are using is re-program 
money. That was not new money.
    Secretary Thompson. That was not new money. That was re-
program money.
    Senator Kennedy. From health agencies to fund it. I think 
the points that you make, I thought were enormously 
interesting. I was unaware about how you are using the Postal 
Service. That is very creative, and that certainly sounds 
enormously worthwhile and valuable, but we have to try and look 
globally about what is happening, I think too. You have got the 
surge capacity. You have also the cuts in CDC that are taking 
place, which is the agency which has enormous responsibilities 
in this as well. You have got the real cuts that are coming up 
that have been recommended in the CDC. As I understand, this 
budget funding cuts are by $350 million, a reduction of 8 
percent, and obviously the CDC has some of the world's best 
scientists, and many of them have to work in some substandard 
facilities that are enormously challenging. As we say, the 
money is not going to solve everything, but there are very, 
very important areas, particularly I think in these areas which 
have been identified here in the hospital, surge capacity, 
which need additional kinds of attention and priorities and 
funding.
    I thank the Chair. This is an important undertaking, and 
this has been very, very helpful in terms of getting a better 
picture. Ms. Gerberding, I want to join in welcoming you as the 
Chairman has. We have got a very outstanding health team here, 
and is there a comment that you want to make about how you are 
getting this out in terms of the CDC, particularly since you 
have such responsibility, I guess two-thirds of the money going 
through the State? What can you do to get the States to be more 
responsive?
    Dr. Gerberding. Thank you. As you know, we are starting 
from a very deep hole in rebuilding our State public health 
infrastructure and the local public health infrastructure. We 
would like to be appreciative of the tremendous progress, but 
we agree completely that we still have important tasks that are 
being accomplished yet. In the existing cooperative agreement 
program that CDC is accountable for, we had performance metrics 
based on the capacity of States to fulfill certain criteria, 16 
of them. Those were relatively broad categories of capacity 
with very little specificity, and we had difficulty quantifying 
the level of preparedness.
    As we are preparing the next cycle of funding for the next 
5-year grant program, we are working with our partners to 
develop some very specific performance indicators. For example, 
it is highly likely we will have a performance indicator that 
addresses regional integration of the planning process, a 
performance indicator that specifically addresses a 
quantitative surge capability within the medical care system, 
and we think by making the expectations explicit, we will have 
much better information to recognize where a State or region is 
not measuring up, and then we can go in with our technical 
support and with Secretary Thompson's resources from the other 
departments at HHS to try to help people be successful.
    The goal is to achieve the stated functionalities, and I 
think by being explicit about what is necessary, measuring the 
progress toward getting that done, and then supporting 
improvements with whatever we need to do to overcome the 
barriers, we will be able to sit in front of you with a lot 
more specificity in the future.
    Senator Kennedy. It sounds very promising.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you. Following up on that, are you 
doing that nationwide or are you picking places? Are you 
picking like New York, Washington?
    Secretary Thompson. Before Senator Kennedy leaves, I am 
sorry, Senator Gregg, but I wanted to--Senator Kennedy, you 
wanted to know about the Democratic convention. We are putting 
a lot of medical personnel, a lot of equipment up there. We are 
moving the push packages and things necessary. We already have 
deployed a lot of medical equipment and doctors to the Boston 
area, and we are also doing a lot of things that the convention 
has requested of us, and we have already complied.
    We have some sensitive things that we are doing that I 
would have my staff come up and brief you or your staff, if you 
wanted to. I would rather not do it in an open meeting.
    Senator Kennedy. That is very encouraging, and I think 
people in Boston will be very much relieved and appreciative of 
those efforts.
    I see Dr. Fauci----
    Dr. Fauci. Senator, I just wanted to point out when you 
talk about regions, we have the research endeavor which is 
related in many ways to the delivery of care, but not directly, 
but when we put our regional centers of excellence in bio 
defense and emerging diseases, it was with the thought of 
having the best scientific minds, capabilities, and resources 
to be available to the delivery of health care so that when 
something happens, at least you have the scientists geared. One 
of our best regional centers is in the New England area, 
located in Boston.
    Senator Kennedy. Yes.
    Dr. Fauci. We serve that regional area and cooperate and 
collaborate not only with the CDC, but with the State and local 
health departments.
    The Chairman. Of course, it should be in Hanover, but that 
is all right.
    Senator Kennedy. Thank you, Mr. Secretary, for mentioning 
that. I think that is enormously important and very reassuring. 
Secretary Ridge was up there this past weekend with our Mayor. 
There has obviously been increased anxiety because of the 
recent kinds of announcements. This is very, very constructive 
and very important, and we are grateful to you for your 
leadership.
    I thank the Chair.
    The Chairman. Thank you, Senator.
    Returning to your question, your point that you are setting 
up these new basically benchmarks and procedures for getting to 
those benchmarks, are you sort of doing demonstration efforts 
so that we pick up the real critical areas that we know are 
critical, New York City, Washington, Los Angeles, first or are 
we doing this nationwide?
    Dr. Gerberding. The cooperative agreement starts in 2005, 
and so right now we are preparing the grant guidance for that 
next 
5-year cycle of funding, and that applies to the entire set of 
jurisdictions that we are responsible for. It is the 50 States 
and the cities and territories that are directly funded by CDC.
    The Chairman. You do not think we should just get started 
in a few places to test the exercise?
    Dr. Gerberding. Well, we actually have been doing that, and 
specifically, there are some lessons learned from good 
performers who are already looking at their state of readiness 
from this direction. What we are trying to do is learn from the 
experience that we have had already over the last 5 years and 
figure out what is working and what is the capacity of the 
States that are particularly excelling in certain areas and 
transfer that experience to the other locations. It is actually 
very difficult to define preparedness, as you can imagine, and 
so there is no place to go to look to identify what constitutes 
a highly prepared State.
    For one thing, it is a process, and you can always imagine 
a scenario one step beyond your level of preparedness. We have 
taken some stretch indicators, and we are working them on a 
pilot basis to see whether or not they are feasible and make 
sense in some of the most critical jurisdictions.
    The Chairman. Well, I would just like to suggest you start 
with the Capital area, because the GAO report was devastating 
relative to this area, and obviously New York is a priority 
target.
    Can we get back to this antibody issue? Where do we stand 
with the vaccines and specifically the smallpox vaccine which 
has been represented may never get through FDA approval, 
although we have a single purchaser? The anthrax, I know you 
mentioned you were going out with an RFP, but is that a vaccine 
that prevents it, or is it just an antidote if you have been 
exposed to it?
    Dr. Fauci. Thank you, Mr. Chairman. Let me address the 
issue that you just brought up as well as yesterday when we had 
the discussion, and that has to do with the licensability or 
not of the canvass product that is in clinical trial for which 
we have already put the product into the stockpile. That is the 
cell culture-based vaccine that uses the same seed virus in 
many respects that the New York Public Health has used in the 
dry vacs, which is the classic one that we have used for 
decades and decades. That, because of the detection of adverse 
events of an inflammation of the heart, which we call 
myopericarditis, in what appear to be, even though numbers were 
small, a rate that might have been greater than the rate that 
we saw with the previous observations, it was put on clinical 
hold. It has not been declared unlicensable. This is not an 
uncommon event when you see adverse events. The FDA, because 
this is clinical trial directed towards licensure, the degree 
of intensity with which you follow individuals for adverse side 
effects is much greater than when you just distribute a 
vaccine, as was done with the military when they distributed 
over a half a million dose--not doses. A half a million people 
were vaccinated.
    The answer to your question is that, indeed, it has not 
been declared not licensable. The data are being reviewed by 
the Data and Safety Monitoring Board as well as by the FDA and 
they will then either proceed or not. If they do, it is likely 
that they will modify the consent form to make these most 
recent findings aware. The answer to your question is it has 
not been deemed unlicensable.
    With regard to the next generation smallpox, that the one 
that we know from considerable experience in the field, not 
only internationally, but with patients who have cancer and 
HIV, that particular candidate is being researched right now, 
and it looks pretty good not only from a safety standpoint, but 
from the fact that we have applied in the direction of the two-
animal model that the FDA holds. I am not saying this will be 
used by them, but we have done the experiments in the monkey 
model with money pox and in a mouse model with a lethal 
vaccinia challenge using the attenuated vaccinia, and it has 
shown to protect in both of those species. That is pretty good 
news as we go along with the clinical trial.
    With regard to the recomitant protective antigen vaccine 
that we have contracts out for, as you know, that is a contract 
with Vaxgen and Evecia, and in that arena, we have now been in 
phase one trials in both of those contracts, and we have gone 
into phase two trial with the Vaxgen product, and right now, we 
are getting good immunigenicity and safety looks good. We are 
well on the road towards the landmarks and benchmarks that we 
discussed with this committee before with the RPA.
    The last one, to just give you some follow-up, we are still 
on track with the ebola vaccine. I had mentioned the protected 
moneys, and we are now in clinical trials in a human. For the 
three big ones that we spoke about, smallpox, anthrax, and 
ebola, I believe we are on track.
    The Chairman. Good.
    Senator Alexander.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thank you, Mr. Chairman. Excuse me for 
being late to the hearing. We had an opportunity at 10 o'clock 
to have a briefing by Tom Kean and Lee Hamilton about the 9-11 
Commission, and I wanted to hear the first part of that before 
I came here. I do not want to go over material you have already 
gone over, but I would like to ask one question, if I may, 
based on what I just heard.
    In the first place, the 9-11 Commission, I look forward to 
reading it over the next 2 or 3 months, but I will say I am 
impressed with the way the report has been presented, with the 
quality of the leadership by Chairman Kean, and Lee Hamilton, 
with the unanimous recommendations and with what they presented 
to us. I think it deserves enormous attention by those of us in 
Congress and by the American people.
    Mr. Hamilton, who said he had worked with every leader of 
the Central Intelligence Agency since the Lyndon Johnson 
Presidency, said there were four major failures that the 
Commission found, and I want to ask you a question about one of 
them. The first one he said was the failure of imagination, 
that we did not imagine that people would do to us what the 9-
11 terrorists did. Two was a failure of policy. Three was a 
failure of capabilities. And four was a failure of management.
    In your testimony, you talk about policy, capabilities, 
management, and the things you are working on. I want to ask 
Secretary Thompson, because he, like I, has been around a while 
in different jobs, about the failure of imagination. I have 
thought many times back to the middle of the 1990s, for 
example, when I was the candidate for the President of United 
States--not too many people knew that, but I was at the time. 
It never once occurred to me in 1994, 1995, and 1996, never 
once occurred to me that if I were to be elected, that I might 
be faced with the proposition of a group of people flying an 
airplane into the World Trade Center and that I might have to 
make a decision within 5 minutes about whether to shoot down a 
commercial airline filled with Americans, never occurred to me.
    I thought maybe that was because I just was not as 
sophisticated as some others. I have asked everybody else who 
ran that year, including Dick Luger, chairman now of our 
Foreign Relations committee. He was even talking in 1995 and 
1996 about terrorism. It never occurred to him. My question 
would be what are we doing, what are you doing to help our 
country deal with this failure of imagination? Because if we do 
not imagine the possibility to begin with, all the policy, all 
the capabilities, all the management will not make that much 
difference. I am not sure that we can imagine the most awful 
thing and then relate it every day to the American people. I 
imagine in 1995 and in 1996, if I would have stood up in Cedar 
Rapids, Iowa or Plymouth, New Hampshire and said, ``I am 
prepared as President to deal with the possibility that someone 
will fly an airplane or two or into the World Trade Center, 
into the Pentagon, maybe into the U.S. Capitol, and I will 
shoot down U.S. airliners'', they might have just carted me off 
to the loony bin. They certainly would not have put me in the 
White House based on something like that.
    I am not talking about going around and scaring the 
American people about every possibility, but what can we 
imagine and do that would keep us from having a failure of 
imagination about all the possibilities that are presented to 
us as we deal with what Mr. Hamilton and Governor Kean said is 
the overriding threat to our Nation for the rest of our 
lifetimes and probably for a time thereafter?
    Secretary Thompson. Well, first off, thank you for the 
question, Senator Alexander, and thank you very much for your 
imaginative question. First off, what we have done, I have 
asked you to come over and I really would like to have you come 
over and see it. I could show it up on the screen, but it does 
not do it justice, come over and see our war room, our 
information room. We have developed, I think the best--Senator 
Gregg has been over there--the best visionary war room to track 
in diseases in storms and bioterrorism kinds of attacks in 
America and the world, and we have set up simulated exercises 
which we do constantly, simulated exercises on food poisoning, 
simulated exercises on an anthrax attack, simulated exercise on 
smallpox, all of these type of things which are absolutely 
important, and I think it would be a very good education for 
you to come over and see it. I think you would walk out of 
there very impressed by what we have been able to build and 
what we are able to accomplish and what we are able to follow.
    Anyway, everybody that has been through it, and there have 
been thousands, have indicated the same conclusion, that it is 
visionary.
    The second thing is that what we try and do, we try to take 
a look at, Dr. Fauci's expertise, try and say what sort of a 
counter-terrorism agent do you have to have, what sort of way could 
they mutate or change that smallpox virus and how would we be 
able to respond to that if they did that, what would be the way 
we could respond if a new type of anthrax or any kind of a 
virus that has been genetically changed, how would we be able 
to do that, and Dr. Fauci has put together a great team that is 
looking at all of the potential possibilities and is doing 
research on that. That is what BioShield is all about, is to be 
able to get us prepared, to be able to push and pull for new 
research against threats that may take place.
    The 19th Century diseases that we never thought could be 
weaponized now can be weaponized and can be used as a tool of 
terrorism, and Dr. Fauci is doing a great job. Dr. Gerberding, 
on the other hand, in CDC, we are taking a look. What we are 
doing is we are putting biosensors--we have got biosensors in 
several communities, which is highly sensitive, but they are 
biosensing, and they will be able to pick up agents, and then 
we are developing a new program called BioSensitive which is 
going to allow for that information to be sent down to CDC in a 
particular area, what are the medicines people are buying, is 
there a real run on Doxycycline or Cipro, and that would be a 
real quick alert and we would be able to get that information.
    We are hooked up now to 121 laboratories throughout America 
and 90 percent of all the health departments. We will be able 
to get that information out immediately, saying in this 
particular area there is a huge increase on the purchase of 
Cipro, what is going on in the emergency wards in that 
particular hospital or that region to give us an idea.
    The third thing we are trying to do is trying to determine 
as regards to food that is coming in, which is my biggest 
concern as the Secretary, to be able to stop any kind of 
threats to our food supply that is coming in. We have a lot of 
food that is imported from around the world, and this has 
always been my biggest concern, what would happen if some kind 
of food stock was poisoned, how would we be able to detect 
that, how would we be able to prevent that, and we have set up 
a lot of different kinds of teams in order to respond to that. 
We put together, I think, a great group of experts on 
bioterrorism that are planning and trying to come up with ways 
to do it.
    I think we are doing a good thing. We are not going to be 
able to determine everything that the terrorists could hit, but 
we are trying to put up plume modelings and any kinds of floor 
exercises, table top exercises, dealing with food poisoning, 
and we are trying to find ways how we are able to respond. 
Milk, for instance, we are asking to be able to increase the 
temperature of the pasteurization of milk, because that could 
be something the terrorists could hit on the farm, and so we 
are trying to think ahead as to where they might be able to hit 
us and how we would be able to respond.
    Secretary Alexander. Thank you, and I will look forward to 
the visit.
    Secretary Thompson. I would hope you would. Thank you.
    Senator Alexander. Thank you, Mr. Chairman.
    The Chairman. Senator Dodd.

                   Opening Statement of Senator Dodd

    Senator Dodd. Thank you, Mr. Chairman, and like Senator 
Alexander, we were both in the same meeting trying to make 
decisions to be here and be there simultaneously, and this 
report has just come out, and I think all of us are very 
impressed with the work of Tom Kean and Lee Hamilton. I had the 
pleasure of serving with Lee Hamilton for a number of years in 
the House of Representatives, and they and their fellow 
commissioners, I think did a very fine job.
    It is a sad tale, indeed, as Tom Kean laid out at the 
initiation of his remarks, that if you go back and if someone 
had just presented in one or two pages, just a litany of the 
things that had occurred, all of which were highly publicized 
events, and laid them out, in retrospect looking back, the 
question is why did not all of us in society take more note of 
this? It seems quite obvious in retrospect that there was a 
very determined group of people that hate us, and that is a 
hard thing for Americans to come to terms with, that there are 
people who hate us and are going to use whatever means 
available to them to do as much damage to innocent people as 
possible; and, in fact, with a little less than $500,000 on 9-
11 they killed 3,000 people within an hour.
    As Senator Alexander has pointed out, the failure of 
imagination is, I think, one of the problems.
    Let me come back to earth a little bit. Certainly Senator 
Alexander and I work on children and family issues, and the 
Chairman does. When we adopted the Bioterrorism Preparedness 
Act in 2002, I asked to be written into that proposal to create 
a National Advisory Committee on children and families, NACCT 
as it is called, which required the committee to report to you, 
Mr. Secretary, within a year of the bill's passage, the 
preparedness of our health care system to respond to terrorist 
attacks as they specifically relate to children and what 
changes might be needed to our health care and emergency 
medical response systems to meet the special needs of children.
    There are 70 million people in this country under the age 
of 18, 22 million under the age of 5 in the United States, and 
obviously we talk about protecting bridges and highways and 
roads and things, but children have special needs, unique 
needs, I think we have all come to recognize. Certainly as we 
develop prescription drugs and the like, we begin to understand 
that the needs of children, physiologically and so forth, are 
different than adults.
    This report was made available to the Department in June of 
last year, June 2003. What I would like to know is to what 
extent the Federal Government has worked to implement the 
recommendations included in the report. There are five of them 
specifically in this report. I will not go over all of them, 
but in the letter dated June 12, 2003 and the summary of the 
report, they talk very specifically here about a review of 
current Department of Health and Human Services programs and 
guidance to require that a specific focus be placed on meeting 
the needs of children and families; decisions of terrorism-
related programs and initiatives should be linked to 
confirmation that children's needs have been specifically 
accounted for; structures within the Department should be 
created to ensure continued oversight and adequate response to 
needs of children and families; significant new pediatric and 
physiological initiatives are needed to address the needs of 
the Nation's children and families in light of their continued 
threat to terror events; and, number five, addressing the needs 
of children and families in the face of terrorism should be 
recognized as an essential part of America's security response.
    Added to this, and I will just add the second question for 
you here, another aspect of the preparedness, in fact, is to 
ensure that health and safety of our children in the event a 
terrorist attack occurs with regard to vaccines and the 
formulations and dosages different from adults, what is the 
status of stockpiles, the ability to fill these needs of 
children?
    I know States have done a lot. My own State in Connecticut 
has taken certain steps, but I am not clear that we have really 
done much at the national level a year after this report was 
submitted to the Department.
    Secretary Thompson. Senator, we have done a lot. As you 
know, we issued the report on time, and we had certain 
conclusions drawn and suggestions. We are in the process of 
implementing the work on each one of the things that you have 
mentioned as well as many other things. Our stockpile does have 
things set up just for children, for doses and for ventilators 
and so on in each one of the 12 stockpiles across America that 
are strategically located. We have actually put in medicines 
and vaccines strictly for children under the age of 18 and for 
infants, and that is already in place and has already been 
completed. It does not mean that we are not looking for many 
other ways and other suggestions on how we might be able to 
honor the request of Congress, and I think we are doing that.
    Julie, did you have anything further that you wanted to 
add?
    Dr. Gerberding. In addition to the stockpile issues, CDC is 
in the process of developing life stage goals, and so for 
children, there are some very specific opportunities to define 
the preparedness goals for that population as there are for 
infants, but part of the preparation and planning efforts 
ongoing include preparation of families and households and 
specific advice about, for example, what should you do if your 
child is in your school and you are at work and there is 
terrorism attack or what family mechanisms and routines are 
available to ensure that even our children, of people who work 
at CDC, what is the plan if the parent has to stay at CDC to 
responsibly respond to terrorism threat, is there a plan for 
child care.
    The specific elements and recommendations about how 
families can prepare for themselves and the safety of their 
children are something that the department has been working on 
in conjunction with Homeland Security and the Red Cross, and I 
think we can provide you with some very specific examples of 
the attention that has been given to this issue over the last 
year.
    Senator Dodd. I would like to see those if I could.
    Secretary Thompson. Senator Dodd, and also 9-11, we had to 
do a lot of counseling of SAMHSA up in New York, a lot with 
children, and we have taken that experience and built it into 
future protocols, if that would take place in SAMHSA, because 
children really need some intense counseling immediately after 
a terrorism attack and also a continuation of counseling 
thereafter. We are building plans for that.
    Senator Dodd. Am I to understand that we already do have 
stockpiles of vaccines specifically designed to accommodate 
children's needs?
    Secretary Thompson. Yes.
    Dr. Gerberding. Can I just add one thing?
    Senator Dodd. Yes.
    Dr. Gerberding. We have a registry of people who were 
affected by the World Trade Center events in New York. We have 
already almost 50,000 people in that registry now, and we have 
noticed that we do not have the number of children that we were 
anticipating. Specific efforts are underway as we speak to try 
to encourage children's participation in the registry so we can 
understand better what their needs really are.
    Senator Dodd. Dr. Fauci, any point on this at all?
    Dr. Fauci. The only point I can make with regard to 
children is that we are very sensitive to the idea that when we 
are testing drugs, that we need to make sure that we include 
children in the umbrella of particularly paying particular 
attention to the extra safety issues you have with children, 
because we are going to have to administer drugs and vaccines 
to children as well as to adults. That is an important part of 
the research endeavor.
    Senator Dodd. On this committee and others over the last 
several years, we have worked very hard, Senator DeWine and I 
having authored the initial legislation that set up the program 
that would encourage private sector development of drugs 
designed specifically for children and then, of course, more 
recently the requirement that the FDA move in this area, and I 
think we all recognize there are have been real advantages. 
What has been amazing is how much has been developed in a 
relatively short amount of time, although you are talking about 
an audience population, while it is large, relatively small 
numbers of the population based on illnesses on and so forth, 
it is a real rather small constituency, if you will, patient 
group; but, nonetheless, in the area of terror, we are talking 
about just innocence being automatically affected, and having 
the ability to provide those vaccines should not be beyond our 
imagination--is that you end up with a bio attack, that 
children are going to be affected very directly, and our 
ability to respond to their health care needs is something we 
should not look back on and wonder why we did not get it right. 
That is why we insisted upon that report at the time.
    As I say, I have very great respect for the protecting of 
our bridges and highways, but I really hope we keep focused on 
these kids.
    Secretary Thompson. Thank you.
    The Chairman. Thank you, Senator Dodd.
    We have a vote on. There are three votes in a row. What I 
would like to suggest is first I want to thank Secretary 
Thompson, Dr. Gerberding, and Dr. Fauci. We appreciate your 
time. We appreciate the job you have, which is a very difficult 
one, and you are certainly doing yeomen's work, and we thank 
for it. You have great successes, which I do not think should 
go unnoticed, which is of course the SARS, reaction to SARS, 
reaction to West Nile, the movement in the area of getting the 
vaccines up and running, and the many things that you outlined, 
Secretary, but we do have a long way to go and we want to help 
you.
    If you have language which you think we need to consider 
relative to making sure that these funds go out on a threat-
based purpose and that there is a regional awareness and a 
regional management and that you can step in and make sure that 
occurs, we would be interested. I would be interested in 
looking at it, anyway.
    Senator Dodd. Can I say, Mr. Chairman, too, with regard to 
children issues, if you think we need stronger language and 
other things regarding children, I would really like to know 
that. I think our colleagues would as well. If there are gaps 
someplace in here, I would like to know that.
    The Chairman. I think what we are going to do is we are 
going to adjourn the hearing until about a quarter of twelve. 
Hopefully all the votes will be completed then. We thank this 
panel for participating.
    Then we are going to hear from members of the Homeland 
Security team and then some folks who are on the front lines. 
We will be back at a quarter to twelve.
    Thank you.
    [Recess.]
    The Chairman. We are going to start the hearing again. I 
appreciate the forbearance of the witnesses relative to the 
Senatorial schedule. Unfortunately these votes were scheduled 
after this hearing was scheduled.
    We are going to begin this panel with hearing from the 
Homeland Security Agency, which obviously has primarily 
responsibility in a variety of areas relative to an attack, a 
terrorist attack involving public health or biologic agents, 
that affects public health and obviously would be driven by 
biologic agents.
    We are going to hear from Eric Tolbert, who is the Director 
of the Response Division of Emergency Preparedness and Response 
Directorate of the Department of Homeland Security, and Andy 
Mitchell, who is Deputy Director of the Office of Domestic 
Preparedness in the Department of Homeland Security.
    Why don't we start right off, and which of you folks want 
to testify or are you both testifying? Who has a statement?
    Mr. Tolbert. I think we both have a statement.
    The Chairman. Okay. Great.

STATEMENT OF ERIC TOLBERT, DIRECTOR, RESPONSE DIVISION, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Tolbert. Thank you, Mr. Chairman.
    My name is Eric Tolbert. I am the Director of the Response 
Division for FEMA in the Department of Homeland Security. I am 
pleased to be here today on behalf of Secretary Ridge and Under 
Secretary Mike Brown to discuss our Nation's readiness for 
dealing with the public health response to a terrorist attack 
during high profile events.
    The Department of Homeland Security has been charged with 
ensuring the safety and security of all national special 
security events, such as the Group of 8 Summit earlier this 
year, the State of the Union Address, the State funeral of 
President Ronald Reagan, and the upcoming Democratic and 
Republic National conventions. The Secret Service is in charge 
of the overall design and implementation of the NSSC planning, 
and FEMA's role is to coordinate the emergency management 
activities associated with these events and provide any needed 
response and recovery assets.
    It is important to note, however, that our efforts are in 
support of the State and local governments. We do not supplant, 
rather we supplement their resources and their activities and 
their assets. In the case of the upcoming political 
conventions, the department has assembled numerous Federal, 
State, and local agencies to put in place an unprecedented 
level of security and response assets. FEMA's Emergency 
Management Institute conducts specially tailored training 
programs for the Federal, State, and local agencies involved in 
national special security events, and recently we conducted two 
of these integrated emergency management courses in 
preparations for our upcoming NSSEs, including the Super Bowl. 
For the past Olympics, we conducted seven integrated emergency 
management courses in Utah, Georgia, and California related to 
the Olympics, and we have done the same for World Cup Soccer, 
Pan Am games. The list goes on, including the four major cities 
for the last political conventions.
    We have a long history of assisting State and local 
governments and working collaboratively and developing 
capability to prevent and respond to events that may occur in 
those venues. I would reiterate that we work in partnership 
with State and local organizations, and the department has 
invested substantial resources and numerous personnel over the 
past several months to ensure a safe and secure event for both 
the Boston and New York communities and all delegates attending 
the conventions.
    Regarding the department support for the conventions, we 
have overall activities in support of Boston and New York for 
the conventions, and I can provide additional detailed 
information as you would desire to give you a snapshot of the 
types of capabilities that we are bringing to bear on the two 
conventions. We have been involved for many months in the 
planning and coordination in the areas of venue protection, air 
space security, communications, emergency equipment, 
credentials, and training. We are in the process of deploying 
specialized teams to detect explosives and weapons of mass 
destruction and hazardous materials. We have in place 
comprehensive waterside coverage and surveillance on and over 
the water. We have assistance for security personnel and 
x-ray equipment for examining suspicious packages entering a 
convention facility and scanning commercial vehicles and 
delivery trucks, such as food service providers, as they enter 
the convention sites. We conduct security and vulnerability 
assessments at the affected commercial and general aviation and 
private airports and enhancements to aviation security near 
convention sites.
    We have also distributed radiation detection units to State 
and local law enforcement with operational responsibilities for 
the convention, and we have deployed air monitoring equipment. 
In addition to the standing BioWatch program, we have deployed 
additional portable units to the venues to detect airborne 
biological pathogens during the duration of the conventions.
    Regarding FEMA support for the conventions, we are 
responsible for coordinating the emergency management 
activities and providing needed response and recovery assets. 
We do that from the interagency community. Specifically in 
preparation for the DNC, the Boston Emergency Medical Service 
system evaluated their available resources and threat 
information in order to be prepared to adequately respond to a 
mass casualty incident, including an incident involving weapons 
of mass destruction occurring during the convention. The city 
of Boston has requested supplemental assistance for responding 
to the medical aspects of a mass casualty incident, and FEMA 
maintains resources and capabilities that can be activated and 
deployed to support a mass casualty incident.
    Resources that will or can be deployed or placed on a 
standby status to support these include our national disaster 
medical system, a network of specialized teams that provide the 
gamut of medical assistance, everything from medical support to 
humans to animals. We will even be providing some protection 
for security dogs and other types of animals involved in 
ensuring and preventing events from occurring in these venues. 
We will have an array of medical personnel from both Homeland 
Security and HHS, pre-
positioned disaster supplies.
    The list really goes on and on as to the types of 
capabilities. We are literally spending millions of dollars 
preparing for and having the right resources in place to 
support these operations.
    Again, it is all about collaborative effort. We work months 
in advance for these planned events with the local emergency 
personnel. We look creatively at what the requirements may be. 
We look at the capabilities that they have both locally and 
regionally, and then when there is a gap, our mission is to 
provide those additional resources.
    Thank you for the opportunity, Mr. Chairman. I look forward 
to answering any questions that you have.
    [The prepared statement of Mr. Tolbert follows:]

                   Prepared Statement of Eric Tolbert

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, my name is Eric Tolbert 
and I am the Response Division Director for the Federal Emergency 
Management Agency (FEMA) of the Department of Homeland Security (DHS). 
I am pleased to be here today on behalf of Secretary Tom Ridge of DHS 
to discuss the Nation's readiness for dealing with public health 
response to a terrorist attack during high profile events.

                    DEPARTMENT OF HOMELAND SECURITY

    The Department of Homeland Security consolidated 22 previously 
disparate agencies under one unified organization. Eighteen months ago, 
no single Federal department had homeland security as its primary 
objective. DHS now fills that role and is integrating its resources to 
meet a common goal. Our most important job is to protect the American 
people and our way of life, and we now have a single, clear line of 
authority to get the job done. Through our extensive partnerships with 
State, local and tribal governments and the private sector, as well as 
other Federal departments, we are working to ensure the highest level 
of protection, preparedness and response for the country and the 
citizens we serve, including people with disabilities.
    The Homeland Security Act of 2002 and Homeland Security 
Presidential Directive-5 (HSPD-5) state that the Secretary of the 
Department of Homeland Security is the ``principal Federal official for 
domestic incident management'' with responsibility for ``coordinating 
Federal operations within the United States to prepare for, respond to, 
and recover from terrorist attacks, major disasters, and other 
emergencies.''
    DHS has been charged with ensuring the safety and security of all 
National Special Security Events (NSSEs). The Group of Eight Summit, 
the State of the Union Address, and the activities surrounding former 
President Ronald Reagan's Memorial Services were all designated as 
National Special Security Events, as are the upcoming Democratic and 
Republican National Conventions. The U.S. Secret Service, also part of 
DHS, is in charge of the design and implementation of NSSE planning, 
and FEMA is responsible for incident management, and will be in charge 
of coordinating emergency management activities and providing any 
needed response and recovery assets. Planning and coordination for 
these events begin at least a year in advance, and FEMA's Emergency 
Management Institute conducts a course specifically geared to those 
persons and agencies--Federal, State and local--involved in an upcoming 
NSSE.
    In the case of the upcoming political conventions, the Department 
of Homeland Security has assembled numerous Federal, State and local 
agencies to put in place an unprecedented level of security and 
response assets. Working in partnership with these State and local 
organizations, the Department has invested substantial resources and 
numerous personnel to ensure a safe and secure event for the Boston and 
New York communities, and all delegates attending the conventions.
    Among the preparedness activities of DHS agencies:
    <bullet> The U.S. Secret Service has conducted comprehensive 
security assessments of all primary convention venues as well as 
hotels, hospitals, airports and other sites related to the convention. 
It has also coordinated multiple interagency training exercises and 
tested operational security plans to verify command and control 
protocols and procedures.
    <bullet> The U.S. Secret Service has performed a tremendous amount 
of advance planning and coordination in the areas of venue protection, 
airspace security, communication, emergency equipment, credentialing 
and training, and began in June 2003 to develop the security plan for 
the Democratic National Convention to be held in July of 2004.
    <bullet> Immigration and Customs Enforcement Border and 
Transportation Security (BTS) will deploy Explosive Detector Dog teams, 
Weapons of Mass Destruction (WMD)/HAZMAT technicians, intelligence and 
undercover agents, uniformed officers, bicycle and motorcycle officers, 
emergency response teams and a sizable number of Special Agents. It 
will also provide Mobile Command Vehicles (MCV) to serve as highly 
advanced communication centers for multiple law enforcement agencies. 
ICE BTS has significantly increased Federal Air Marshal coverage on 
scheduled airline flights to and from the greater Boston area.
    <bullet> As the primary Federal maritime law enforcement agency, 
U.S. Coast Guard personnel will provide comprehensive waterside 
coverage on and over the water, coordinating closely with State, local 
and other Federal maritime law enforcement assets. Numerous Coast Guard 
units and personnel will be involved in this event including boat 
crews, law enforcement boarding teams, pilots and aircrew, support 
personnel and a wide variety of Coast Guard assets. Coast Guard 
helicopters will assist in security zone surveillance and enforcement 
as well as air interdiction efforts. The U.S. Coast Guard will 
establish a Waterside Security Unified Command Center to manage 
waterside security operations.
    <bullet> Customs and Border Protection will provide inspectors 
officers to assist security personnel as well as operate a mobile x-ray 
unit to examine suspicious packages entering a Convention facility. It 
will also provide x-ray equipment to scan commercial vehicles and 
delivery trucks such as food service providers as they enter the 
convention sites.
    <bullet> The Transportation Security Administration has conducted 
security and vulnerability assessments at affected commercial, general 
aviation and private airports as well as additional actions to enhance 
aviation security near convention sites.
    <bullet> During the conventions, the Department's Homeland Security 
Operations Center (HSOC) will provide timely sharing of any threat 
information, intelligence, situational awareness and operational 
information pertinent to the security of the event through the Homeland 
Security Information Network (HSIN). HSIN provides real-time 
connectivity and information sharing among all DHS components and State 
and local partners.
    <bullet> For the Democratic National Convention, the Information 
Analysis and Infrastructure Protection (IAIP) Directorate is working 
with the State of Massachusetts Office of Public Safety to distribute 
radiation detection pagers to State and local law enforcement personnel 
with operational responsibilities for the Convention.
    <bullet> In coordination with the U.S. Secret Service, the 
Department's Science and Technology Directorate is deploying air-
monitoring equipment to detect airborne biological pathogens during the 
duration of the Democratic National Convention.
    <bullet> The Interagency Modeling and Atmospheric Analysis Center 
(IMAAC) provides a single point for the coordination and dissemination 
of Federal dispersion modeling and hazard prediction products that 
represent the Federal position during an incident of national 
significance. The IMAAC is operational and prepared to provide support 
if it is required.

                  FEDERAL EMERGENCY MANAGEMENT AGENCY

    DHS/FEMA is the lead agency responsible for coordinating emergency 
management activities and providing any needed response and recovery 
assets for the upcoming political conventions. Like numerous DHS and 
other Federal agencies, FEMA has been working closely with the city of 
Boston and the Commonwealth of Massachusetts for quite some time in 
preparation for the Democratic National Convention. FEMA has also been 
planning for the upcoming Republican National Convention.
    In preparation for the Democratic National Convention, the Boston 
Emergency Medical System evaluated available resources and threat 
information in order to be prepared to adequately respond to a mass 
casualty incident, including a WMD incident, occurring during the 
Convention, which will occur July 26-29, 2004.
    FEMA maintains resources and capabilities that can be activated and 
deployed to support a mass-casualty incident. Due to the sensitive 
nature of releasing specific details for such events we are unable to 
do so. Resources that will be either forward deployed or standing by to 
respond are:
    <bullet> Disaster Medical Assistance Teams;
    <bullet> National Medical Response Teams;
    <bullet> Veterinary Medical Assistance Teams;
    <bullet> Disaster Mortuary Operational Response Teams;
    <bullet> Burn Specialty Teams;
    <bullet> Medical/Surgical Response Team;
    <bullet> Numerous additional specialized medical personnel;
    <bullet> Pre-Positioned Disaster Supplies to support mass care 
operations;
    <bullet> Urban Search & Rescue task forces to support rescue 
operations; and
    <bullet> Mobile Emergency Response Support (MERS) capabilities to 
support command/control/communications.
    DHS agencies are cooperating closely to be ready for the upcoming 
conventions, just as they have for past NSSEs. Beyond this, they are 
coordinating assets with other Federal departments, including the 
Department of Health and Human Services, but most importantly, with 
State and local government agencies, such as police, emergency 
management, emergency medical services, public health, public and 
private hospitals, National Guard, and so on--those on the front line 
of emergencies.

                               CONCLUSION

    The mission of DHS is very clear--helping people in need, be it a 
response to a terrorist attack involving a weapon of mass destruction 
such as a biological or chemical agent, natural disaster or any other 
catastrophic event. DHS provides the leadership and capabilities 
required to prevent, prepare for, respond to and recover from disasters 
or emergencies of any kind. National Special Security Events present 
the Department an opportunity to integrate its assets and capabilities 
in a ``real world'' situation, and bring together other Federal 
agencies, as well as our State and local partners, who will always be 
the first to respond, whether the event is large or small. The complete 
integration of so many agencies and capabilities into one department 
has been a huge undertaking, but the result is a Department that is 
much more effective than the sum of its parts.

    The Chairman. Thank you Mr. Tolbert.
    Mr. Mitchell.

 STATEMENT OF ANDY MITCHELL, DEPUTY DIRECTOR, OFFICE FOR STATE 
AND LOCAL GOVERNMENT COORDINATION AND PREPAREDNESS, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Mitchell. Thank you, Chairman Gregg. I am pleased to 
have this opportunity to discuss today the role of the 
Department of Homeland Security Office of Domestic Preparedness 
and the role we play in our Nation's efforts to prevent and 
respond to threats and incidents of terrorism domestically.
    As you know, Mr. Chairman, with your significant support 
ODP was created long before the September 2001 terrorist 
attacks, and our agency's singular mission is to help State and 
local first response agencies and personnel prepare for, 
prevent, and respond to incidents involving weapons of mass 
destruction and other terrorism-related public safety 
emergencies. ODP was transferred from the Department of Justice 
to the Department of Homeland Security under the Homeland 
Security Act of 2002 in which ODP was assigned the primary 
responsibility within the Executive Branch of Government for 
preparedness of the United States for acts of terrorism.
    To further improve the delivery of Federal assistance to 
first responders, Secretary Ridge consolidated two DHS agencies 
with the compatible missions, the Office of Domestic 
Preparedness and the Office for State and Local Government 
Coordination. With this consolidation, Mr. Chairman, the 
Secretary created the one-stop shop for Federal Homeland 
Security assistance that State and local stakeholders that have 
called for since 1998. Through these programs and activities, 
ODP provides funding, equipment, training, technical 
assistance, and exercise support for State and local 
enforcement, firefighters, emergency medical personnel, and 
other response personnel. ODP focuses on the entire spectrum of 
Homeland Security, but emphasizes public safety preparedness, 
both prevention and response, and through the statewide and 
regional Homeland Security strategies, States and localities 
define their strategic goals and prioritize their activities to 
be funded to achieve those goals.
    Regarding public health, ODP has historically worked 
closely with the Department of Health and Human Services and 
the Center for Disease Control and Prevention to coordinate 
public health and domestic preparedness initiatives. Our State 
Homeland Security and area security initiative grants can be 
used for personal protective equipment for hospital providers, 
decontamination equipment for hospitals, medical supplies, and 
pharmaceuticals needed to respond to the WMD event for force 
protection. To ensure that public health preparedness is a 
critical component of any comprehensive homeland security 
program, the CDC under the HHS agencies reviewed the program 
activities and the template that we developed to guide the 
States in the development of their statement strategy that the 
States must submit to receive grant funding.
    ODP has also supported the launch of CDC's cities readiness 
initiative which Secretary Thompson referenced in his 
testimony. We have worked with them and participated in 
executive business to the two pilot sites in Chicago and the 
National Capital area region who provided overviews of the 
programs and activities that we have in those jurisdictions 
under the urban area security initiative, and we are helping to 
identify those interactive collaborative processes that are 
already in place to ensure there is better coordination of a 
variety of Federal programs to meet the needs of local 
jurisdictions. Because of ODP's lead role in working with State 
and local governments to address their homeland security needs, 
we do participate as members of the interagency planning group 
for national special security events.
    In support of the Democratic and Republican National 
conventions, ODP worked closely with the U.S. Secret Service, 
our partners at FEMA, and a wide host of other Federal and 
State local officials in the planning for these events. In 
Boston, ODP planned to conduct three exercises: A senior 
leaders seminar, table-top exercise, and command post exercise. 
Subsequent to those exercises, the Secret Service requested 
that we conduct a principal Federal officials exercise, which 
will be held in Boston tomorrow.
    In New York, ODP has already planned and conducted a senior 
leaders seminar and table-top exercise, and a command post 
exercise is scheduled for early in August.
    Mr. Chairman, since 1999, ODP has provided significant 
funding to enhance State and local preparedness nationally. 
Specifically, New York State has received over $525 million of 
which approximately $362 million has been allocated to New York 
City. Massachusetts for that same period of time has received 
over $138 million of which approximately $42 million has been 
allocated to the city of Boston. This financial support and 
other resources provided has enhanced both those jurisdictions' 
capabilities to prevent and respond to incidents of terrorism 
and has provided significant support to allow them to achieve 
the capabilities they need to host these two major events.
    ODP has also been given responsibility for leading the 
effort to implement the Homeland Security Presidential 
directive. Under HSPDA, President Bush directed the Department 
of Homeland Security to develop a strategic preparedness 
measurement system for assessing our Nation's overall 
preparedness to respond to major incidents including those 
involving acts of terrorism, and ODP is currently working with 
input from Federal, State, and local agencies to develop this 
system. Obviously, part of that coordination involves our close 
collaboration with our partners at HHS to address the bio 
preparedness issues element of the national strategy and 
preparedness goals.
    Through these and other efforts, ODP is employing its broad 
range of resources to ensure that State and local governments 
and first responders are as prepared as possible to protect the 
public from any emergency, and we look forward to continuing to 
work with you, Mr. Chairman, and this committee and the 
Congress to do anything else that needs to be done. That 
concludes my statement, and I would be more than happy to 
answer some questions.
    [The prepared statement of Mr. Mitchell follows:]

                Prepared Statement of Andrew T. Mitchell

    Chairman Gregg, Ranking Member Kennedy and Members of the 
Committee, my name is Andy Mitchell, and I serve as the Deputy Director 
of the Department of Homeland Security's (DHS) Office for Domestic 
Preparedness (ODP). As you know, the Secretary recently consolidated 
the Office for Domestic Preparedness and the Office for State and Local 
Government Coordination in order to move toward the ``one stop shop'' 
that stakeholders have called for. On behalf of SLGCP Executive 
Director Sue Mencer and Secretary Ridge, it is my pleasure to appear 
before you today to discuss the current status of SLGCP and other 
issues of critical importance.
    On behalf of all of us at DHS, I want to thank all the Members of 
the Committee for your ongoing support for the Department and for 
SLGCP. You and your colleagues have entrusted us with a great 
responsibility, and we are meeting that responsibility with the utmost 
diligence. I also want to thank you, Mr. Chairman, for your foresight 
and leadership in supporting and developing many of the programs that 
comprised SLGCP long before the September 2001 terrorist attacks.
    As you are all aware, ODP within SLGCP is responsible for preparing 
our Nation against terrorism by assisting States, local jurisdictions, 
regional authorities, and tribal governments with building their 
capacity to prepare for, prevent, and respond to acts of terrorism. 
Through its programs and activities, ODP equips, trains, exercises, and 
supports State and local homeland security personnel--our Nation's 
first responders--who may be called upon to prevent and respond to 
terrorist attacks. We also will work with these entities to take into 
consideration the needs of unique groups in our emergency planning 
efforts, including those of people with disabilities.
    Mr. Chairman, ODP has established an outstanding track record of 
capacity building at the State, local, territorial, and tribal levels, 
by combining subject matter expertise, grant-making know-how, and 
establishing strong and long-standing ties to the Nation's public 
safety community. Since its creation in 1998, ODP has provided 
assistance to all 50 States, the District of Columbia, the Commonwealth 
of Puerto Rico, and the U.S. territories. Through its programs and 
initiatives ODP has trained over 550,000 emergency responders from more 
than 5,000 jurisdictions and conducted nearly 400 exercises. And, by 
the end of Fiscal Year 2004, ODP will have provided States and 
localities with more than $8.1 billion in assistance and direct 
support.
    Our core mission is to address homeland security and terrorism 
preparedness issues on a very broad scale. This focus is on the Nation, 
on regions, on States, cities and specific events such as the upcoming 
political conventions. Our programs are designed to provide a framework 
through which officials at the local and State levels of government may 
work together to identify their current capabilities, gaps and 
shortfalls. This approach allows jurisdictions to prioritize and to set 
goals.
    ODP has a number of assistance programs. Two key programs include 
the State Homeland Security Grant Program (SHSGP) and the Urban Areas 
Security Initiatives (UASI) Program.
    Through its Urban Areas Security Initiative (UASI) program, ODP 
requires States to work with communities selected according to 
classified criteria that include threat and risk, presence of critical 
infrastructure and population density. We require UASI participants to 
form inter-jurisdictional working groups who undertake assessments of 
local capabilities that are used to craft plans, or strategies, for 
that area's preparedness efforts. It is our goal to provide program 
participants with an over-arching strategy that may be used to advance 
their level of preparedness. These working groups have been used by 
other Federal agencies, including the Federal Department of Health and 
Human Services (HHS), to ``access'' these communities so that their 
specific area of expertise may be applied. We are pleased with this 
result and feel that we are well on our way to establishing a framework 
that is useful to States, localities and the Federal Government.
    Our programs focus on the provision of planning tools, training, 
equipment acquisition and exercises. As you know Mr. Chairman, at your 
direction, we executed the congressionally mandated Top Officials 
(TOPOFF) exercise program in the year 2000 and again in 2003. These 
exercises were designed to include all levels of government in 
simulated crisis through which best practices and lessons learned could 
be gleaned. These exercises included biological, chemical and 
radiological scenarios and have provided all levels of government with 
useful insight as we prepare for occasions such as the recent G-8 
Summit in Sea Island, Georgia, and the upcoming Democratic and 
Republican National Conventions in Boston and New York, respectively.
    These National Special Security Events (NSSE), as designated by the 
U.S. Secret Service, are high-profile events that would result in both 
symbolic and practical consequences should they be disrupted by 
terrorists. As such, these events require a greater than usual degree 
of support and participation from Federal agencies, including the 
Department of Homeland Security.
    ODP provides targeted assistance for designated NSSEs, to include 
training, technical assistance, and exercises. Our Training Division 
offers courses that are specifically targeted for an NSSE. ODP also 
provides technical assistance to facilitate the sharing of lessons 
learned and training from previous NSSEs. For example, during the 
planning for the G-8 Summit in Georgia, representatives from the Royal 
Canadian Mounted Police were flown in to share lessons learned from the 
G-8 Summit hosted in Canada. ODP's Exercise and Evaluation Division 
provides a series of exercises that increase in scope and complexity. 
The first two exercises in this series, a Senior Leaders Seminar and 
Tabletop Exercise, are discussion-based activities. The exercise series 
culminates with the conduct of an operational Command Post Exercise 
which is a final test and check of communications and interoperability 
between the command centers (i.e, FBI's Joint Operations Center, Secret 
Service's Multi-Agency Coordination Center, etc.) before the actual 
NSSE. ODP is currently working with the DHS Integration Staff (as part 
of the Security Planning Initiative) to develop an annex that outlines 
the capabilities ODP can provide for special events that are not 
designated as NSSEs.
    Throughout its history ODP has worked to improve how it serves its 
State and local constituents. For example, in Fiscal Year 2003, 
application materials for the Department's State Homeland Security 
Grant Program--under both the Fiscal Year 2003 Omnibus Appropriations 
Bill, and the Fiscal Year 2003 Supplemental Appropriations Bill--were 
made available to the States within 2 weeks of those bills becoming 
law. Further, over 90 percent of the grants made under that program 
were awarded within 14 days of ODP receiving the grant applications.
    During Fiscal Year 2004, ODP's record of service to the Nation's 
first responders continues. All of the 56 States and territories have 
received their Fiscal Year 2004 funding under the Homeland Security 
Grant Program. This includes funds to support state-wide preparedness 
efforts under the State Homeland Security Grant Program, the Law 
Enforcement Terrorism Prevention Program, and the Citizen Corps 
Program. These awards represent over $2.1 billion in direct assistance.
    Further, 50 urban areas designated under the Fiscal Year 2004 Urban 
Areas Security Initiative have been awarded funding. This represents 
$671 million in support to high-density population centers with 
identifiable threats and critical infrastructure. In addition, the 
Department has identified 30 of the Nation's most used urban transit 
systems and has provided $49 million to enhance the overall security of 
these systems. All 30 of these transit systems have received their 
Fiscal Year 2004 funds.
    Much of how the States and territories distribute and utilize 
Homeland Security Grant Program funds is influenced by the results of 
the State Homeland Security Assessments and Strategies. As you know, 
each State, the District of Columbia, the Commonwealth of Puerto Rico, 
and the territories were required to submit their assessments and 
strategies by January 31, 2004.
    These assessments and strategies, Mr. Chairman, are critically 
important to both the States and the Federal Government. They provide a 
wealth of information regarding each State's vulnerabilities, 
capabilities, and future requirements, as well as each State's 
preparedness goals and objectives. They provide each State with a 
roadmap as to how current and future funding, exercise, training, and 
other preparedness resources should be directed and targeted, and they 
provide the Federal Government with a better understanding of needs and 
capabilities. I am happy to report that all assessments and strategies 
have been received and reviewed by an intra-DHS review board comprised 
of representatives from major Department components and accepted by 
ODP.
    During Fiscal Year 2005, ODP will continue to provide States and 
localities with the resources they require to ensure the safety of the 
American public. The funds requested by the President for Fiscal Year 
2005 will allow ODP to continue to provide the training, equipment, 
exercises, technical assistance, and other support necessary to better 
prepare our communities.
    DHS's mission is critical, its responsibilities are great, and its 
programs and activities impact communities across the Nation. We will 
strive to fulfill our mission and meet our responsibilities in an 
effective and efficient manner. And we will, to the best of our 
abilities, continue to identify where and how we can improve. Part of 
our responsibility, part of the Department's responsibility, Mr. 
Chairman, is the recognition that we can always improve what we do and 
how we do it. And we can never be too safe or too secure.
    This critical mission was recognized by the Congress with the 
passage of the Homeland Security Act of 2002, and the creation of the 
Department of Homeland Security. And since the Department's creation, 
we have worked continuously with the Congress to determine how better 
to fulfill our common goal of a more secure America.
    Close coordination between States, localities, and regions, is 
critical to an effective and rational distribution of homeland security 
resources, and is consistent with currently existing ODP funding 
initiatives, such as the Urban Areas Security Initiative or UASI 
Program.
    ODP is also continuing its efforts to develop preparedness 
standards and to establish clear methods for assessing State and local 
preparedness levels and progress. As you will recall Mr. Chairman, on 
December 17, 2003, the President issued ``Homeland Security 
Presidential Directive (HSPD)-8.'' Through HSPD-8, the President tasked 
Secretary Ridge, in coordination with other Federal departments and 
State and local jurisdictions, to develop national preparedness goals, 
improve delivery of Federal preparedness assistance to State and local 
jurisdictions, and strengthen the preparedness capabilities of Federal, 
State, territorial, tribal, and local governments. HSPD-8 is consistent 
with the broader goals and objectives established in the President's 
National Strategy for Homeland Security issued in July, 2002, which 
discussed the creation of a fully integrated national emergency 
response capability. Inherent to the successful implementation of HSPD-
8 is the development of clear and measurable standards for State and 
local preparedness capabilities.
    The standards that will result from HSPD-8 implementation build on 
an existing body of standards and guidelines developed by ODP and other 
Federal agencies to guide and inform State and local preparedness 
efforts. Since its inception ODP has worked with Federal agencies and 
State and local jurisdictions to develop and disseminate information to 
State and local agencies to assist them in making more informed 
preparedness decisions, including capability assessments, preparedness 
planning and strategies, and choices relating to training, equipment, 
and exercises.
    Earlier this year, the Secretary delegated to ODP the 
responsibility for the implementation of HSPD-8. This designation by 
the Secretary is consistent with ODP mission, as provided under the 
provisions of the Homeland Security Act, to be the primary Federal 
agency responsible for the preparedness of the United States for acts 
of terrorism. And ODP, together with Secretary Ridge, other Department 
components, Federal agencies, and State and local governments, firmly 
believe that the successful implementation of HSPD-8 is essential and 
critical to our Nation's ability to prevent, prepare for, and respond 
to acts of terrorism. In March, the Secretary approved these key items: 
first, a strategy for a better prepared America based on the 
requirements of HSPD-8; second, an integrated, intra- and inter-
governmental structure to implement HSPD-8; and third, an aggressive 
timeline for achieving HSPD-8's goals and objectives. Implementation of 
HSPD-8 involves the participation of Federal, State, and local 
agencies, and, among other things, will result in the development and 
dissemination of clear, precise, and measurable preparedness standards 
and goals addressing State, local, and Federal prevention and response 
capabilities.
    In closing Mr. Chairman, let me re-state Secretary Ridge's 
commitment to support the Nation's State and local emergency response 
community, and to ensure that America's first responders receive the 
resources and support they require to do their jobs. This concludes my 
statement. I am happy to respond to any questions that you and the 
Members of the Committee may have. Thank you.

    The Chairman. Thank you very much.
    I guess my first question is there is a lot of concern out 
in the community of the first responders that the dollars are 
not coming out fast enough, and according to the statistics 
which were cited earlier, they do not appear to be coming out 
fast enough. No 2004 dollars have come out--this might have 
been appropriate to the Secretary of HHS. Sixty-two percent of 
the 2003 dollars are not out. This is in public health. 
Fourteen percent of the 2002 dollars are not out. Why is this 
happening and where is the hang-up, and are those dollars, when 
they are coming out, going out to the States on a threat-based 
assessment or are they going out on formula that allows towns 
with less of a threat to be receiving dollars that might better 
be used for towns that have a higher threat?
    Mr. Mitchell. For the two primary grant funds that ODP 
administers, the State Homeland Security Grant Program, which 
is the based grant program that provides funds to the States, 
and those funds currently go out under the Patriot Act 
authorized formula which provides a base for each State, and 
the balance of those funds are currently distributed on a 
population basis. Under the Urban Area Security Initiative, 
which provides a range of funds that are targeted based on a 
variety of threats and other criteria that the department 
develops, those are discretionary funds that are allocated to 
large urban areas based on threat, presence of critical 
infrastructure, and population density.
    There is a combination of the two grant program funds that 
do provide, we think, funding to meet the large jurisdictions' 
needs based on a threat and risk basis. We have also proposed 
in the 2005 budget that all funds that we administer, including 
the State Homeland Security grant program, that we use up a 
variety of criteria to include threat, risk, and other things 
to allow us to allocate those funds as well. It is an 
evolutionary process, but we think we have made significant 
progress to date on helping or providing the Secretary and 
Department the authorities we need to allocate funds to those 
jurisdictions that do have the highest risk and have the 
greatest need.
    The Chairman. How about the flow? There is some concern 
that States are not getting the money down to the communities, 
communities are not asking for the money in time. Where are the 
places where the process is being slowed?
    Mr. Mitchell. It varies, Mr. Chairman. We deal with 56 
States, territorial governments, and the District, and there 
are probably 56 various reasons as to why. In some cases, it is 
existing rules and regulations on procurement. In some cases, 
the States are required to have the funds appropriated by their 
legislature before they can obligate them. In some cases, the 
local governments have the same requirement for city councils 
or county commissioners to approve or authorize fund 
expenditures. There are a variety of reasons. There are no 
simple, easy solutions, but Secretary Ridge did appoint a 
committee to look at this, a working group, and that report was 
submitted to our office on issues that affect or impede State 
and local government ability to expeditiously and effectively 
receive and allocate these funds.
    We are looking at the recommendation on that, and we think 
there will be some significant improvements we can make based 
on the recommendations from that committee.
    The Chairman. To what extent are the problems at our level?
    Mr. Mitchell. I am happy to say that on our end, from the 
Federal end, we have very tight time lines in which to allocate 
our funds, and we have obligated all of our funds for 2004 
under the Urban Area Security Program, and there is one 
remaining State under the State Homeland Security Program that 
we are still awaiting some information, but we have obligated 
all of our funds, and we generally can do that within a week to 
two weeks of the submission of the application as long as the 
State's application is complete. We are providing technical 
assistance and trying to identify areas where we can go out and 
assist the States.
    I think one of the challenges that we face is this is an 
enormous amount of money going through a system that is in its 
infancy at best. The ability to plan and analyze and prioritize 
requirements for homeland security is an extraordinarily 
complex challenge, and I think we are seeing improvements at 
the State and local level in their abilities to do that, but I 
still think that is one of the challenges we do face--helping 
build that infrastructure at the State and local level, to help 
them make better informed decisions and to more expeditiously 
allocate and disburse these funds.
    The Chairman. Well, I appreciate that, and having observed 
it in anecdotal ways, it does seem to me that some of these 
funds are ending up with an LEA situation where the dollars are 
being spent for blue lights instead of on an orchestrated 
process, and I suspect that is the formula funds that are going 
out on the basis of population.
    Mr. Mitchell. Obviously, equipment is a major area where 
the State and locals allocate their funds, but the States are 
required to develop strategic plans that have multiple year 
priorities, and we encourage them--although we cannot mandate, 
we strongly encourage them to build, to design their strategies 
on regional basis, building on existing mutual aid and response 
systems that are already in place and to not just try to 
provide a certain level of funding to every jurisdiction so 
that every jurisdiction gets a grant. We hear a lot of that. We 
hear from a lot of Mayors that their cities have never gotten a 
grant, and our position is if the States are doing this 
properly and they are developing regional response 
capabilities, a lot of jurisdictions never will get a grant, 
but they will certainly benefit from enhanced response 
capabilities that are being created that will allow more robust 
and sustainable response within the regions that the States 
have established.
    Again, there are always two sides at least to every story. 
We are trying to work with both the localities and the 
Governors to reach some agreement and find out how we can make 
this process even more effective.
    The Chairman. Good, and I hope that we can get legislation 
in the appropriations bill to make it more threat-based in my 
opinion.
    Mr. Mitchell. Yes, sir.
    The Chairman. Which may work against New Hampshire, for 
example, but that is the way it should be distributed.
    Mr. Tolbert, so we have an event. It is a public health 
event. It is in a subway system, say here in Washington. How do 
we get the people from the subway to the hospital? The traffic 
situation is a disaster. It was proved after 9-11 it is a 
disaster, and almost on any evening, you can expect it to be a 
disaster. Have we structured a process for the physical event 
of moving people and have we tested it in a real world real-
time situation?
    Mr. Tolbert. There are numerous mass casualty plans being 
developed around the country down to the specific cities. The 
continuum of care begins, though, at the patient, wherever the 
patient is. A lot of the capacity being built utilizing 
homeland security funds are actually in building mobile 
capabilities that can be deployed to the victim, and from that 
point where you have executed initial stabilization, at that 
point then they are stabilized for transportation.
    Transportation is only one of the areas of concern. 
Certainly that is local specific as to the capabilities for 
transportation, but we are looking at more innovative ways on a 
more strategic basis as to how we can provide medical casualty 
transportation, which is one of the components of the national 
disaster medical system that I referred to earlier. We are not 
only looking at the local area casualty movement capabilities, 
but we are looking strategically at how we can move them from 
the impacted area where we have a large scale mass casualty 
incident with saturation of medical facilities out to outlying 
hospitals. That is one of the priorities the Department is 
focusing on now.
    The Chairman. I appreciate that and I understand we are 
doing paper practices. I guess my concern is it is more than 
the casualties. It is just human nature of wanting to get out 
of the area, the jamming of the phone systems, the overwhelming 
of the cell phone capability which occurred in the 9-11 
scenario.
    Say there with was another 9-11 type of scenario in 
Washington. Would we be in any better position today to move 
the traffic out, to have people communicate by telephone, and 
have the different jurisdictions, Maryland and Virginia, 
cooperate with the District of Columbia? According to the GAO, 
we are not in a whole lot better position. Do you think we are?
    Mr. Tolbert. I think from a coordination and communication 
standpoint, the region is far better prepared than it was in 
2001. There are redundant communication systems that tie the 
entire network together, the entire region, the local 
governments, the State agencies, the Federal agencies, and that 
system is tested on a very routine basis. We collaboratively 
work with the District and the surrounding region of the 
National Capital region to develop more robust capabilities, 
planning. In fact, Secretary Thompson referred earlier to the 
cities readiness initiative, and have already begun preliminary 
discussions.
    The Chairman. How do you respond to the GAO report which 
essentially said that the Capital region--and I do not think it 
is probably unique. New York may actually have things in a 
better management structure, but I suspect there are not too 
many places who are much better off. I am not picking on the 
Capital region because it is unique. In fact, my concern is 
that it is not unique. How do you respond to the GAO report 
which essentially said that the coordination is not there, that 
the interoperability of systems is not there, and that the 
ability to handle a massive movement of people, either because 
they are injured or because they are trying to get out of the 
way or get away, we cannot do it, and the communication systems 
would essentially break down for the average person who was 
trying to get out of town and trying to figure out where his 
kids are or her kids are and communicate?
    Mr. Tolbert. Disasters by their nature tend to be chaotic, 
and certainly we have a lot of room for improvement. It will 
require continuing dedication on the part of all levels of 
government nationally and especially within the National 
Capital Region to develop better capabilities, but I do know 
that we have made significant strides in not only evacuation 
planning and communication with the public, but we have also 
made greater strides in looking at alternatives to immediate 
evacuation. One of the findings that we know from a science and 
technology standpoint is that evacuation is not necessarily the 
best answer or the best protective action to execute.
    The Chairman. But it is the natural human reaction.
    Mr. Tolbert. It is, but a lot of investment is being made, 
especially in the Federal agencies and the local agencies, in 
developing better plans for in-place sheltering and developing 
better capacity. In fact, FEMA has recently completed 
enhancements within our own building with better plans, better 
training, better equipment in place to ensure that we can in-
place shelter until it is appropriate to go into the 
environment.
    The Chairman. Well, I guess I would like to get a written 
response, if possible, from the Department to the GAO report. 
Maybe you have already done that and I have not seen it, but 
that is what I would like to get, because they were pretty 
negative on where we are, and then I would like to take it to 
the next step. Is the Capital Region unique? Are the GAO points 
unique to the Capital Region, or is this something that we have 
got to worry about in other areas and what is the process, the 
systemization, that is being put in place to address these 
concerns? Is that possible?
    Mr. Tolbert. It is a national problem where we have high 
density population in all of the major urban areas, and I 
believe that the effort, especially related to the urban area 
security initiative is significantly complementing the local 
regional capability and planning. It certainly requires 
collaboration. You have to have early coordination, early 
warning, and specifically in the NCR and I know in other areas 
around the country, there are great strides being made in the 
communications capability to ensure that when we have an event, 
that there is timely sharing of information and coordination on 
the emergency actions. Certainly, it will be a multi-year 
activity to ensure that we have robust capabilities nationally, 
but they are very complex problems and there are not very easy 
solutions where we have literally tens of millions of people 
congregated in high-density population centers.
    The Chairman. I think we all understand that. We all 
understand that we are never going to get this perfect and 
probably will not get it to a position where it is even close 
to perfect, but there are some things we can correct or at 
least try to correct. For example, it is startling to me that 
2\1/2\ years, almost 3 years after 9-11, we still have in the 
Capital area an incompatibility of communications and basically 
willingness to be cooperative between Virginia, Maryland, and 
District of Columbia in the case of a crisis of significant 
proportion. I mean, that is just startling.
    Now, maybe it is time for HSA, since it has now been set up 
and you are in position to do something like this, to ask for 
the legislative authority to--basically when that type of 
cooperation is not occurring between States or districts--to 
come in and bang heads together and say this is the way it is 
going to be and you are going to do it and I have the 
legislative authority to do. Whatever the process is, we have 
got to resolve that. I mean, that is a resolvable event. 
Clearly, we are not going to be able to handle the fact that 
10,000 people suddenly want to leave the city or a hundred 
thousand people want to leave the city and there are only three 
bridges going west.
    That is not resolvable, but other things are. I guess my 
concern is how are we handling the ones that might be 
resolvable when we know they are there, when we have reports 
saying they are there today. If you have got ideas on that, we 
are interested in them.
    I thank you for your time and I appreciate your 
participation in this hearing. I appreciate the work you are 
doing, by the way. I do not want to understate the fact that 
you folks have gotten up to speed in a very difficult climate 
very quickly and that you are working hard and what you are 
doing is so important and we appreciate it. We appreciate the 
hours you put in.
    Mr. Tolbert. Thank you, Senator.
    Mr. Mitchell. Thank you, Senator.
    The Chairman. Okay. I do want to stress that my concerns 
are meant as concerns and that I very much admire the efforts 
made by the Homeland Security Agency and HHS in these areas.
    If we could have the next panel join us, we are going to 
have four witnesses who are on the front lines, first responder 
situations to a large degree: Ms. Susan Waltman, who is the 
Senior Vice president and General Counsel of Greater New York 
Hospital Association, which obviously has a huge role in any 
event; Mr. Mike Sellitto, who is Deputy Fire Chief in charge of 
special operations here in Washington, DC., who again is right 
out there on the front lines; Dr. Ricardo Martinez, a board-
certified emergency physician and is chairman and the founder 
of the Medical Sports Group. He is basically responsible for 
the NFL's ability to handle events, especially the Super Bowl. 
Their experience is unique and we want to hear about it; and 
Dr. George Thibault, who is serving as Vice President of 
Clinical Affairs at Partners Healthcare Systems since 1999, and 
he is a professor of medicine at Harvard and a specialist in 
this area. His input will be very helpful to us.
    Why don't we just start with Chief Sellitto and move down 
the panel, if you would give us your thoughts.

 STATEMENT OF MIKE SELLITTO, DEPUTY FIRE CHIEF, WASHINGTON, DC.

    Mr. Sellitto. Good afternoon, Chairman Gregg and Members of 
the Subcommittee. I am Michael Sellitto, Deputy Fire Chief in 
charge of special operations for the District of Columbia Fire 
and EMS. I am pleased to be here today to offer testimony on 
how D.C. Fire and EMS prepares to keep the citizens and 
visitors to the District of Columbia safe during special 
events.
    The Special Operations Division has planning 
responsibilities for all special events in which fire, EMS, or 
special support is required. As Deputy Chief of Special 
Operations, I oversee our hazardous materials response and 
technical rescue units, and I am responsible for preparations 
to a WMD event.
    Planning for special events in the District is a constant 
activity. There are hundreds of events in the District each 
year, ranging from the festivals and celebrations held in every 
community nationwide to the specialized events such as the 
Presidential Inaugural that is held only in the Nation's 
capital. D.C. Fire and EMS was a key partner for the World War 
II Memorial dedication and the recent funeral of former 
President Ronald Reagan. We regularly share in the planning of 
the State of the Union addresses, and we are currently 
preparing for the upcoming Presidential Inauguration.
    D.C. Fire and EMS uses an all-hazards approach to planning 
for major special events. Each event is unique and has its own 
special set of circumstances. Some of the factors we consider 
include the VIP attendance, the level of security screening for 
attendees, the crowd size, threat intelligence, the nature of 
the event, weather, and event-specific hazards such as 
fireworks. A unified command presence is established at all 
major special events to ensure command and control of assets is 
a coordinated effort. In this way, we can be sure that the 
appropriate assets are already in place for unplanned events 
should they occur. The ultimate goal, of course, is that 
everyone goes home safely at the end of the day.
    The Department sits on the Mayor's special events task 
group which meets regularly to review proposals for events. 
This group of representatives from local and Federal agencies 
has responsibility for ensuring that special events are 
conducted in a safe and secure environment. This task group and 
D.C. Fire and EMS have been planning successfully for special 
events in the District for years. Since September 11th, that 
level of planning, cooperation, and coordination has improved 
and expanded.
    Often Federal agencies are the lead agency responsible for 
security or for property hosting the event. Events on U.S. park 
land are coordinated with the National Park Service, and we 
provide support as requested by the U.S. Capitol Police and the 
U.S. Secret Service. We work closely with the FBI, FEMA, DOD, 
DOE, and HHS. The relationships developed through these 
planning groups have greatly benefited D.C. Fire and EMS. We 
know the players involved from each participating agency, 
Federal and local. This is extremely important in the event of 
any unplanned incidents. In such an event, these players would 
need to work together quickly to determine appropriate incident 
response. The strong relationships developed prior to unplanned 
events makes this possible.
    We also have very strong relationships with other Fire and 
EMS Departments in the National Capital region. The Washington 
Metropolitan Council of Governments Fire Chiefs Committee and 
subcommittees are invaluable for developing regional 
coordination and response. A standardized incident command 
system has been adopted. There are standing mutual aid plans, 
mutual aid operations plans, and field operations guides.
    Many additional regional concerns are being addressed and 
supported by the urban area security initiative grant moneys. A 
regional incident management team has been developed which 
allows specially trained members from area departments to 
provide incident support to any jurisdiction in need. The 
region has an 800 megahertz radio system that is shared by most 
surrounding jurisdictions. This allows for direct 
communications between mutual aid partners.
    In response to the attacks of September 11th, the District 
Government focused great efforts on assessing and revising city 
emergency plans. The result is a new and always improving 
District response plan that sets out the framework for District 
Government response to public emergencies in the Metropolitan 
Washington area. The District has identified 15 emergency 
support functions within the plan. Washington, DC Fire and EMS 
has lead responsibilities for three functions: fire fighting, 
urban search and rescue, and hazardous materials. We have 
substantial support roles in two others: mass care and health 
and medical services.
    Prior to September 11th, certain response capabilities in 
the department were already being improved. Since then, with 
the assistance of Federal funding, capabilities have been 
further enhanced in apparatus, technical equipment, and 
training.
    The Department of Homeland Security funding has allowed 
much of this to be accomplished, freeing up local funds to be 
used for other enhancements such as staffing not permitted 
under DHS guidelines. D.C. Fire and EMS has added many medical 
and response vehicles to our fleet since September 11th. This 
increased fleet is available for emergency response to and 
support of special events. Some other equipment placed in 
service and upgrade since September 11th includes enhanced 
medical equipment on all EMS units, stockpiles of medical 
equipment for use during early stages of a biological incident, 
mark one kits and front line response units, and the placement 
of detection and screening equipment on units across the 
District. We have increased our decontamination capabilities in 
response to WMD through equipment and training. Training is 
essential to D.C. Fire and EMS. Since September 11th, we have 
undertaken training of additional personnel in all technical 
areas, including hazardous materials, operations, WMD incident 
response, and advanced medical procedures.
    This brief overview highlights some of the areas of the 
department's readiness for major special events in the District 
and any potential unplanned WMD events and other emergencies. 
Our capabilities and readiness are always in practice and 
always improving.
    This completes my oral testimony. Thank you again for this 
opportunity to be here today, and I am happy to answer any 
questions from the committee.
    [The prepared statement of Mr. Sellitto follows:]

                 Prepared Statement of Michael Sellitto

    Good morning Chairman Gregg and Members of the Committee. I am 
Michael Sellitto, Deputy Fire Chief in charge of Special Operations for 
the District of Columbia Fire and Emergency Medical Services 
Department. I am pleased to be here today to offer testimony on how DC 
Fire/EMS prepares to keep citizens and visitors to the District of 
Columbia safe during special events.
    The Special Operations Division has planning responsibilities for 
all special events for which fire, emergency medical services and/or 
specialized support is requested or required. As Deputy Chief, Special 
Operations, I oversee planning, training, and response of the DC Fire/
EMS hazardous materials and technical rescue teams including urban 
search and rescue, high angle, trench collapse, structural collapse, 
confined space, and water rescue. I am also responsible for DC Fire/EMS 
preparations for response to any WMD incident.

     SPECIAL EVENTS IN THE DISTRICT OF COLUMBIA--GUIDING PRINCIPLES

    Planning for special events in the District of Columbia is a 
regular activity for many agencies in DC Government. There are always 
special events happening in the District ranging from the festivals, 
athletic events, and block parties of every community in the Nation to 
specialized events, such as Presidential inaugurals or the recent WWII 
Memorial Dedication, that are held only in the Nation's capitol. DC 
Fire/EMS was involved in planning for the recent funeral for former 
President Ronald Regan, and regularly participates in planning for 
State of the Union Addresses. We are currently planning for the 
upcoming 2005 Presidential inaugural, with representation on twenty-
five (25) planning committees, a number that will grow as the event 
draws closer.
    DC Fire/EMS uses an all hazards approach to planning for major 
special events. Each event is unique and has its own special set of 
circumstances to be considered. The level of protection provided for 
each event has many variables. The factors that are considered include, 
but are not limited to, VIP attendance, the level of security screening 
provided for attendees, the number of attendees, threat intelligence 
directed at the event, the nature and/or sponsor of the event, 
projected weather extremes, and event specific hazards such as 
fireworks. A Unified Command presence is established at all major 
special events to ensure the command and control of assets is a 
coordinated effort. In this way, we can be sure that the appropriate 
assets are already in place for unplanned events, should they occur. 
The ultimate goal, of course, is that everyone goes home safely at the 
end of the day.

  COORDINATION AND INTEROPERABILITY BETWEEN AGENCIES AND JURISDICTIONS

    In the District, the Mayor's Special Events Task Group meets 
regularly to review proposals for events. This group of representatives 
from local and Federal agencies has responsibility for ensuring that 
special events are conducted in a safe and secure environment. This 
Task Group and DC Fire/EMS have been planning for special events in the 
District for many years. Since September 11, the level of planning, 
cooperation, and coordination has improved and expanded.
    In the District, Federal agencies very often are the lead agency 
responsible for security or are the lead agency on whose property the 
event occurs. Events on U.S. parkland are coordinated with the National 
Park Service Special Events Office, and we provide support as requested 
by the U.S. Capitol Police Special Events Office, and to the U.S. 
Secret Service Planning Committee for any National Special Security 
Events or those that require coverage for Secret Service protectees. DC 
Fire/EMS regularly works closely with the FBI, FEMA, DOD, DOE, and HHS. 
The planning meetings have the goal of developing action plans, which 
are utilized to plan and direct operations during an event.
    The relationships developed through these planning groups greatly 
benefits DC Fire/EMS. We know very well the players involved from each 
participating agency, Federal and local. This is extremely important in 
the event of any unplanned incidents, independent of or associated with 
major special events. In such an event, these ``players'' would need to 
come together quickly to determine an appropriate incident response. 
The strong relationships developed prior to unplanned events makes this 
possible.
    We also have very strong relationships with other Fire/EMS 
departments in the National Capital Region (NCR). The Metropolitan 
Washington Council of Governments Fire Chiefs Committee and 
subcommittees are invaluable for developing regional coordination and 
response. A Standardized Incident Command System has been adopted in 
the region; there are standing Mutual Aid Plans, a Mutual Aid 
Operations Plan and Field Operation Guide.
    Additional regional issues are being addressed and are supported by 
Urban Area Security Initiative monies. In conjunction with the National 
Fire Academy, a regional Incident Management Team (IMT) has been 
developed, which allows specially trained members from the NCR to 
provide incident support in the planning, command, operation, logistics 
and finance areas to any jurisdiction in need--whether for a planned, 
or unplanned event. The NCR has an 800 MHz radio system that is shared 
by most of the surrounding jurisdictions. This allows direct 
communications between the mutual aid partners.

                          SOME LESSONS LEARNED

    DC Fire/EMS is always assessing our response to incidents and our 
plans for special events. Past experience shows us that including 
increased Incident Command and use of an Incident Management Team from 
the early planning stages of special events is valuable. As noted 
earlier, this allows for needed assets and command structures to be in 
place prior to any unplanned incident that could emerge during a major 
special event. Another important lesson is the value of working with 
health agencies to provide nurses and physicians onsite during major 
special events. This decreases the need for transport to hospitals, 
increases the level of pre-hospital care available to special event 
attendees, and stages nurses and physicians closer to potential 
casualties of an unplanned incident.

       DC FIRE/EMS RESPONSIBILITIES IN THE DISTRICT RESPONSE PLAN

    In response to the attacks of September 11, the District of 
Columbia government focused great effort to assess and revise city 
emergency plans. A Domestic Preparedness Task Force was formed with 
representatives including, among others, heads of District agencies 
with public safety and emergency functions. The Task Force and the 
District's Emergency Management Agency developed the new District 
Response Plan. This Plan sets out the framework for District government 
response to public emergencies in the metropolitan Washington area. The 
District has identified 15 Emergency Support Functions (ESFs) that 
supplement the Basic Response Plan. Each ESF has it's own purpose and 
scope with operating responsibilities and identified lead and support 
agencies. DC Fire/EMS has lead responsibilities for three ESFs: ESF 
#4--Firefighting, ESF #9--Urban Search and Rescue, and ESF #10--
Hazardous Materials. The Department has a substantial support role for 
two other ESFs: ESF #6--Mass Care, and ESF #8--Health and Medical 
Services.

       SOME ENHANCEMENTS AT DC FIRE/EMS SINCE SEPTEMBER 11, 2001

    Prior to September 11, certain response capabilities were already 
being enhanced with the growing threat of the possibility of a 
terrorist attack. Since September 11, with the assistance of Federal 
funding, capabilities have been further enhanced in areas of response 
apparatus, technical equipment, response training and staffing. 
Department of Homeland Security funding has been received in a timely 
fashion, allowing many of these enhancements to be accomplished. This 
has freed up local funding to be used for other enhancements, such as 
staffing, which have not been permitted under DHS funding guidelines.
    Specifically for increased response capabilities, the following 
assets have been added to DC Fire/EMS apparatus fleet since September 
11:
    <bullet> 12 Ready Reserve Ambulances (ALS capable)--placed in 
service with certified administrative or recalled personnel when 
needed,
    <bullet> 2 Mass Casualty Trucks--each equipped to handle fifty 
patients,
    <bullet> 2 Ambusses--capable of transporting ambulatory & non-
ambulatory patients,
    <bullet> 1 WMD Response Truck--to provide support equipment for WMD 
events,
    <bullet> 1 Radiation Response Truck--to provide additional 
monitoring screening and decontamination at a radiological event,
    <bullet> 10 Ready Reserve Engines--placed in service with recalled 
personnel, and
    <bullet> 3 Ready Reserve Ladder Trucks--placed in service with 
recalled personnel.
    DC Fire/EMS rewrote its ``Mobilization Plan'' after September 11, 
to address concerns for additional personnel recall procedures, 
staffing guidelines, and the use of decentralized ``Area Commands.''
    The increased fleet is also utilized to support special events as 
needed, which allows DC Fire/EMS to maintain our normal level of 
service to District residents as a whole, while also providing the 
necessary enhanced coverage to special event sites.
    Other equipment placed in service and upgraded since September 11 
includes:
    <bullet> State-of-the-art chemical detection equipment on various 
units,
    <bullet> Biological screening equipment on our Hazardous Materials 
Unit,
    <bullet> Radiation detection equipment citywide,
    <bullet> Enhanced medical equipment on all of our EMS units,
    <bullet> Stockpiles of necessary medical equipment are on-hand for 
sustained response during the early stages of a potential biological 
incident, and
    <bullet> Mark 1 kits (nerve agent antidote) have been placed in 
front line response units.
    Additional decontamination capabilities include:
    <bullet> Decontamination tents,
    <bullet> Tent heaters,
    <bullet> Water heaters,
    <bullet> Redress, and
    <bullet> Necessary support equipment.
    All members of DC Fire/EMS have been trained in gross 
decontamination techniques, which are utilized in the event of a WMD 
incident.
    Training is essential to DC Fire/EMS's ability to carry out our 
mission. Since September 11, DC Fire/EMS has undertaken an enhancement 
program that has trained additional numbers of personnel in all 
technical areas, including training for:
    <bullet> all uniformed members to the hazardous materials 
operations level, NFPA 472 Standard,
    <bullet> all EMS personnel to NFPA 473 Standard, * 200 hazardous 
materials technicians,
    <bullet> 120 rescue technicians,
    <bullet> Specialist training programs, such as those offered by the 
Department of Homeland Security, Office of Domestic Preparedness, 
including:
          <bullet>  COBRA live agent training,
          <bullet>  Incident Response to Terrorist Bombings live 
        explosives course, and
          <bullet>  Nevada Test Site WMD Radiological/Nuclear Course,
    <bullet> Advanced EMT training for EMS personnel, which enables all 
EMS personnel to administer seven (7) medications and use advanced 
airway techniques.
    Included, as attachments to this prepared testimony, are documents 
that help to illustrate the type of response, special event planning, 
and incident command structure in place in the DC Fire and Emergency 
Medical Services Department. The attachments are focused on EMS Special 
Operations, WMD response, and EMS Incident Command.
    DC Fire/EMS takes very seriously the mission to protect life and 
property through fire suppression, hazardous materials response, 
technical rescue, fire prevention and education, and pre-hospital care 
and transportation services to people within the District of Columbia. 
The Department's readiness for major special events in the District, 
any potential unplanned WMD events, and other emergencies are always in 
practice and always improving.
    This completes my prepared testimony. Thank you again for the 
opportunity to be here today. I am happy to answer any questions from 
the committee.

[GRAPHIC] [TIFF OMITTED] T5103.001

[GRAPHIC] [TIFF OMITTED] T5103.002

[GRAPHIC] [TIFF OMITTED] T5103.003

[GRAPHIC] [TIFF OMITTED] T5103.004

[GRAPHIC] [TIFF OMITTED] T5103.005

[GRAPHIC] [TIFF OMITTED] T5103.006

[GRAPHIC] [TIFF OMITTED] T5103.007

[GRAPHIC] [TIFF OMITTED] T5103.008

[GRAPHIC] [TIFF OMITTED] T5103.009

[GRAPHIC] [TIFF OMITTED] T5103.010

[GRAPHIC] [TIFF OMITTED] T5103.011

[GRAPHIC] [TIFF OMITTED] T5103.012

[GRAPHIC] [TIFF OMITTED] T5103.013

[GRAPHIC] [TIFF OMITTED] T5103.014

[GRAPHIC] [TIFF OMITTED] T5103.015

[GRAPHIC] [TIFF OMITTED] T5103.016

[GRAPHIC] [TIFF OMITTED] T5103.017

[GRAPHIC] [TIFF OMITTED] T5103.018

[GRAPHIC] [TIFF OMITTED] T5103.019

[GRAPHIC] [TIFF OMITTED] T5103.020

[GRAPHIC] [TIFF OMITTED] T5103.021

[GRAPHIC] [TIFF OMITTED] T5103.022

[GRAPHIC] [TIFF OMITTED] T5103.023

[GRAPHIC] [TIFF OMITTED] T5103.024

[GRAPHIC] [TIFF OMITTED] T5103.025

[GRAPHIC] [TIFF OMITTED] T5103.026

[GRAPHIC] [TIFF OMITTED] T5103.027

[GRAPHIC] [TIFF OMITTED] T5103.028

[GRAPHIC] [TIFF OMITTED] T5103.029

[GRAPHIC] [TIFF OMITTED] T5103.030

[GRAPHIC] [TIFF OMITTED] T5103.031

[GRAPHIC] [TIFF OMITTED] T5103.032

[GRAPHIC] [TIFF OMITTED] T5103.033

[GRAPHIC] [TIFF OMITTED] T5103.034

[GRAPHIC] [TIFF OMITTED] T5103.035

[GRAPHIC] [TIFF OMITTED] T5103.036

[GRAPHIC] [TIFF OMITTED] T5103.037

[GRAPHIC] [TIFF OMITTED] T5103.038

[GRAPHIC] [TIFF OMITTED] T5103.039

[GRAPHIC] [TIFF OMITTED] T5103.040

[GRAPHIC] [TIFF OMITTED] T5103.041

[GRAPHIC] [TIFF OMITTED] T5103.042

[GRAPHIC] [TIFF OMITTED] T5103.043

[GRAPHIC] [TIFF OMITTED] T5103.044

[GRAPHIC] [TIFF OMITTED] T5103.045

[GRAPHIC] [TIFF OMITTED] T5103.046

[GRAPHIC] [TIFF OMITTED] T5103.047

[GRAPHIC] [TIFF OMITTED] T5103.048

[GRAPHIC] [TIFF OMITTED] T5103.049

[GRAPHIC] [TIFF OMITTED] T5103.050

[GRAPHIC] [TIFF OMITTED] T5103.051

[GRAPHIC] [TIFF OMITTED] T5103.052

[GRAPHIC] [TIFF OMITTED] T5103.053

53[GRAPHIC] [TIFF OMITTED] T5103.054

    The Chairman. Thank you, Chief.
    Dr. Thibault.

           GEORGE E. THIBAULT, M.D., VICE PRESIDENT, 
             CLINICAL AFFAIRS, PARTNERS HEALTHCARE

    Dr. Thibault. Thank you. Good afternoon. My name is George 
Thibault. I am the Vice President of Clinical Affairs at 
Partners Healthcare and Professor of Medicine at Harvard 
Medical School.
    Partners is a not-for-profit integrated health care system 
in eastern Massachusetts that includes two major teaching 
hospitals of Harvard Medical School, the Massachusetts General 
Hospital and the Brigham & Women's Hospital, four community 
hospitals, a psychiatric teaching hospital, three 
rehabilitation hospitals, several nursing homes, a non-acute 
care service, community health centers, and over a thousand 
community primary care physicians. I am also representing the 
Conference of Boston Teaching Hospitals. On behalf of all our 
physicians, nurses, care givers, and the patients that we serve 
every day, I want to thank Senator Gregg and Senator Kennedy, 
who I got to speak to earlier, and the Members of the Committee 
for the opportunity to testify and for their interest in this 
very important issue.
    I will briefly summarize the testimony that I have 
submitted, touching on three areas. First is our general 
commitment to emergency preparedness, specifically what have 
been done at Partners since September 11, 2001, and then make 
some concluding remarks about what some of our needs and 
concerns are.
    We and the other Boston teaching hospitals have been 
fortunate to build on a long history of effective collaboration 
with each other and with other first responder agencies in our 
area. Emergency preparedness for catastrophic events such as 
infectious disease outbreaks, mass casualty accidents, storms, 
and chemical disasters has always been an essential part of our 
medical readiness. Since September 11, 2001, however, hospitals 
preparing for potential incidents and emergencies that are 
unprecedented in their magnitude and potentially impacting a 
much greater number of victims. The threat of terrorism and the 
use of weapons of mass destruction like chemical and biological 
weapons and even nuclear disasters require hospitals to be 
prepared and to manage previously unthinkable scenarios which 
have impacted every aspect of emergency planning and hospital 
operations, and I can say it truly has become part of our day-
to-day existence in a way that it never was before.
    Our hospitals have responded. On September 11, 2001, 
Massachusetts hospitals cleared hundreds of beds in 
anticipation of receiving victims, which of course we never 
received. Since September 11th, Partner as a health care system 
has organized itself to be better prepared. We have worked 
together as a system to be able to effectively respond to 
challenges ahead. We have invested significant resources in 
every aspect of our hospital operations and infrastructure. 
Since September 11th, we estimate we have conservatively 
estimated an investment of over $6 million above and beyond 
what we would have done for normal operations. Against that 
investment of $6 million, we have received $230,000 of HRSA 
funding. I can say, having done an informal poll of the other 
Boston teaching hospital, the ratio of investment to return has 
been about the same.
    Areas in which we have invested include the following, and 
these are all very important: communication systems, including 
the development of alternative communication systems in the 
event of failure or overload; disease surveillance efforts, 
including systems to facilitate disease reporting and access to 
experts, improved patient tracking systems, radiation 
detection, tests for detection of chemical agents, and 
identification of biological agents; protective equipment for 
medical staff; hospital facility infrastructure for lock down 
and protection of patients and staff; drug and pharmaceutical 
supplies for protection against biological, chemical, and 
nuclear attacks; training and drills for our medical personnel. 
We have invested enormously in training for all of our medical 
personnel, physicians, nurses, administrative staff, support 
staff; vaccination efforts for smallpox; and, very importantly, 
managing the mental health needs of patients and staff during a 
crisis.
    These are ongoing and continuing investments. I can say in 
many ways, they have made us better health care facilities. We 
are better prepared to respond to ordinary emergencies as well, 
and the education and the investment has positioned us to serve 
our public well, but, nonetheless, these are additional 
investments above and beyond our normal expenditures.
    Our hospitals and medical staff remain deeply committed to 
maintaining and enhancing our preparedness efforts as events 
dictate. We estimate that we will continue to make as a system 
an investment of $2 million to $3 million a year to keep 
ourselves current and to continue to upgrade our facilities in 
every one of these areas. Our local public health agency, the 
Massachusetts Department of Public Health, has played an 
important role in setting up regional planning structures for 
the State, and the Boston Health Commission has been an 
indispensable partner in working with the Boston teaching 
hospitals to design a dependable disaster response that meets 
the needs of our situations in our community.
    We are very grateful for the work that has been done at the 
Federal level, and I have enjoyed hearing the testimony today 
and appreciate the great efforts that have gone in, the great 
efforts of this committee and of our Senator Kennedy our own 
congressional delegation; however, we can say that additional 
resources are needed. I have already alluded to the ratio 
between investment and the return at this time.
    We continue to carry out our fundamental missions of 
training the next generation of physicians and identifying and 
implementing new medical treatments and making new discoveries 
and, of course, caring for all patients who come to our doors 
or emergency rooms regardless of their ability to pay. All of 
our hospitals are facing enormous fiscal challenges. We 
continue to need to make significant investments in information 
technology and other patient-related technologies in order to 
provide the safest and most efficient care for all of our 
patients. These additional investments in emergency 
preparedness compete with those necessary investments for 
patient care that we need to make on a daily basis.
    We must remember that hospitals are, in fact, first 
responders to any attack or any biological threat. We will plan 
an essential role in any disaster, and I want to assure you we 
are ready to do that and welcome that responsibility, but 
maintaining or enhancing our ability to care for emergency 
victims will be critically dependant on having adequate 
financial resources to maintain the state of preparedness that 
we must achieve and sustain for our future.
    I thank you very much for this opportunity to testify. We 
look forward to working closely with you, and I look forward to 
answering any of your questions.
    [The prepared statement of Dr. Thibault follows:]

             Prepared Statement of George E. Thibault, M.D.

    Good morning. My name is Dr. George Thibault and I am the Vice 
President of Clinical Affairs for Partners HealthCare, which is a non-
profit, integrated system of health care providers in Massachusetts 
that includes two major Harvard teaching hospitals, the Massachusetts 
General Hospital and Brigham and Women's Hospital in Boston; four 
community hospitals; a psychiatric teaching hospital; a rehabilitation 
teaching hospital; non-acute services; and several community health 
centers. I am also representing the Conference of Boston Teaching 
Hospitals.
    On behalf of our physicians, nurses and other caregivers, and the 
patients we serve each day, I want to thank the Chairman of the 
Committee, Senator Judd Gregg (R-NH), the ranking member, Senator Ted 
Kennedy (D-MA), and the Members of this Committee for inviting us to 
testify today on our Emergency Preparedness efforts and our readiness 
to respond to a terrorist event in Massachusetts.
    I appreciate the opportunity to inform you of the kinds of efforts 
our medical and other staff have undertaken throughout our hospitals 
since September 11, 2001, and to illustrate the ongoing resource needs 
of our hospitals.

             HOSPITAL COMMITMENT TO EMERGENCY PREPAREDNESS

    Partners founding hospitals, Massachusetts General Hospital and 
Brigham and Women's Hospital in Boston, as well as our community and 
specialty hospitals have undertaken significant emergency planning 
initiatives since September 11, 2001. Indeed, we and the other Boston 
teaching hospitals have been fortunate to build on a long history of 
effective collaboration with Boston's other first responder agencies.
    Emergency preparedness for catastrophic events such as infectious 
disease outbreaks, mass-casualty accidents, storms and chemical 
disasters have always been an essential aspect of Boston's hospital 
readiness planning.
    Since September 11, 2001, however, hospitals have been preparing 
for potential incidents and emergencies that are unprecedented in their 
magnitude and potentially impacting much greater numbers of victims. 
The threat of terrorism and the use of weapons of mass destruction like 
chemical and biological weapons and nuclear disasters require hospitals 
to be prepared to manage previously unthinkable scenarios which have 
impacted every aspect of emergency planning and hospital operations.
    Our hospitals have responded.
    Back on September 11th, Massachusetts hospitals cleared hundreds of 
beds in anticipation of receiving victims from the September 11th 
disaster. In the aftermath of the devastating Rhode Island fire in 
February of 2003, the Emergency Departments and the physicians and 
nurses of Massachusetts General Hospital and Brigham and Women's 
Hospital, along with Shriner's Hospital in Boston, provided essential 
support to the relief effort of Rhode Island's hospitals and we 
provided burn care to victims as the only verified burn centers in 
Massachusetts.
    Our medical staff was privileged to care for these patients and to 
work with them and their families in the face of extraordinary 
challenges.

                          PARTNERS INVESTMENTS

    Since September 11, 2001, we have reformed and enhanced our 
management and operational responses to emergency planning and 
responded effectively to a new set of challenges.
    We have invested significant resources in every facet of our 
hospital operations and infrastructure. Since September 11, 2001, we 
have invested over $6 million in preparing for an expanded array of 
catastrophic public health emergencies. In 2004, we received our first 
and, to date, our only award of Federal HRSA funding for emergency 
preparedness--approximately $230 thousand dollars across all of our 
hospitals.
    Areas in which we have invested include:
    1. Communication Systems (including development of alternative 
communications systems in the event of failure or overload);
    2. Disease Surveillance Efforts (including systems to facilitate 
disease reporting and access to experts; improved patient tracking 
systems; radiation detection; and tests for detection of chemical 
agents and identification of biologic agents);
    3. Protective Equipment for medical staff;
    4. Hospital facility infrastructure for lockdown and protection of 
patients and staff;
    5. Drug and Pharmaceutical supplies for protection against 
biologic, chemical and nuclear attacks;
    6. Training and Drills for our Medical personnel;
    7. Vaccination Efforts against Smallpox; and
    8. Managing the mental health needs of patients and staff during a 
crisis.
    Examples of our efforts include:
    <bullet> Completely revamping our emergency preparedness management 
infrastructure across all of our hospitals;
    <bullet> Extensively training and drilling thousands of staff under 
an all-hazards emergency command system designed to link closely with 
the command structure of Police, Fire, and EMS organizations in each 
community;
    <bullet> Retooling our hospital and supporting facilities' 
infrastructure, such as:
          <bullet>  Bolstering lockdown and security to protect 
        patients and staff and shelter-in-place until other Federal or 
        State resources arrive;
          <bullet>  Improving access control and security screening at 
        our hospitals;
          <bullet>  Improving our power supplies and storage of fossil 
        fuels for uninterrupted power in the event of a disaster;
          <bullet>  Building and equipping specialized rooms for 
        patient isolation;
          <bullet>  Installing specialized filters and ventilation 
        systems to manage biological disasters;
          <bullet>  Increasing large water volume capability through 
        water purification equipment in order to protect our water 
        supply;
    <bullet> Additional pharmaceuticals for biological, chemical and 
nuclear response;
    <bullet> Preparing a smallpox vaccination program across the 
network that established a core group of vaccinated staff committed to 
rapid post-event response;
    <bullet> Participating in and leading region-wide emergency 
preparedness efforts in organizations across eastern Massachusetts.

            PREPARING FOR THE DEMOCRATIC NATIONAL CONVENTION

    In recent months, the Boston teaching hospitals have been 
particularly focused on preparedness for the Democratic National 
Convention, the increase in visitors to Massachusetts during that time, 
and the possibility of a large-scale emergency. Our medical and 
professional staffs have been training and drilling for every type of 
emergency response, and have undertaken two full surge capacity drills 
involving all of our hospitals as well as other providers whose 
facilities would be used for offloading patients in the event of large-
scale need.

                               CONCLUSION

    Our hospitals and medical staff remain deeply committed to 
maintaining and enhancing our preparedness efforts as events dictate. 
In hospital fiscal year 2005 and beyond, Partners hospitals alone 
expect to spend approximately $3 million a year to maintain our 
response capabilities.
    Our local public health agency (Massachusetts DPH) has played an 
important role in setting up a regional planning structure for the 
State, and the Boston Public Health Commission has been an 
indispensable partner in working with the Boston teaching hospitals to 
design a dependable disaster response system that meets the needs of 
our institutions and our community.
    While we are grateful for the work they have done and the 
tremendous support we've received from Senator Kennedy and our 
Congressional delegation, greater resource support is needed to 
maintain and enhance our ability to care for the victims of chemical, 
biological and other potential terrorist attacks and to train and 
protect our own staffs to meet the demands of this post-9/11 world.
    An informal survey of the Boston area teaching hospitals determined 
that we have invested, conservatively speaking, more than $10 million 
in Emergency Preparedness since 2001. To date, those responding to the 
survey have received approximately $300 thousand ($287K) toward those 
investments.
    In the meantime, our fundamental responsibilities to train the next 
generation of physicians, to identify and implement new medical 
treatments and cures, and to care for patients continues.
    Hospitals are first responders and will play an essential role in 
any disaster. Maintaining or enhancing our ability to care for 
emergency victims will be critically dependent on having adequate 
financial resources to maintain the State of preparedness that we must 
achieve and sustain for our future.
    Again, thank you for the opportunity to testify. We look forward to 
working with you in the future.

    The Chairman. Thank you, Dr. Thibault.
    Ms. Waltman.

   SUSAN WALTMAN, SENIOR VICE PRESIDENT AND GENERAL COUNSEL, 
             GREATER NEW YORK HOSPITAL ASSOCIATION

    Ms. Waltman. Mr. Chairman, thank you very much for inviting 
us to appear here today. I am Susan Waltman. I am Senior Vice 
President and General Counsel at the Greater New York Hospital 
Association which represents the interests of over 250 
hospitals and nursing homes, primarily concentrated in the New 
York region, but located throughout New York, New Jersey, 
Connecticut, and Rhode Island. Together they provide a vast 
array of services from the very state-of-the-art tertiary care 
to the very basic primary care services, because we act as the 
safety net providers for our communities.
    Since September 11th, we have taken on an even greater role 
service, perhaps a more serious role than that, and that is as 
the front line defense, I believe front line defense, of the 
Nation's public health system and disaster response system in 
an area of the world and an area of the country that is truly 
one of the highest risk areas together with the Capital Region 
and some other cities. We undertake that role with all 
seriousness. We have put in a lot of effort to enhancing our 
preparedness in the events of September 11th, and the ensuing 
anthrax attacks which we experienced as well have made us very 
committed to expanding our imagination and planning for 
otherwise unimaginable events.
    I will try to answer the question that is asked by the 
hearing, which is, are we prepared, and I think it is answered 
in part by saying it depends. It truly depends on how, what, 
and where an event may occur, and I do appreciate that we will 
understandably always be judged in terms of our preparedness 
with the hindsight that comes from actual knowledge of the how 
and the when and the where. The other part of that answer is 
that we are very well prepared for a wide variety of types of 
events and certainly better prepared than we were 3 years ago 
and even more than 1 month ago, and I dare say that we will be 
even better prepared even so in 1 month for the Republican 
National Convention, and that is because preparedness is a 
process. I think you have heard that before today, and we have 
made it our business to try to learn from every alert, every 
advisory, and every piece of intelligence, and tried to 
internalize that in our planning.
    The subsidiary question is: Are we prepared for the major 
events that we are facing, the Republican National Convention 
and other types of activities? We have worked intensively in 
preparing for that particular event and other events as well. I 
think it is perhaps more important to focus on what we do to 
prepare for the ordinary day, the day where we do not really 
anticipate an event, because that is exactly the way September 
11th started for us, which was--it was an otherwise ordinary 
day, and particularly in New York City, we anticipate that 
something could happen at any time and at any place.
    In order to provide a brief overview of how we are 
preparing, I will go a little bit into how we were prepared 
before 9-11 and how that was demonstrated on September 11th and 
what we have done since then. I think you will see that the 
general theme is that preparedness is a process that must be 
reviewed and enhanced and practiced every single day. It is 
also, as you have recognized, an extraordinarily expensive 
process and one that I think falls very much on the backs of 
hospitals as the front line of the public health defense system 
and particularly in an area such as New York where we have that 
truly extraordinary role that we have assumed.
    Before 9-11, we spent a lot of time on preparedness. Our 
hospitals obviously had already experienced a World Trade 
Center bombing in 1993. We are host to a lot of major events 
and we experience a lot of emergencies and disasters. In 
recognition of the role and the experience, we are viewed as a 
part of the response system in New York City and always have 
been. Greater New York has a desk at the New York City Office 
of Emergency Management, which we staff as though we are a 
public agency. Whenever they activate, we are there 24-7 to 
facilitate the health care response on behalf of the city.
    We also put in place a very collaborative effort, 
interestingly, as part of the Y2K preparations, where we met 
literally every other week to test a variety of scenarios, to 
work through things that could occur, and it really did, I 
think, prove to be a very valuable series of relationships that 
we put in place so that on the morning of September 11th, our 
hospitals were very well prepared for what they faced that day. 
You may have seen the pictures in the newspapers. They created 
triage centers on the street. They cancelled elective 
procedures. They really made room. They made surge capacity for 
a large number of patients, and all the while, they were going 
through their own internal disruptions with respect to loss of 
electricity, communications, water, steam; and they also faced 
another phenomenal with large numbers, thousands of individuals 
walking from hospital to hospital looking for family members, 
and thus they created counseling centers and family centers in 
order to accommodate those needs.
    The biggest lesson we learned, we were surprised ourselves 
when we realized that there were over 7,300 different patients 
who escaped the World Trade Center area, 7,300 people jumping 
on boats, crossing bridges, and going to over 100 different 
hospitals. Now, there was not any release contemporaneously of 
a nuclear biological or chemical agent, something that people 
were concerned about, but had there been, every single one of 
those 7,300 patients going to 100 different hospitals would 
have been potentially exposed or contaminated, and we realized 
very seriously that we all had to have some basic capability in 
order to identify and contain those types of events should they 
occur again in the future, and that has really fashioned the 
way we have prepared.
    Since 9-11, we have created an Emergency Preparedness 
Coordinating Council, a very descriptive term for a group that 
gets together very regularly that involves all hospitals, all 
types of providers, local, State, and Federal agencies who come 
together very regularly to engage in collaborative planning and 
collaborative response. In our testimony, we outline the way we 
approach preparedness from this point forward. We know we are 
in a high risk area. We know something can happen any time at 
any place, and that is how we have prepared, and we have 
literally met every single time since November 2001 to work 
through a variety of different scenarios, plans, and systems 
that we can have in place. It is a three-way partnership. It is 
a partnership among providers, emergency managers, and the 
public health system that has to go on in every single 
community because we need each other. We enjoy very good 
relationships with local, State, and the Federal agencies and 
get a lot of support from HHS and the Department of Homeland 
Security.
    We pursue an all-hazards approach. We started out studying 
anthrax and smallpox for the same reasons everyone else did, 
but we took a step back and we really recognized we need an 
all-hazards approach and we all need to have good incident 
command systems because disasters can present in a variety of 
different ways, and what we really need are the tools to be 
able to respond to a variety of different scenarios.
    We have definitely placed emphasis on enhancing 
communication two ways: first, knowing exactly who to contact, 
how to contact them, and for what purposes before a disaster so 
we can do it well during a disaster and putting in place 
redundant and effective communication mechanisms. One thing 
that you have asked about is surge capacity. We developed as a 
result of our needs during 9-11 a health emergency response 
data system that is now housed on the State's internet, their 
web-based system for providers. It collects during an 
emergency. Of course, we do use it outside of an emergency, but 
it is absolutely created to gather information with respect to 
supplies, staff, and bed availability, event-related visits to 
hospitals, and the patient locator system should we need it 
again. Now, in order to practice, they collect very regular bed 
availability data, vaccine supplies, inventories of isolation 
rooms, so that we have that in advance, but it is now a very 
effective system that can be used if we have another disaster.
    We have 800 megahertz radios. We have redundant means of 
communicating with each other. We have directories, and we have 
an excellent syndromic surveillance system that the city health 
department has created which allows us to identify or allows 
them to identify, get early warnings with respect to infectious 
diseases, clusters of diseases, getting emergency department 
data, virtually seeing 75 percent of all emergency department 
visits every single day.
    You can go through those same issues that we have put in 
place, all of that, the training, the drills, the collaborative 
planning, and we are drilling down and we are enhancing them 
and working through them for preparing for the Republican 
National Convention as well. We have been involved in meetings 
and have had meetings with the Secret Service, with FEMA, with 
Homeland Security, and other local authorities to make sure all 
of these are in place, threat alert guidelines, etc., and we 
guarantee they will be in place for the Republican National 
Convention.
    The issues of expenses, we have a chart in there that 
indicates that on average, our hospitals have spent about $5.5 
million apiece on average in New York City on preparedness. We 
also indicate in that chart that the total amount they got 
during the time frame over a 2-year period was $75,000. Each 
have spent on average $5.5 million and getting $75,000 from the 
HRSA program, which we appreciate, but it barely scratches the 
surface. We also have in there that we have unbudgeted but 
needed projects that probably amount to $12 million per 
hospital.
    There are very scarce resources for this purpose. I would 
suggest that in a city such as New York City, we assume a very 
significant responsibility not just on behalf of our community, 
but on behalf of the entire country and its 800 million 
residents in New York City, the 40 million people who visit us 
every year and as the world's financial center. We really do 
hope that we are able to get more resources to enhance our 
preparedness.
    I am very appreciative of the comments that you have made 
so far, and I thank you very much.
    [The prepared statement of Ms. Waltman follows:]

                 Prepared Statement of Susan C. Waltman

    Mr. Chairman and Members of the Committee: Good morning, and thank 
you for the opportunity to appear before you today. I am Susan C. 
Waltman, Senior Vice President and General Counsel of the Greater New 
York Hospital Association, which represents the interests of over 250 
hospitals and continuing care facilities that are concentrated in the 
New York City region but that are also located throughout New York, New 
Jersey, Connecticut, and Rhode Island. All of GNYHA's members are 
either not-for-profit, charitable organizations or publicly sponsored 
institutions. Together, they provide services that range from state-of-
the-art, tertiary care to the most basic primary care, given their 
roles as safety net providers for many of the communities they serve.
    GNYHA's members also serve an additional role, one that has become 
much more important and much more demanding since September 11, 2001: 
they are the front line of the public health defense and disaster 
response systems for one of the highest risk areas in the United 
States. Unquestionably, GNYHA's members performed admirably on 
September 11 and during the subsequent anthrax attacks, a reflection of 
their years of preparedness planning. Those events and the subsequent 
and growing number of terrorist alerts and warnings have demonstrated 
how vulnerable we are as a society and how much more we need to do to 
be fully prepared.
    Are We Ready?--The principal question that today's hearing asks is: 
are we ready for future terrorist attacks? The question must be 
answered in part by saying that it depends. It depends of course on 
how, when, and where the attacks may occur, and should an event take 
place, we will always, understandably, be judged with the hindsight of 
actual knowledge as to those three factors. The other part of the 
answer is that we are very well prepared for a wide array of possible 
attacks and certainly better prepared today than we were 3 years ago or 
even 1 month ago. And, we become better prepared with each passing day 
because we have made it our business to learn from each and every 
event, alert, and piece of intelligence. Indeed, since September 11, 
GNYHA's members have been working intensively, on their own and more 
importantly, in close collaboration with each other as well as with 
local, State, and Federal agencies, to enhance their preparedness. 
Through these efforts, GNYHA's and its members have forged strong 
working relationships with each other and with key agencies at all 
levels of government, relationships that we believe are mutually 
beneficial and invaluable to our ability to protect our country and its 
communities.
    Are We Prepared for Our Nation's Major Events?--The subsidiary 
question raised by today's hearing is whether we are prepared for the 
many major events that our country holds that represent the essence of 
democracy, our freedoms, and our liberties. The answer is that we are 
devoting intensive efforts toward preparing for those specific events, 
given their significance and the large numbers of individuals who will 
gather there. But what is perhaps more important to know is what we do 
each and every day to prepare for an unplanned event, the otherwise 
ordinary day, such as was the case with September 11, at least up until 
8:46 am. It is upon those efforts that we build in order to prepare for 
events such as the Republican and Democratic National Conventions, our 
Nation's elections, as well as other major events.
    Overview of Testimony--To answer your questions in more detail, I 
will review the New York City region's preparedness from a health care 
provider perspective before September 11, how that level of 
preparedness was demonstrated on September 11, and how preparedness has 
been enhanced significantly since then. We will then provide 
information on how we are building upon those efforts to prepare 
specifically for the Republican National Convention. The consistent 
message is that preparedness is a continual process that must be 
constantly reviewed, enhanced, and practiced.
    What is also clear is that preparedness is an extraordinarily 
expensive process, one that is causing GNYHA members to expend scarce 
resources during a time of severe financial pressures without 
significant reimbursement in sight. We are hopeful that our hospitals' 
extraordinary efforts, undertaken because of both their location and 
their commitment to protecting their communities, will be recognized 
through increased funding. It is the least our country can do to ensure 
protection of the Nation's financial center and its 8 million 
residents, a region that has already been the target of two World Trade 
Center attacks and four anthrax attacks.

     I. EMERGENCY PREPAREDNESS ACTIVITIES BEFORE SEPTEMBER 11, 2001

    GNYHA and its members have long been committed to ensuring that the 
health care system is prepared to respond to a broad range of 
emergencies, disasters, and attacks that might occur in the New York 
City region. For years, area hospitals have worked on and improved upon 
their disaster plans and programs, engaged in regular drills, and 
constantly reviewed their readiness for many events. Indeed, it is the 
mission of hospitals to respond to the needs of their communities, and, 
in a ``community'' such as New York, we have recognized that any number 
of disasters and emergencies can occur. GNYHA has in turn supported its 
members' activities by providing training programs, educational 
materials, and workgroups for improving preparedness.
    Hospitals as an Integral Part of the Region's Response System--
GNYHA and its members have also worked closely with area emergency 
management and public health officials over the years and are 
considered an integral part of the region's emergency/disaster response 
system. In recognition of this role, GNYHA has had a desk at the New 
York City Office of Emergency Management's (OEM's) Emergency Operations 
Center (EOC) for many years, which GNYHA staffs during major area 
events, actual emergencies, or anticipated possible emergencies, e.g., 
heat emergencies. Grouped with local, State, and Federal health and 
environmental agencies at the EOC, GNYHA is able to address members' 
needs quickly as well as facilitate the region's health care response 
to disasters.
    The health care sector's preparations for the Y2K transition also 
helped foster regional collaboration that was helpful to the health 
care system's response on September 11. During the year 1999, GNYHA 
brought together its members and area agencies literally every other 
week for the purpose of developing communication mechanisms, 
contingency plans, and a framework for inter-hospital/inter-agency 
coordination. That process proved invaluable on September 11.

    II. THE HEALTH CARE SYSTEM'S RESPONSE TO THE WORLD TRADE CENTER 
                                DISASTER

    The Hospital's Response--On September 11, GNYHA's members 
demonstrated that they were prepared for the particular disaster that 
we all faced that day. Area hospitals instantly activated their 
disaster plans, canceled all elective procedures, freed up thousands of 
beds in anticipation of large numbers of casualties, reconfigured areas 
internally to make room for additional patients, and established triage 
centers on their streets. At the same time, many hospitals found 
themselves without functioning communication systems, while some also 
found themselves without electricity and were forced to rely upon 
emergency generators. Some also experienced drops in water pressure and 
steam and were forced to seek alternative means to sterilize equipment.
    As the day wore on, hospitals were faced with another, perhaps more 
devastating phenomenon--thousands of family members were walking from 
hospital to hospital looking for their loved ones. Hospitals therefore 
established family centers to care for and counsel those individuals 
and ultimately requested that a patient locator hotline be established. 
And, throughout the ordeal, hospitals also acted as safe havens for 
individuals fleeing from the World Trade Center and even sent employees 
into neighboring buildings to make sure the elderly were safe. In 
short, the area's hospitals rose to all of the challenges they faced as 
a result of the events of September 11.
    GNYHA's Response and Coordination on Behalf of Its Members--GNYHA, 
on behalf of its members, also played a key role on September 11. On 
the morning of the disaster, GNYHA was called by OEM within minutes of 
the initial plane crash and was requested to report to New York City's 
EOC. GNYHA was also in immediate contact with the New York State 
Department of Health, which directed hospitals to activate their 
disaster plans and expect mass casualties, a directive that GNYHA 
immediately communicated to its members by both e-mail and facsimile. 
Within moments of OEM's call to GNYHA, however, New York City's EOC, 
which was located at 7 World Trade Center, was evacuated.
    Given this situation and the scope of the disaster, GNYHA 
established a command center at its offices to assist members and to 
act as a liaison to emergency managers, public health officials, and 
the public. Within hours, OEM established a replacement EOC at the New 
York City Police Academy, and GNYHA was able to continue its role of 
facilitating its members' response efforts from there as well. For 
weeks thereafter, GNYHA staffed both its desk at OEM and its command 
center at GNYHA's offices around the clock as the area undertook its 
recovery from the attacks.
    Anticipating possible additional attacks, GNYHA also began to 
provide members with briefings on identifying and responding to 
biological and chemical events and to expand GNYHA's e-mail lists. 
Thus, by the time the first case of anthrax was reported in Florida, 
GNYHA was able to immediately transmit to members health alerts 
prepared by the New York City Department of Health and Mental Hygiene 
that contained key information needed to diagnose and treat anthrax.
    The Cost of Responding to the World Trade Center Disaster--The cost 
of responding to the World Trade Center disaster was significant for 
hospitals. GNYHA collected cost information from area hospitals and 
calculated that their total initial costs of responding (or preparing 
to respond) reached $140 million, a figure that included lost vehicles, 
such as ambulances; increased overtime, supplies, and staffing; damage 
to facilities; and stand-by costs associated with creating surge 
capacity. Hospitals also suffered additional lost revenues in excess of 
$100 million in the long term as a result of the events of September 
11, due in part to the fact that many patients did not want to venture 
into the city for care. Thus, the total cost of responding--or standing 
ready to respond--to the events of September 11 was in excess of $240 
million for New York City area hospitals alone. We are very 
appreciative that the Federal Government, with the strong support of 
Senators Clinton and Schumer, subsequently provided area hospitals with 
$140 million to reimburse them for a significant portion of these 
costs, but we believe it is important to underscore the high costs 
associated with responding to such events from a provider perspective.
    The Biggest Lesson Learned: The Need for Every Hospital to Be 
Prepared--I point out one fact about what happened on September 11 that 
has materially affected how GNYHA and its members have been preparing 
for future emergencies. Individuals caught in the disaster ran, they 
jumped on boats, and they jumped on trains and subways to escape the 
horror. As a result, over 100 hospitals in the region saw more than 
7,300 patients in their emergency departments for World Trade Center 
disaster injuries. Although there was no evidence of a release of 
biological, chemical, or radiological agents in connection with the 
attacks, many hospitals chose to decontaminate or wash down patients to 
protect both patients as well as health care workers. But if there had 
been a contemporaneous release of some agent, every one of those over 
100 hospitals would have received potentially exposed or contaminated 
patients.
    What is the lesson to be learned from this? Every single hospital 
must have some degree of capability to respond to disasters of all 
types. We cannot, as a system, depend on an orderly distribution of 
patients to one or more regional disaster centers. It is essential that 
every hospital have the ability to identify and respond, at least 
initially, to biological, chemical, and radiological events, which in 
turn means that significant resources must be devoted to ensuring wide-
spread readiness.

   III. POST-SEPTEMBER 11 PREPAREDNESS--FOCUS ON INTENSIVE REGIONAL 
                             COLLABORATION

    Establishment of Emergency Preparedness Coordinating Council--In 
recognition of the need for broad-based preparedness, GNYHA and its 
members have focused intensively on regional collaboration and planning 
since September 11. To this end, GNYHA created its Emergency 
Preparedness Coordinating Council in November 2001. The Council brings 
together representatives of GNYHA members, other provider groups, and 
local, State, and Federal public health, emergency management, and law 
enforcement agencies for the purposes of promoting collaboration and 
communication across the region and providing a more integrated 
response to any future attacks or events. Through this collaborative 
planning process, the Council is also facilitating readiness through 
the sharing of expertise, experiences, templates, and other 
information.
    Guiding Principles of Preparedness--As the Council has moved 
forward, it has subscribed to the following principles:
    <bullet>  High-Risk Area--The New York City region is a high-risk 
area for emergencies in general and terrorist attacks in particular. 
Therefore, providers must anticipate the possibility that an event 
could occur at any time.
    <bullet>  Strong Three-Way Partnership--Preparedness in the health 
care sector requires a strong, continuous three-way partnership among 
providers, health/public health agencies, and emergency management and 
public security agencies.
    <bullet>  All-Hazards Approach--Provider preparedness should be 
undertaken using an all-hazards approach.
    <bullet>  Incident Command Systems--Providers should implement an 
incident command system in order to have a common framework for 
communicating internally and externally during disasters.
    <bullet>  Enhancing Communications--Providers must develop 
effective mechanisms for communicating. This involves knowing in 
advance of a disaster with whom, how, and for what purposes to 
communicate during disasters. It also means developing effective and 
redundant means of communicating during disasters.
    <bullet>  Understanding Each Others' Systems--We must ensure that 
we understand each other's systems, roles, and responsibilities.
    <bullet>  Planning and Drilling Together Regularly--In order to 
further the foregoing goals, it is essential that we plan and drill 
together regularly.
    <bullet>  Training and Education--Knowledge is the key to ensuring 
the rapid identification, treatment, and containment of all types of 
terrorist agents and naturally occurring events.
    The following summarizes how we have moved to implement the 
foregoing principles.
    <bullet> Operating Within a High-Risk Area--In recognition of the 
high-risk area in which we are located, GNYHA and its members 
appreciate that an event could occur at any time and at any place and 
that we must enhance our preparedness with all due speed and 
deliberation. As a result, since the Council was established in 
November 2001, it has met almost weekly through either full Council 
meetings, workgroup meetings, or membership briefings on topics 
identified through the Council. The Council has also become the 
framework for communicating rapidly and effectively regarding 
emergencies, alerts, and protocols.
    <bullet> Development of Strong Three-Way Partnership--We have 
undertaken extraordinary efforts to work collaboratively and in a 
coordinated manner with the public health, emergency management, and 
public security agencies who will need our services and whose services 
we will need. Our preparedness and any future responses will be 
superior for that effort.
    From a local standpoint, we work closely with New York City's 
Office of Emergency Management, Department of Health and Mental Hygiene 
(NYCDOHMH), Fire Department, and Police Department. Because we prepare 
as a region, we have established similar working relationships with the 
public health and emergency management agencies in the counties 
surrounding New York City.
    On the State level, we have excellent relationships with the New 
York State Department of Health (NYSDOH), Office of Public Security, 
and Emergency Management Office, and have incorporated New Jersey's 
Department of Health and Senior Services and emergency management 
agencies in our process as well.
    On the Federal level, we are fortunate to have not only strong 
relationships with key Federal agencies, but truly extraordinary 
individuals assigned to work with us. That is the case with respect to 
both the Department of Health and Human Services and the Department of 
Homeland Security, through its Federal Emergency Management Agency 
(FEMA), both of which support and enhance our activities on a regular 
basis. Indeed, our communications with and support from both agencies 
are models for public-private partnerships.
    <bullet> Developing an All-Hazards Framework and Implementing 
Incident Command Systems--GNYHA and its members have placed a strong 
emphasis on developing and implementing an all-hazards response 
framework on the theory that one can never anticipate precisely how or 
when an event might occur and indeed an event might present with 
multiple features. We therefore believe that planning under an all-
hazards approach will make us better able to respond to multiple 
variations of possible attacks and natural events.
    As a result, GNYHA and its members have devoted extensive efforts 
toward implementing strong incident command systems, which can be 
activated in response to a variety of emergencies. Using the incident 
command approach also permits hospitals to employ a common response 
framework with similar roles and responsibilities across organizations. 
Most hospital incident command systems are modeled after the Hospital 
Emergency Incident Command System or HEICS, and thus, GNYHA has offered 
numerous training sessions on implementing HEICS. Special sessions have 
been offered for individuals working on the evening, night, and weekend 
shifts in order to ensure the availability of staff familiar with 
incident command principles during all hours of operation. Many of 
these training modules are available on the Emergency Preparedness 
Resource Center located on GNYHA's Web site at www.gnyha.org/eprc so 
that members can download and use them in their own institutions.
    <bullet> Enhancing and Ensuring Effective Communications--We have 
placed an extraordinary emphasis on communications because the ability 
to communicate with one's partners during an emergency is key to an 
effective and rapid response. We have tackled this issue from two 
perspectives. First, we have focused on the issue of ensuring that we 
know with whom, how, and for what purposes to communicate during a 
disaster. Second, we have focused on ensuring that we have rapid, 
effective, and redundant means to communicate during a disaster. The 
following outlines some of the specific systems and mechanisms put in 
place to address this critical component of preparedness:
          <bullet>  GNYHA Emergency Contact Directory--To improve 
        communications during an emergency, GNYHA has developed a 
        directory of key contact information regarding local, State, 
        and Federal agencies. GNYHA has also created a member directory 
        that contains extensive contact information about members' 
        emergency operations centers, chairs of disaster committees, 
        and other key contacts in the event of emergencies. The 
        directory also contains basic information about each members' 
        capabilities--for example, trauma center designation, 
        decontamination capabilities, and the number of negative 
        pressure isolation rooms. Members are encouraged to update 
        their information regularly, and revised directories are made 
        available quarterly or as needed. The directory proved to be 
        invaluable during the August 2003 Blackout when communication 
        systems were disrupted throughout the region.
          <bullet>  Health Emergency Response Data System--NYSDOH, 
        working collaboratively with the Council, has developed an 
        emergency data collection system called the Health Emergency 
        Response Data System or HERDS. The system, which is an 
        internet-based system located on a secure area of NYSDOH's 
        Health Provider Network, is designed to be activated during an 
        emergency to collect information that may be needed to assess 
        and respond to the emergency and to enhance and protect surge 
        capacity. Although the system is located on NYSDOH's Health 
        Provider Network, local public health and emergency management 
        agencies also have access to the system so that they can better 
        respond to any emergencies affecting their region. The 
        categories of data that can be collected include the following:
                  <bullet>  Bed, staffing, and supply needs and 
                availability;
                  <bullet>  Event-related data, including the number of 
                patients seen and waiting to be seen, admissions, 
                unidentified patients, and mortalities; and
                  <bullet>  Information required to establish a patient 
                locator system, if needed.
    NYSDOH also uses the system to collect weekly bed availability data 
from hospitals, to survey them on such information as vaccine supplies 
and negative pressure isolation rooms, and to communicate regarding 
preparations for events such as possible weather emergencies. We have 
also held a number of drills designed to test both the system itself 
and the ability of hospitals to use it successfully. Work-arounds in 
anticipation of possible disruptions in the system have also been 
established.
          <bullet>  Ensuring Rapid Communications--GNYHA provides 
        extensive information to its members through immediate 
        distribution via e-mail of health and security-related alerts, 
        advisories, and directives. To ensure broad distribution of the 
        alerts, GNYHA sends the materials to many different types of 
        individuals in each member institution such as chairs of 
        disaster committees, infection control directors, directors of 
        emergency departments, and directors of security.
          <bullet>  Assessing Communications Risks and Minimizing 
        Disruptions--GNYHA has prepared a matrix of communication 
        options that describes each option's functionality and 
        limitations. In addition, GNYHA has prepared a checklist of 
        considerations regarding possible disruptions to communication 
        systems in order to assist members plan for and thus avoid or 
        work around possible disruptions to their systems. Finally, the 
        Council has discussed how to undertake effective risk 
        assessments to identify vulnerabilities and solutions for 
        avoiding disruptions.
          <bullet> Building in Redundancies--Although a vulnerability 
        assessment might minimize disruptions in communication systems, 
        GNYHA and its members have sought to build in as many 
        redundancies in communication systems as possible. This is 
        evidenced by the multiple ways that members can be reached as 
        set forth in GNYHA's emergency contact directory mentioned 
        above. In addition, GNYHA members have established and rely on 
        the following systems:
                  <bullet>  800 Megahertz Radios--GNYHA worked with New 
                York City OEM to establish a health care channel on the 
                city's 800 Megahertz radio system. This channel permits 
                New York City health care facilities to communicate 
                among each other and with OEM during emergencies. The 
                city conducts roll calls on this system on a daily 
                basis. This system was used extensively during the 2003 
                Blackout to communicate member needs for generators, 
                fuel, and other supplies.
                  <bullet>  Two-way Emergency Response Radios--GNYHA 
                has also developed a two-way radio emergency response 
                network to enable GNYHA to communicate with its members 
                both inside and outside of New York City.
          <bullet>  GNYHA Web Site--GNYHA provides extensive 
        information on the issue of preparedness through its Emergency 
        Preparedness Resource Center located on its Web site at 
        www.gnyha.org/eprc. This information is updated regularly and 
        is made available on the public area of GNYHA's Web site so 
        that the public and providers can have access to the 
        information day and night. In order to address the concerns of 
        the community, the Web site includes a section with materials 
        on preparing for and responding to disasters from a community 
        perspective.
          <bullet>  Syndromic Surveillance--GNYHA has supported the 
        efforts of NYCDOHMH as it has built its impressive syndromic 
        surveillance system, which is designed to identify clusters of 
        suspicious symptoms, such as gastrointestinal or respiratory 
        problems, that might signal a bioterrorism event or other 
        serious public health problem. Currently, NYCDOHMH collects 
        daily emergency department logs from area hospitals, emergency 
        medical services call data, certain employee absenteeism rates, 
        and local pharmacy purchases, all toward the goal of 
        identifying and containing possible infectious disease 
        outbreaks or other events as quickly as possible. Should a 
        cluster be identified, NYCDOHMH would investigate and notify 
        area emergency departments and infection control directors 
        accordingly.
    <bullet> Understanding Each Other's Roles, Resources, and 
Responsibilities: Planning and Drilling Together Regularly--
Understanding each other's roles, resources, and responsibilities is 
essential to a well-coordinated response to an emergency, and thus, 
GNYHA and its members have worked hard to understand precisely what 
each hospital's and agency's capabilities, planned responses, and 
resources might be under a variety of scenarios. This is accomplished 
in great part through our collaborative planning process and the 
undertaking of many drills and exercises, all designed to assess the 
strengths and weaknesses of the response system and then to of course 
address any identified gaps. Some of the more notable examples of these 
efforts are the following:
          <bullet>  Preparing for Bioterrorism--Since its inception, 
        the Council has focused its discussions on a number of 
        bioterrorism agents, spending a significant amount of time on 
        identifying, treating, and containing smallpox in particular. 
        In August 2002, however, a small hospital in Brooklyn 
        experienced a ``smallpox scare,'' which raised useful questions 
        regarding various elements of responding to such a situation. 
        As a result, NYCDOHMH and NYSDOH, working collaboratively with 
        the Council, developed extensive guidelines for managing a 
        suspect smallpox case. While the guidelines focus on smallpox, 
        many aspects of the guidelines apply equally to managing other 
        infectious diseases as well. The guidelines are available on 
        GNYHA's Web site at www.gnyha.org/eprc.
          <bullet>  SARS Planning and Response--The work that has been 
        done to prepare for a possible bioterrorism attack proved to be 
        helpful to the health care system's ability to respond quickly 
        to the threat of Severe Acute Respiratory Syndrome or SARS in 
        2003. The Centers for Disease Control and Prevention (CDC) 
        immediately transmitted health alerts to State and local health 
        departments, which in turn immediately distributed the alerts 
        to providers. In order to ensure broad distribution of the 
        alerts within its members, GNYHA distributed them to its many 
        e-mail lists. GNYHA also held briefings on SARS, which were 
        given by NYSDOH and NYCDOHMH; held meetings of its Council to 
        discuss the development of SARS guidelines and surge capacity 
        plans; and created a SARS page on its Web site.
          <bullet>  Development of Threat Alert Guidelines--To assist 
        members work within and respond to changes in the Federal 
        color-coded threat alert levels, GNYHA worked with its Council, 
        NYSDOH, and NYCDOHMH to develop Threat Alert Guidelines for 
        health care providers. The Guidelines provide a checklist of 
        measures providers should take by alert level. Each level is 
        divided into a number of categories of measures, which include 
        such issues as overall emergency planning, communications, 
        security, staffing, and supplies. The Guidelines are 
        distributed each time a planned event or possible anticipated 
        emergency arises.
          <bullet>  2003 Blackout Response--The 2003 Blackout tested us 
        all and demonstrated the gaps that we still needed to address. 
        But it also highlighted what worked well: our emphasis on 
        redundant communications paid off; our collection of emergency 
        contact information regarding members helped us reach every 
        member; our 800 Megahertz radio system helped address emergency 
        generator and fuel requirements; the HERDS system collected 
        information about available beds in anticipation of the 
        possible evacuation of a facility; and most importantly, our 
        strong three-way partnership with the health and emergency 
        management agencies proved invaluable. Following the Blackout, 
        GNYHA prepared checklists outlining considerations for 
        preparing for future disruptions in power and communications 
        and held a debriefing session attended by members as well as 
        local, State, and Federal agencies.
          <bullet>  Undertaking Drills and Exercises--Although we meet 
        and work together regularly, we find that drills and exercises 
        are an excellent way to test our systems and to identify gaps. 
        We thus have placed a heavy emphasis on conducting table-top 
        exercises, communication drills, and other exercises. We have 
        picked up the pace of these drills and exercises as we unroll 
        more components of our systems and have more to test.
    <bullet> Training and Education--The Council has placed heavy 
emphasis on training and education. Thus, GNYHA has offered over 65 
briefings and training sessions to its members and key agencies since 
September 11. The topics have included programs on various biological, 
chemical, and radiological events; preparing for and responding to 
power outages and other disruptions; undertaking evacuations; 
implementing incident command systems; communication systems; and 
facility security. Recognizing that training is a continual process, we 
often revisit issues already presented. Upcoming programs include:
          <bullet>  Briefing on blast injuries that will be given by 
        the CDC's National Center for Injury Prevention and Control on 
        August 4.
          <bullet>  Briefing on utilizing volunteers during 
        emergencies, which is tentatively scheduled for August 9.
          <bullet>  Briefing on Republican National Convention 
        planning, which is scheduled for August 17 and which will be 
        presented by multiple local, State, and Federal agencies.

          IV. PREPARING FOR THE REPUBLICAN NATIONAL CONVENTION

    The foregoing outlines our preparedness for both naturally 
occurring events as well as possible terrorist attacks, which we assume 
can occur at any time and at any place in the New York City region. 
However, it also provides detailed information about the planning and 
preparedness that has already taken place and upon which we build to 
prepare for major planned events, such as the upcoming Republican 
National Convention.
    The health care sector's preparations for the RNC have followed the 
same collaborative process outlined above. GNYHA, on behalf of its 
members, has been involved in the preparations being undertaken by the 
local, State, and Federal Governments, including participation in the 
table-top exercise held by the Secret Service and the New York Police 
Department in April 2004; participation in numerous meetings held by 
NYCDOHMH regarding its preparations; and coordination with New York 
City OEM. GNYHA also held an initial briefing for providers on June 18 
that permitted local, State, and Federal agencies, including the Secret 
Service, FEMA, and HHS to address their preparations. Another similar 
briefing is scheduled for August 17.
    At the initial RNC provider briefing, NYSDOH and NYCDOHMH reviewed 
guidelines that outline what actions the two agencies are taking as 
well as actions providers should take in order to ensure the 
preparedness of the health care system for the RNC. The following 
outlines the guidelines provided:
    <bullet> Activation of New York City's Emergency Operations Center 
and Multi-Agency Command Center: Both New York City's Emergency 
Operations Center and a Multi-Agency Command Center that will be 
established by the New York Police Department will be fully activated 
round-the-clock before, during, and after the RNC. GNYHA, NYSDOH, 
NYCDOHMH, and other health-related agencies will be staffing one or 
both of these locations in order to provide assistance and to 
coordinate any needed responses by the health care system. In addition, 
key agencies as well as GNYHA will establish their own command centers 
and/or operations plans for the period of the RNC.
    <bullet> Review and Activation of Hospital Disaster Plans--Although 
NYSDOH has taken the position that it will not request hospitals to 
activate their disaster plans unless an incident occurs, both NYSDOH 
and NYCDOHMH advise hospitals to review their disaster plans and to 
ensure that staff understands the hospital's incident command system 
and their own individual roles and responsibilities.
    <bullet> Review of Threat Alert Guidelines--NYSDOH and NYCDOHMH 
request hospitals to review the Threat Alert Guidelines developed by 
GNYHA, NYSDOH, and NYCDOHMH as guidance for their internal planning 
with a specific focus on the activities that should be undertaken for 
Level Orange.
    <bullet> Activation of HERDS--NYSDOH will activate its Health 
Emergency Response Data System prior to the RNC. NYSDOH will request 
hospitals to input daily bed availability by type of bed, emergency 
department activity, and the roster of their contact persons for each 
shift throughout the RNC. NYSDOH will be ready to request and provide 
more information should the need arise. Hospitals are also advised to 
make certain that several people familiar with data entry into the 
system are on duty during all shifts.
    <bullet> Availability of Staff--Key administrative staff are 
advised to be available onsite at the hospital during the RNC. In 
addition, most key departments in hospitals have limited vacation and 
other time off. Hospitals are also advised to review staffing and to 
ensure their ability to call in extra staff if needed. In order to 
ensure the availability of staff, hospitals are advised to recommend to 
their employees that they have their own family emergency preparedness 
plans in place so that they will feel comfortable reporting to and 
staying at work during an emergency.
    <bullet> Communications--The guidelines advise hospitals how NYSDOH 
and NYCDOHMH plan to communicate with them during the RNC and, in 
particular, in the event of an emergency; that hospitals should ensure 
that they constantly monitor those means; and that each hospital should 
provide each agency with accurate contact information for the hospital. 
In general, communications will take place using the 800 Megahertz 
radios, HERDS, the Health Alert Network, e-mail and facsimile, and 
regular conference calls. Hospitals are also advised to review the 
checklist for preparing for disruptions in communications that GNYHA 
prepared as a result of the 2003 Blackout. Finally, hospitals are 
advised to post key agency contact information in their emergency 
departments and other areas throughout the hospital. NYSDOH will be 
advising health departments in counties outside of New York City to 
maintain daily contact with hospitals in their counties during the RNC.
    <bullet> Planning for Disruptions in Power--Hospitals are advised 
to review the checklist for preparing for disruptions in power that 
GNYHA prepared as a result of the 2003 Blackout. In particular, 
hospitals are advised to test their generators, ensure a sufficient 
supply of fuel for the generators, and have emergency contact 
information for their fuel vendors.
    <bullet> Emergency Department Preparedness--NYSDOH and NYCDOHMH 
have provided specific guidelines for emergency department readiness 
that include anticipated types of cases and symptoms (including their 
relative likelihood), recommended supplies, and data that should be 
collected by emergency department staff. Emergency department triage 
and medical staff are being advised to obtain information on whether 
patients presenting right before, during, and after the RNC with 
certain symptoms are RNC attendees, demonstrators, or in any way 
associated with RNC-related events. Unexpected clusters of illness 
should be reported to NYCDOHMH. Staff are also advised to drill on 
various protocols that might be utilized should an event occur.
    <bullet> General Infection Control Preparedness--NYSDOH and 
NYCDOHMH advise hospitals to re-enforce respiratory hygiene measures 
among clinical and triage staff in emergency departments and other 
settings. They also advise that fever and rash as well as fever and 
respiratory symptom triage protocols should be reinforced to avoid the 
spread of infectious diseases.
    <bullet> Syndromic Surveillance--NYCDOHMH will of course be 
monitoring its syndromic surveillance system, which, as indicated 
previously, collects extensive information from emergency departments, 
EMS, employee absenteeism data, and pharmacy sales in order to identify 
particular clusters of suspicious symptoms. For the purposes of the 
RNC, the system will be monitored with a lower threshold for responding 
to suspicious symptoms than under normal circumstances. NYCDOHMH 
advises hospitals participating in the system to be prepared to respond 
in the event that a ``signal'' is detected suggesting a potential 
illness cluster. In that event, NYCDOHMH will notify the infection 
control and emergency department contacts in the hospitals and more 
extensive information will be requested. Hospitals may also be 
requested to undertake more extensive screening, testing, chart 
reviews, and other activities. NYCDOHMH will also be prepared to visit 
hospitals to assist in making diagnoses, collect data, and monitor 
aspects of the event.
    <bullet> Final Alerts and Advisories--NYSDOH and NYCDOHMH plan on 
sending Health Alerts to providers right before the RNC in order to 
reinforce the foregoing advice and any new information. GNYHA will in 
turn distribute the Alerts to its broad list of hospital staff GNYHA 
will also be reinforcing the multiple ways members can reach GNYHA at 
OEM, the MACC, and at GNYHA both during and outside regular business 
hours.

                      V. THE PRICE OF PREPAREDNESS

    Quite clearly, extensive efforts are in place to be prepared for a 
vast array of events, both planned and unplanned, in the New York City 
region. The collaborative efforts that have taken place through GNYHA's 
Emergency Preparedness Coordinating Council are intended to enhance 
preparedness in the most efficient, efficacious, and expeditious way.
    The Cost of Preparedness--However, the price of preparedness is 
still high. In late 2002, GNYHA undertook a survey of its members' 
actual and anticipated expenditures associated with their preparedness 
activities. The survey requested information about their incremental 
expenditures over and above what they would have spent on preparedness 
if the World Trade Center attack had not occurred, and excluding any 
costs incurred in the immediate response to the September 11 attacks. 
The survey requested cost information broken down into three 
categories:
    <bullet> Expenditures undertaken during the period September 11, 
2001, through December 31, 2002;
    <bullet> Expenditures planned for the year 2003; and
    <bullet> Expenditures that would be undertaken in 2003 if 
additional funds were available.
    Fifty-four hospitals responded representing 51 percent of the 
institutions and 61 percent of the total operating expenses of the 
potential sample. The survey indicated that teaching hospitals had 
invested more heavily in preparedness than non-teaching institutions, a 
finding that is not surprising given that teaching hospitals are more 
likely to serve as regional trauma centers and burn centers, possess 
advanced disease surveillance and analytical laboratory capabilities, 
and tend to have a broader scope of services than community hospitals 
in general. In addition, hospitals in New York City not surprisingly 
spent more on average than did hospitals outside of the city, 
presumably because New York City hospitals place a higher priority on 
preparedness and have imposed a more aggressive timetable for 
implementation due to the higher risk of an attack in New York City.
    <bullet> Total Expenditures For Preparedness By Downstate 
Hospitals--In order to predict regional and Statewide expenditures for 
preparedness and based upon the observation that teaching hospitals 
have made greater investments in these activities, GNYHA extrapolated 
the survey findings using average expenditures per staffed bed 
according to hospitals' teaching status to all hospitals in the New 
York City metropolitan region as well as to all hospitals Statewide. 
Based on this extrapolation process, GNYHA determined that hospitals in 
the Downstate region alone:
    <bullet> Spent $149.7 million on incremental preparedness 
activities between 9/11/01 and 12/31/02;
    <bullet> Planned to spend an additional $183.6 million on 
incremental preparedness activities during 2003; and
    <bullet> Identified additional needed but unbudgeted preparedness 
projects with projected costs totaling $788.6 million.
    See Figure 1, which depicts the results of the extrapolation 
process and which appears in the supplement to this testimony.
    Average Expenditures For Preparedness Per NYC Hospital--With 
respect to individual hospital expenditures for preparedness, hospitals 
in New York City:
    <bullet> Spent on average nearly $2.5 million per hospital during 
the period from 9/11/01 to 12/31/02;
    <bullet> Planned to spend on average an additional $2.9 million per 
hospital during 2003; and
    <bullet> Identified additional needed but unbudgeted projects with 
projected costs totaling on average $12 million per hospital.
    See Figure 2, which demonstrates the average expenditures per New 
York City hospital and which appears in the supplement to this 
testimony.
    Although the costs identified through GNYHA's survey are 
significant, they do not capture the actual cost to our members in 
terms of the hours upon hours of administrative, clinical, and other 
personnel time that have been devoted to and will continue to be 
devoted to training, development of protocols, and reviews that will be 
undertaken each time a new threat alert or piece of intelligence is 
transmitted. In short, the price of preparedness is great and on-going, 
and there is no indication that providers in the New York City region 
will be able to stand down in terms of their level of preparedness.
    Funding for Preparedness--New York State hospitals have received 
only relatively small amounts of funding toward their preparedness 
activities. While GNYHA and its members are appreciative of the 
bioterrorism funding that has been made available and continues to be 
made available through the Health Resources and Services Administration 
(HRSA), the amounts that filter down to individual hospitals do not 
begin to address the expenditures that are being made by the New York 
City region's hospitals.
    The following details the amounts that have been made available or 
will be available to hospitals in New York City through the HRSA 
Bioterrorism program to date:
    <bullet> FY2002: $40,000 per hospital;
    <bullet> FY2003: $85,000 per hospital plus $4.2 million total for 
all New York City hospitals for special projects; and
    <bullet> FY2004: amounts per hospital not yet determined, but total 
amount available is similar to FY2003.
    See Figure 3, which demonstrates the cost of preparedness per New 
York City hospital juxtaposed with the amount of HRSA funding made 
available to date. Figure 3 appears in the supplement to this 
testimony.
    The Poor Financial Condition of New York State Hospitals--The need 
to increase and maintain preparedness and in turn to increase 
expenditures for this purpose could not come at a worse time. Hospitals 
in New York State suffer from the worst financial conditions of 
hospitals anywhere in the country and have experienced 5 years of 
bottom-line losses. This situation is rooted in the following factors:
    <bullet> New York's previously regulated all-payer rate-setting 
system, which squeezed any surpluses out of hospitals;
    <bullet> Declining revenues resulting from private payer 
negotiations and their practices of delaying and denying payments;
    <bullet> The mission of caring for the State's three million 
uninsured residents; and
    <bullet> The imposition of unprecedented Medicare cuts, beginning 
with the Federal Balanced Budget Act of 1997, continuing with 
reductions in payments to teaching hospitals, and now pending are cuts 
in the New York City area wage index, which, if implemented, will 
reduce Medicare payments to area hospitals by over $100 million 
annually.
    Clearly, the financial condition facing New York's hospitals 
impedes their ability to undertake the activities that are essential to 
both fulfilling their basic mission of providing health care and their 
new role as the front line of the public health defense and emergency 
response systems.
    Securing the Necessary Resources to Ensure Public Health and Health 
System Preparedness--It is essential that the New York City region's 
hospitals obtain the resources they need to continue to enhance and 
maintain their preparedness for the protection of all of us. We 
therefore request that Congress authorize additional funding for these 
purposes. Our hospitals take on additional responsibilities in light of 
their location in the New York City region due to the region's role as 
the Nation's financial center, its many national landmarks, and the 
view of the world that New York City holds a little bit of everything 
that is good about America. Our hospitals take on these additional 
responsibilities for the benefit of the country at large, and they in 
turn deserve to be supported in their efforts.
    I thank you for the opportunity to appear before you today and am 
of course available to answer any questions you may have.

                          Supplemental Tables

 Figure 1.--Preparedness Expenditures by Time Period Extrapolated to New
   York City Region and New York State According to Teaching Hospital
                 Status and Expenditures per Staffed Bed
------------------------------------------------------------------------
                                                      GNYHA     New York
                                          Total     Downstate    State
                                       Respondents  Hospitals  Hospitals
                                          ($ in       ($ in      ($ in
                                        millions)   millions)  millions)
------------------------------------------------------------------------
Spent--(9/11/01-12/31/02)............        90.2       149.7      218.3
Planned Expenditures--(1/1/03-12/31/        110.5       183.6      269.3
 03).................................
Needed but Unbudgeted--Projects (1/1/       468.6       788.6    1,215.4
 03-12/31/03)........................
------------------------------------------------------------------------

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


    Figure 3.--Cost of and Funding for Preparedness Per NYC Hospital
------------------------------------------------------------------------
                                        Average          Funding Made
                                   Expenditures Per      Available Per
                                       Hospital            Hospital
------------------------------------------------------------------------
Actual--9/11/01-12/31/02........  $2.5 million......  0
Actual/Projected--1/1/03-12/31/   $2.9 million......  $75,000 (HRSA
 03.                                                   FY2002 and
                                                       expedited portion
                                                       of FY2003)
------------------------------------------------------------------------
Source: GNYHA survey of incremental expenditures for preparedness over
  and above what each hospital would have spent but for the World Trade
  Center disaster.
Needed but unbudgeted for 2003: $12 million per hospital.
HRSA funding available during 2004: $50,000 per hospital plus additional
  funding ($4.2 million total for all NYC hospitals) for special
  projects

    The Chairman. Thank you, Ms. Waltman.
    Dr. Martinez.

       RICARDO MARTINEZ, M.D., SUPER BOWL SENIOR MEDICAL 
        ADVISOR, NATIONAL FOOTBALL LEAGUE CHAIRMAN AND 
         CHIEF EXECUTIVE OFFICER, MEDICAL SPORTS GROUP

    Dr. Martinez. Mr. Chairman, Thank you for the opportunity 
to speak to you today on this important issue. I am Dr. Ricardo 
Martinez, and I am a board-certified emergency physician, but I 
am also the senior medical consultant for the National Football 
League on emergency and disaster planning and response, and 
with me today is Mr. Milt Ahlerich, who is vice president of 
security for the National Football League.
    The NFL places a premium on fan safety and security, and 
during the professional football season, the league maintains a 
national communication center to coordinate and integrate as 
many as 16 large-scale events on any given weekend. Each 
averages about 65,000 personnel and fans. Now, each event alone 
represents the population of a small city and the expected 
challenges and incidents that accompany that.
    In the aftermath of September 11th, the Commissioner's 
office began to identify nationally the best practices in 
security and created an advisory board of experts in game 
operations, security, and emergency planning. As a result, they 
created a best practices program, and that was recommended to 
all NFL teams through a series of conferences and on-site 
reviews of each facility by an independent security firm and 
training seminaries for team security. That program has grown 
over the years, and it is described in much greater detail in 
the submitted testimony, but in 2003, the NFL provided staff 
from each team with in-depth presentations on pregame and game 
day security practices and techniques, basic emergency 
procedures, and the trainer course to train local staff in the 
facilities.
    The NFL firmly believes that complacency can erode well 
thought out plans and therefore it is essential to continue to 
review, upgrade, and assist the member clubs with these issues. 
The NFL also subscribes to the belief that security, medical, 
and operations must be integrated, work in an integrated 
fashion to maximize their effectiveness and to strengthen and 
coordinate the response to an emergency. All front line staff 
are the first link of the chain of survival for managing all 
kinds of incidents.
    The best practices program was, therefore, expanded this 
year to include training on emergency disaster planning and 
response, the incident command system, special situations such 
as biological and hazardous materials, public health threats, 
and issues such as full and partial evacuation procedures. As 
we speak here today, this program is being used to train staff 
around the country and will continue to evolve with experience.
    Now, the Super Bowl provides an opportunity to put these 
principles into practice in a new city each year. The Super 
Bowl has a huge impact on the local community where it is 
played. While challenging, it also offers the potential to 
increase the local emergency preparedness capacity to both 
routine emergencies of everyday day life and to the new 
emerging threats. The planning process can provide a forum for 
improved communications, strengthening relationships, helping 
overcome organizational and political barriers, and for 
fostering of innovative partnerships. The NFL works in 
partnership with all levels of government, civic, and private 
organizations to share its expertise and to create an 
environment that fosters team work and integration.
    Starting up to a year in advance, the NFL ensures that 
venue management, security, emergency medical services, local 
hospitals, police, fire, and emergency management, public 
health, civic organizations, businesses leaders, and the 
political community come together early, early in the planning 
discussion. These groups are also brought together with 
architectural and transportation planners, an issue you raised, 
to prepare emergency access routes, staging, triage and 
treatment areas, decontamination zones, signage and other 
needed infrastructure. We love fire for decontamination because 
they have hoses and water, and we love them.
    Planning and cooperation are not enough. The NFL encourages 
broad-based drills and training exercises, and we integrate 
emergency response information through staff handbooks, 
orientation programs, and information tags they hang around 
their neck. For game day operations, we have an integrated 
command post that facilitates information sharing and 
coordination across a host of agencies and disciplines.
    Now, does all of this make a difference? Well, we called 
some of the recent Super Bowl host cities after September 11th, 
and here are some of the comments they made: A new recognition 
of health care as a first responder, a stronger relationship 
between public safety and the health community, a more 
coordinated detection of and response to hazardous and 
biological materials, better cooperation between hospitals for 
surveillance and data collection, new models for responding to 
major emergencies, new training programs at local medical 
centers, and the transfer of lessons learned at this city level 
to statewide planning.
    For the last 2 years, the Super Bowl has shown patrons of a 
stadium an evacuation video, an idea that was started by the 
San Francisco 49ers. The Commissioner's office is now producing 
a localized version that would be provided to each team for use 
at their own facilities.
    The NFL recognizes that our success lies in the strength of 
the public-private partnerships and wishes to thank the many 
Federal, State, and local partners who each day dedicate time, 
energy, hard work, and resources to strengthen America's 
capabilities. Thank you for the opportunity to present a brief 
overview of some of the NFL's activities, and I am happy to 
answer your questions.
    Thank you.
    [The prepared statement of Dr. Martinez follows:]

              Prepared Statement of Ricardo Martinez, M.D.

    Mr. Chairman, and Members of the Committee, thank you for the 
opportunity to speak to you today on this very important issue. I am 
Dr. Ricardo Martinez, a board-certified emergency physician and a 
senior medical consultant to the National Football League on emergency 
and disaster planning and response. I have attached to my statement a 
brief CV that more fully describes my background and prior public 
service. I am joined today by Mr. Milt Ahlerich, Vice-President of 
Security for the National Football League.
    The National Football League places a premium on fan safety and 
security. During the professional football season, the National 
Football League maintains a national communications center to 
coordinate and integrate the various events that take place around the 
country on game days. On any given weekend, as many as 16 large-scale 
events may take place, involving an average of 65,000 fans and 
personnel. In many ways, each event alone represents the population of 
a small city and the expected challenges and incidents that accompany 
such a population.
    In the aftermath of September 11th, the Commissioner's office, 
under the direction of Mr. Ahlerich and his staff, began to identify 
the best security practices in stadiums from around the country and 
created an advisory board of professionals with expertise in facilities 
and game operations, security, and emergency planning. As a result, the 
NFL created a Best Practices program that was recommended to all NFL 
Teams through a series of conferences around the country. The NFL 
followed up with onsite reviews of each facility by an independent 
security firm that observed and reported the level of compliance with 
the NFL's Best Practices and made recommendations to improve. In the 
summer of 2002, the NFL held a training seminar for team security 
officials on the best practices and offered advice on steps clubs could 
take to enhance security without unduly inconveniencing fans.
    In 2003, the NFL conducted a training program for up to five people 
from each team, and provided them with in-depth presentations on pre-
game and game day security, venue inspections, vehicle inspection, 
access and credentialing, proper screening procedures and techniques, 
basic emergency procedures and much more. In addition, ``train-the-
trainer'' courses were provided so that local facility staff could be 
trained on the basics of this important information. The NFL firmly 
believes that complacency can erode well thought-out plans and 
procedures and therefore it is essential to continue to review, upgrade 
and assist the NFL member clubs in maintaining their high levels of 
compliance with the Best Practices.
    The NFL subscribes to the firm belief that security, medical and 
venue operations must work in an integrated fashion to maximize the 
effectiveness of event operations and to strengthen and coordinate the 
response to an emergency. More important perhaps is the recognition 
that front line staff, be it ushers, parking attendants or 
concessioners, are the first contact point in the ``chain of survival'' 
for medical emergencies and for managing security and operations 
incidents.
    Therefore, this year the Commissioner's office updated and expanded 
the Best Practices program to include information on emergency medical 
and disaster planning and response. Subject matter included in-depth 
discussion of the planning, prevention, response and recovery phases of 
emergencies and disasters; an overview of the Incident Command System 
used for disaster response; special situations such as biological, 
hazardous material and other public health threats; and issues such as 
full and partial evacuation principles.
    Again this year, the NFL sponsored a training program for senior 
staff from each NFL team and their associated facilities, which program 
was conducted at three locations across the United States. In addition 
to the presentations, the NFL created a separate training program 
module for teams and facilities that can be modified and used for the 
training of their front line staff in the local facility. This program 
teaches staff how to recognize an emergency, what to do in an 
emergency; how to contact help and what information to report; what to 
do until help arrives; how to protect themselves and others, how to 
recognize and respond to special situations such as hazardous 
materials; their role in a Multiple Casualty Incident, and how to 
evacuate calmly and safely. This current version of the Best Practices 
program is being used to train staff around the country as we speak 
here today.
    Like any search for best practices, the information continues to 
evolve as people gain experience in this new environment. What is 
important is that we all continue to look for ways in which we can all 
improve our readiness and response to both the expected emergencies of 
everyday life and to the new threats that are emerging. That is why 
Congressional hearings like that of today are so important. We listen, 
and we learn.
    Perhaps no single event provides the National Football League an 
opportunity to put these principles into practice than the Super Bowl. 
Each year, the NFL brings together a large cadre of experts from both 
inside and outside the NFL and oversees and manages the Super Bowl and 
its associated events. It is hard and demanding work. Having been the 
senior medical advisor since 1988, I can attest to the enormous changes 
in complexity and magnitude over time. After September 11, this 
complexity increased even more dramatically, both in intensity and in 
scope. The unthinkable is no longer unthinkable.
    As you know, by its nature, the Super Bowl has a huge impact on the 
local community where the game is played. This can be very challenging, 
but it also offers the opportunity to increase the emergency 
preparedness and capacity of the community. Because of the terrific 
support of the local community and surrounding areas for this event, 
Super Bowl planning can provide a forum for improved communications, 
strengthened relationships, and can help overcome organizational and 
political barriers, and foster innovative and creative partnerships. 
Cooperation among all agencies, resources and organizations that could 
potentially prevent or respond to a major incident is vital. 
Preparations and planning include incidents resulting from causes as 
diverse as crowd overload, to major trauma, a hazardous exposure, or a 
major incident.
    The NFL works in partnership with agencies at all levels of 
government, as well as private organizations, to share its expertise 
and to create an environment that fosters teamwork and integration. 
Starting up to a year in advance, the NFL ensures that venue 
management, security, emergency medical services, local hospitals, 
police, fire, local emergency management, public health, civic 
organizations such as the Red Cross, business leaders and the local 
political community come together early in the discussions of emergency 
and disaster planning and response. Such an effort provides a better 
understanding of the complexity, and the reality of responding to and 
managing the consequences of possible incidents, and focuses attention 
on the practical aspects of how a community would actually respond to a 
given incident. Since 9/11, we do not ask ``what if''; rather, we ask 
``when if'' and then work with others to hammer out a solution.
    Our physicians spend a great deal of time working with their 
counterparts in the State and local medical communities, as well as 
government officials, to facilitate the coordination and teamwork 
required for the Super Bowl. In addition, such emergency and disaster 
planning requires intimate cooperation between these groups and Federal 
agencies such as the Department of Homeland Security, the Centers for 
Disease Control and Prevention, the EPA, and the Department of Energy. 
Of particular note is that these groups are also brought together with 
architectural and transportation planners to plan and prepare ingress 
and egress paths, emergency access routes, staging areas, triage and 
treatment areas, decontamination areas, blow out gates, signage, and 
other needed infrastructure.
    Planning and cooperation are not enough. Therefore, the NFL 
encourages broad-based drills and training, incorporating as many 
providers and resources as possible. In addition, specific medical 
plans are written for the Super Bowl venue and the associated events, 
with orientation and training programs offered for a myriad of 
supervisors and front line staff. Emergency medical and disaster 
response information is integrated into staff handbooks, as well as on 
lanyard hang tags that many staff wear around their necks for ready 
reference.
    For game day operations, an integrated operations command post 
facilitates information sharing and coordination across a host of 
agencies and disciplines. In the weeks prior to the event, scenario 
practices and table top exercises provide an opportunity for teamwork 
and problem-solving, as well as for improvement of existing response 
services.
    Does all of this make a difference? Comments and feedback from 
recent Super Bowl cities are encouraging. Let me share a few with you 
from Houston by Dr. Richard Bradley of Houston Fire EMS and the 
University of Texas Health Science Center. He notes that as a result of 
Super Bowl's planning process, there is:
    <bullet> a closer working relationship between health professionals 
and law enforcement and Federal agencies, and better understanding of 
each others needs and resources;
    <bullet> stronger organizational and political links exist between 
EMS and public health;
    <bullet> much better cooperation between hospitals for surveillance 
and data collection;
    <bullet> a new secure system to facilitate hospital data collection 
and hospital bed status; and
    <bullet> development of new models for responding to major 
emergencies.
    Dr. Bradley notes that the benefits are still paying off and that 
the planning for Super Bowl was instrumental in Houston's preparations 
for the recent MLB All-Star game.
    Dr. James Aiken of LSU School of Medicine shared his insights as 
well. Super Bowl planning helped local agencies and organizations to 
look critically at a number of issues and to develop new city-wide 
disaster planning. He notes that, since Super Bowl XXXVI, there is:
    <bullet> stronger relationships between public safety and the 
health community;
    <bullet> a new recognition of health care as a first responder;
    <bullet> development of new training programs at the local medical 
centers
    <bullet> improved coordination of detection and response for 
hazardous materials; and
    <bullet> transfer of lessons learned to a state-wide disaster 
planning process.
    He, too, noted that this new city-wide planning has been useful for 
other events such as Sugar Bowl and the Final Four.
    The work involved, as well as the lessons learned, could be the 
basis of entire day of discussion, but more importantly, the National 
Football League strives to continue to improve each city it visits 
through Super Bowl and each city it touches through its teams. As we 
all learn and move forward, the NFL will continue to look for, and 
update, its Best Practices program.
    One last comment does deserve mention. Two years ago, the NFL did 
exactly that, in noting that the San Francisco 49ers had created an 
evacuation video for Candlestick Park. Recognizing the opportunity to 
provide additional guidance and help to its patrons, the Super Bowl has 
now incorporated the showing of an evacuation video several times prior 
to the event. I have a copy of this video, made by NFL Films, for you 
here today. The Commissioner's office is currently producing a 
localized version of the San Francisco video that will be provided to 
each League team for use at its facility.
    The NFL recognizes that our success lies in the strength of public-
private partnerships and wishes to thank our many Federal, State, and 
local partners who, each day, dedicate time, energy, hard work and 
resources to strengthen America's safety net. Thank you again for the 
opportunity to present a brief overview of some of the National 
Football League's activities to improve the Nation's preparedness and 
capabilities and I am happy to answer your questions.

    The Chairman. Thank you, Doctor.
    Just picking up there, why would these cities find that 
your evacuation and planning was unique? Shouldn't they have 
already had in place this type of an approach?
    Dr. Martinez. Well, I have to tell you I think the 
experience of my colleagues here is probably the same, but the 
fact is such a high profile event actually helps you overcome 
some of the organizational barriers that exist. I mean, when we 
go into cities, the biggest things we see are that we are able 
to change and improve the linkages between the front end, the 
emergency response from fire and police, and then kind of to 
the back end, the EMS and public health. We tend to, and this 
is my physician hat on, we tend to talk to ourselves a lot and 
communicate with ourselves, but truly working it through, it 
takes a big impetus to do that; and the second area is that it 
is funny. The public safety side is often municipal-based. The 
hospital side is actually market competition, and trying to 
bring those worlds together is something we are able to do.
    The Chairman. Well, I wonder how we replicate that, 
encouraging communities to do that, without having to have a 
Super Bowl in every town. We should be looking and trying to 
think about that.
    The other witnesses are involved in the actual preparation 
that would involve Federal funds and Federal participation. I 
would like to know independent of the HRSA funding stream, 
which we all recognize is incomplete and probably misallocated, 
can you give us your top two or three things that you think 
need to be improved relative to your relationship with the 
Federal Government or generally? Starting with you chief, since 
you are right in the middle of the Federal Government.
    Mr. Sellitto. Well, I think we are lucky in the District of 
Columbia that we do not have many layers of government above 
such as my colleagues in Maryland and Virginia do. We are 
receiving our funding in a timely fashion. That is one obstacle 
we have overcome. We do not have to go through the county and 
State levels. I think we are lucky there.
    One of the things that I am concerned with is pre-
distribution of medications. It is an issue that some 
jurisdictions have accomplished already, I believe Montgomery 
County to our north. Here in the District, we were ready to 
distribute medications to the first responders. My concern is 
always if there is a biological outbreak today, who will come 
to work tomorrow. Okay. They are supposed to pre-deploy some 
medications that will cover the employees and their families. 
In the District here, there was a legal obstacle to doing that, 
and it is going to require some legislation. I do not know how 
many other communities across the country will fall into the 
same scenario as they try to do things like this, but again, I 
think that is a major issue that has to be looked at maybe at a 
higher level.
    We talked a lot about surge capacity. We increased our 
capabilities here to transport from the scene to the hospitals, 
but I think we see where the numbers at the hospitals still 
cannot support 7,300 patients that was brought up or something 
like that.
    You mentioned transportation. We are looking at--in fact, 
we had an exercise about a month ago where we looked at 
possible use of Marc, VRE, along with Metro to take the 
patients out of the city to those outlying hospitals. Of 
course, that can only happen if the rail system is not 
compromised as a result of some type of attack. Those are some 
of the other things we are looking at, getting beyond the 
highways I guess we could say.
    We have some issues--and, again, this is talking about the 
regional aspects. We are working on regional response protocols 
at different subcommittee levels through the Council of 
Governments. Unfortunately, we can agree to a protocol change 
at committee level, but when we go beyond the borders, although 
let us say Alexandria City agrees to the protocol, they still 
have to run backwards to their county and State to make sure it 
is not a conflict with any other protocol. We are finding those 
regional operations guidelines and stuff, development of them, 
to be a little handicapped because the local jurisdictions in 
some cases do not have the power to adopt them, so it has to go 
all the way up to their States to allow them to operate under a 
different protocol.
    One of the things we did using the dirty bomb scenario was 
looked at radiation response protocols and found out that every 
jurisdiction in the area had differing guidelines and none of 
them matched. Now, that is one thing that we worked. It took 
about 6 months to work through it, and we did come up with a 
new protocol that is adopted in the region so that if there was 
an event, everyone would be playing off the same sheet of 
music, and one by one, we have to go through all the different 
scenarios and come up with those guidelines.
    Again, it is a little harder in this area, because as soon 
as we are talking with mutual aid partners, it is crossing 
State lines, whereas I think maybe in New York it might be a 
little easier because they are all at least in one State.
    Another thing is the standards to which we are measured, 
and I think it was alluded to earlier there are no set 
standards in some areas that we can measure our readiness. I 
know Homeland Security is working on development of some new 
scenarios with task lists that will, I think, really be good 
guidance into the question are we prepared, and we will be able 
to answer it based on those new standards that are forthcoming.
    The Chairman. Thank you, Chief.
    Doctor.
    Dr. Thibault. Thank you. I would answer at kind of three 
different levels. The first is direct support for emergency 
preparedness, the recognition that hospitals need direct 
support to take on these added roles and to bring to a level of 
excellence and that those funds be distributed in a flexible 
way, because the needs of one hospital will be different from 
that of another in terms of where are the deficiencies and that 
we avoid expending money and energy with mandated standards and 
programs that do not necessarily serve our goals. The 
availability of money directly to hospitals, recognizing their 
first responder role, flexibility in those, and at least a 
partnership in deciding what rules and mandates would either 
accompany them or be associated with them.
    The second level is a recognition that the ability of our 
hospitals to respond to even an ordinary emergency, to say 
nothing about a sustained or unprecedented emergency, is really 
dependant upon the capacity, the flexibility and the capacity 
of the system as a whole. How well health care is funded has a 
direct effect on what our capacity is going to be. Right now, 
most of our urban hospitals are functioning at 90 percent or 
greater capacity. Their ability to have the flexible for surge 
capacity, their ability to even maintain a stable bottom line 
is dependant upon the total pot of resources available for 
health care. There is a direct relationship between the ability 
of our health care system to respond to an emergency and the 
general health of our health care system, and we cannot 
disassociate the two.
    The third level is research, and I am very encouraged by 
the passage of the Bio Shield, but I think we cannot 
underestimate the importance of the pursuit of new knowledge so 
that we are ready to respond to new emerging infections, 
whether they be used for bioterrorism or whether they be 
naturally occurring. The support of fundamental research and 
then the application of that research in better treatments, 
better detection methods is going to benefit society as a whole 
and is going to be directly--is going to directly support our 
ability to respond to bioterrorism.
    We are very pleased in New England that we have a regional 
center to study biological agents, and one of the high security 
bio containment laboratories will be placed in Boston. I think 
continued support for fundamental research and the application 
of that research to the health of the public is also going to 
be important in keeping us in the highest state of 
preparedness.
    The Chairman. Thank you, Doctor.
    Ms. Waltman, do you have any thoughts on that question?
    Ms. Waltman. We have the same issue in New York City, 
obviously, as in other urban areas with respect to the 
financial health of hospitals. We happen, just factually, to 
have experienced 5 years of bottom line losses. In the last 2 
years, we have actually closed seven hospitals, and we have 
closed 10 percent of the city's hospitals because of financial 
problems, and while in the long run, we may end up as a system 
being perhaps financially stronger for that, it really does 
minimize our surge capacity as we close more and more 
hospitals.
    Surge capacity is more than just beds. It is staffing and 
it is supplies and it is other kinds of equipment, but what we 
do see is trying to be more efficient and struggling with the 
financial circumstances facing hospitals. At the same time, 
there is a greater expectation of us in terms of our 
preparedness with respect to a variety of different kinds of 
terrorist attacks.
    Also, another concern that we have is we can perhaps judge 
what our own surge capacity is, but I kind of call this 
protecting our surge capacity, and it gets back to this 
collaborative approach. There are many things we can do to 
evaluate how many patients we can take, but if transportation 
routes are cut off or certain other things occur, schools close 
down and other barriers that get put in play because of other 
agencies who might be taking certain actions, really does 
impact the surge capacity of hospitals. If our workforce cannot 
come to work, they are scared to go to work, it really does 
affect our own surge capacity, and what we are doing is 
constantly engaging in drills and walking through scenarios and 
trying to understand better what all the other players do 
should certain events occur so we can better judge and evaluate 
and put in place mechanisms to work around the barriers that 
are placed there.
    I will also say that I think that there are still ways, 
notwithstanding a lot of the collaboration that goes on, to 
coordinate the funding that is given out with respect to 
preparedness within the Federal Government, the State and 
localities, because there are still different kinds of grants 
going in different directions, people working on very well-
intended projects, but I do think that there needs to be more 
coordination with respect to those different types of programs 
because of the seriousness of the issues that they focus on.
    The Chairman. Well, I thank the panel. Unfortunately, I 
have another event I have to go to, another meeting, but I very 
much appreciate your testimony. It is extremely useful, and, 
more importantly, we appreciate the fact that you are on the 
front lines and that you are out there trying to make this work 
whether the Federal Government is helping you or not. 
Hopefully, it is. Hopefully, we are all getting better at this, 
but we have a long way to go and we all recognize that.
    So keep us posted on your thoughts and ideas.
    Thank you.

                          ADDITIONAL MATERIAL

        Questions of Senator Gregg for Secretary Tommy Thompson

                         REGIONAL COORDINATION

    Question 1. Under the Public Health Security and Bioterrorism 
Preparedness and Response Act of 2002, the Department is directed, in 
awarding hospital preparedness grants, to prioritize applications from 
entities that focus on regional coordination. GAO studies and reports 
from the field describe a serious lack of regional coordination in 
multi-jurisdictional metropolitan areas such as Washington, DC, Boston, 
New York City, Philadelphia and others. Will you be reviewing State 
plans to identify inadequate regional coordination? How does the 
Department plan to correct these deficiencies in regional planning in 
the coming grant year?

                          HOSPITAL PERFORMANCE

    Question 2. Since, under the same Act, the Department is awarding 
these grants on a formula rather than a competitive basis, what 
recourse do you have to insist on certain performance measures being 
achieved by grantees in States and localities? Do you have the 
authority to condition funding on performance?

                              FUNDING FLOW

    Question 3. We understand that delays getting funding through State 
and local intermediaries have stymied the ability of hospitals to make 
sufficient plans and procurements intended by the HRSA hospital grants. 
Particularly in high-threat areas, do you have the authority to provide 
funding directly to hospitals? If so, do you plan to do so in order to 
generate the preparedness levels needed to respond to a mass casualty 
event?

                          FUNDING DISTRIBUTION

    Question 4. We understand that the funding streams for hospitals 
are often being distributed in small portions to every hospital in a 
State rather than through a strategic, tiered approach where a few 
hospitals have maximum capacity and others develop varying capacities 
below the maximum. The current practice leads to key hospitals not 
getting enough of the funds to buy real capacity and instead are using 
the money for small-ticket items like protective gear and 
pharmaceutical caches. Will you change HRSA protocols allowing approval 
of plans that give small amounts of money to every hospital without a 
more strategic approach to State-wide or region-wide surge capacity 
development?

                             SURGE CAPACITY

    Question 5. HRSA requires hospitals to define surge capacity as 
that capacity available above and beyond daily operations. Hospitals 
are not allowed to count toward your benchmark the real-life approach 
of discharging non-critical patients, canceling elective surgeries and 
outpatient clinics to free up providers and space. Under your 
definition, how many grantees have achieved this excess capacity? Do 
you think that requiring hospitals to build beds and other capacity 
that sit unused until an emergency is the best use of the HRSA dollars? 
Would you consider a change in your surge capacity definitions?

                     EVALUATION AND ACCOUNTABILITY

    Question 6. As the CDC and HRSA grants enter their 4th year and 
fourth billion dollars of funding, when can the HELP Committee expect 
to see the Department develop a comprehensive, quantitative evaluation 
for Congress on the achievement of the CDC and HRSA benchmarks in every 
State?

                      STRATEGIC NATIONAL STOCKPILE

    Question 7. Would you describe what medical countermeasures are 
available as part of the Strategic National Stockpile in the event of a 
radiological or chemical attack? What additional countermeasures, if 
any, is the Department considering securing with regard to these two 
threats?

        Question of Senator Kennedy for Secretary Tommy Thompson

    A Massachusetts biotechnology company received the first FDA 
approval of a rapid test to detect exposure to anthrax. The test was 
developed with a $1 million collaborative contract between CDC and 
Immunetics of Boston and is a good example of the possibilities of such 
public/private partnerships.
    CDC sought to develop the new test for inclusion in the 
Bioterrorism Laboratory Response Network and for effective widespread 
use in the event of another anthrax attack. CDC says the test is 
``quicker and easier to interpret than previous'' tests and can be used 
by any laboratory without specialized equipment or training.
    Unfortunately, CDC has not clarified whether it intends to purchase 
this test for the national stockpile. As a result of the current 
uncertainty, State health agencies have said they don't know whether to 
buy the test. Given CDC's support for this new method of detecting 
anthrax, it is surprising that the most recent bioterrorism guidelines 
do not mention the test's availability.
    Please clarify whether CDC or any other agency in the Department 
intends to purchase this new test for the national stockpile, and, if 
so, what the timeline for that purchase will be, and whether CDC plans 
any revision in the current bioterrorism response guidelines to reflect 
the availability of the new test.

                               __________

        Questions of Senator Murray for Secretary Tommy Thompson

    I would like to ask some questions regarding bioterrorism 
preparedness and response--questions I asked Dr. Gerberding almost 
exactly 1 year ago today. Unfortunately, I wasn't provided with many 
answers at last year's hearing and have not received any written 
answers since that time--so I'm hoping you can help me with some 
answers today.
    While the President signed an important piece of legislation 
yesterday, Project Bioshield provides many needed tools without 
training. I am concerned that we haven't built the ``surge capacity'' 
for public health and the health care communities to adequately provide 
mass health care during a major event.
    As we all know, the first line of defense in a biological attack or 
outbreak will be our health care providers. Yet, prior to the September 
11th attacks, fewer than 5 percent of ER doctors were trained in 
responding to this kind of public health threat.
    Due to the demands of public health, it is unlikely that a 
significant number of public health officials and employees within 
public health departments have taken advantage of training 
opportunities. So, it is unlikely that our ER doctors are any more 
prepared than they were 3 years ago.
    Unfortunately, the response to a biological attack must be rapid 
and any delay could mean thousands of lives lost. Mobilization of a 
highly skilled response team may not be feasible or possible. And it 
may take too long.
    Question 1. What has the Administration done to encourage greater 
training of primary care providers or ER doctors in treating a 
biological outbreak?
    Question 2. If a biological attack were to occur--how have we 
prepared public health authorities to rapidly detect a possible 
biological attack?
    We need to continue building the infrastructure for providing 
better communication between public health and the health care 
community at the Federal, State and local levels. And, in the event of 
a biological attack, our State and local public health agencies and 
hospitals will need the laboratory capacity and connectability to 
adequately respond to a mass event.
    Question 3. What has the Administration done to enhance this 
communication and increase our laboratories' capacity to deal with a 
large-scale attack?
    As you know, Washington State's Secretary of Health, Mary Selecky 
is at the forefront of preparing for biological incidents. She began 
working on these issues prior to September 11th and is known throughout 
the country as a leader in preparing public health agencies and 
facilities to respond to wide-spread attacks. I have worked with her 
extensively on this issue and both of us are well aware that biological 
threats are not bound by borders.
    As the SARS epidemic spread from Asia to Toronto, there were 
tremendous concerns about how the health care system in neighboring New 
York would respond if the disease spread across the border. On the 
other side of the country in my home State of Washington, we shared the 
same concerns, as did our neighbors in British Columbia.
    While the SARS outbreak wasn't an act of bio-terrorism, it was a 
clear reminder that any attack using biologics such as smallpox would 
not recognize State or national borders. Our neighbors to the North or 
South could likely be affected. In addition, we may have to turn to 
those neighbors for help in responding to a massive domestic attack.
    I believe it is essential for border communities in Washington to 
work with health care providers in Canada in order to be fully prepared 
for a bio-terrorist attack.
    Question 4. Would you please provide the committee with the 
Administration's progress in reaching bilateral agreements with Canada 
and Mexico in the event of a bioterrorism attack?
    Question 5. What efforts are currently in place to coordinate a 
bioterrorist preparedness plan between our State agencies, Federal 
agencies and Canada or Mexico?
    Question 6. Are there public health models that we can emulate to 
build a regional agreement with International partners?
    Question 7. We need to ensure that the first priority is providing 
immediate care to those threatened--are there mechanisms for providing 
care without the limitation of national borders?
    We know there are treatments and vaccinations available for 
protecting individuals in the event of a bio-terrorist attack. And, 
despite the signing of Project Bioshield, our capacity to manufacture 
those treatments is still limited.
    And, there are real concerns about safety and side effects of 
current vaccinations. Today we face new and emerging threats and the 
proposed changes in research, drug approval and vaccine safety are 
concerning. For example, stockpiling Cipro will do little to protect 
children or pregnant women from an anthrax attack since this drug has 
not been approved for use by children or pregnant women.
    Question 8. If we expedite FDA approval, what guarantee are we 
providing vulnerable populations like pregnant women, children and the 
elderly?
    I am aware that the NIH is working on a next-generation smallpox 
vaccine.
    Question 9. Are additional vaccines or antibiotic treatments being 
considered for more vulnerable populations that are safe and effective 
in responding to a biological terrorist attack?
    Mr. Secretary, it is clear we have made some progress but there are 
still too many questions left unanswered.
    The bottom line is that uninterrupted planning and sustained 
education efforts will allow us to create and maintain a ready response 
capacity.
    That is going to take a significant amount of funding--and I hope 
you agree that any decrease in resources will decrease our ability to 
respond--and will undermine what we have accomplished to date.

                               __________

       Questions of Senator Clinton for Secretary Tommy Thompson

    As you know, I have written to you and Secretary Ridge over the 
last several months concerning the long-term mental health counseling 
needs of the FDNY and NYPD personnel who continue to deal with the 
aftermath of September 11.
    I am very concerned about moving forward into fiscal year 2005 and 
beyond. The FDNY Counseling Services Unit and the New York City Police 
Department informs me that continued counseling services are needed 
beyond the end of this year totaling approximately $8-10 million. The 
latest extension of Project Liberty will only allow FDNY to take on new 
cases until September 30 and then will need to phaseout in December.
    Congress appropriated $8.8 billion in the aftermath of the 
September 11 attacks for FEMA to use in response and recovery including 
services for FDNY and NYPD. It is my understanding from the 
Appropriations Committee that funds remain available within the 
Disaster Relief Fund that could be allocated for future needs of the 
FDNY and NYPD. I believe FEMA and HHS need to provide funding beginning 
October 1 and continuing so that no firefighter or police officer is 
turned away if they are seeking help.
    Question 1. Will HHS continue working with us to make sure we are 
providing our fire, police, and emergency services personnel with the 
counseling services they need?
    Question 2. Can I get your assurance that HHS, in conjunction with 
FEMA, will provide New York with additional funding and whatever 
technical advice needed, for those on the front lines of our city's 
defense?
    While I recognize that the most recent round of CDC funding for 
local health department preparedness included the ``City Readiness 
Initiative'' to try and address the issue of threat in the distribution 
of funding, NYC remained only 29th per capita in funding for 2004.
    Question 3. As you begin to think about the 2005 round of grants, 
what are you doing to further address questions of threat and risk?
    Question 4. What about the HRSA hospital preparedness funding? What 
are you doing with regard to considering threat for those grants?

                                 ______
                                 
             Questions of Senator Clinton for Andy Mitchell

    As you know, the language in the fiscal year 2004 Homeland Security 
Appropriations law was silent on how the Department could allocate 
funds to States after a small-state minimum of .75 percent is applied, 
which I understand the Department treats as a base.
    The Congressional Research Service has confirmed that it was well 
within the Department's discretion for the Department to have allocated 
State Homeland Security Grant funds based upon factors such as threat 
and risk. I've met with Secretary Ridge about this issue and written to 
him about it a number of times and I believe that he agrees that these 
funds should be allocated based on threat and risk, as every homeland 
security expert I've heard from has said should be done.
    Question 1. Why then did the Department choose to allocate fiscal 
year 2004 State Homeland Security Grant funds based on population 
alone?
    Question 2. If the fiscal year 2005 Homeland Security 
Appropriations bill again gives Secretary Ridge the discretion to 
allocate State Homeland Security Grant funds based on threat and risk, 
will the Department continue to allocate funds based on population or 
will it allocate funds based on threat and risk?

    [Whereupon, at 1:00 p.m., the committee was adjourned.]


                                  <all>

</pre></body></html>
